<html>
<title> - OVERSIGHT OF THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 110-1192]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1192
 
                           OVERSIGHT OF THE 
                   U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 18, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
78-189                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
    Christine D. Kurth, Republican Staff Director and Chief Counsel
                  Paul Nagle, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 18, 2007.................................     1
Statement of Senator Inouye......................................     3
    Prepared statement...........................................     4
Statement of Senator Kerry.......................................    28
Statement of Senator Klobuchar...................................     7
Statement of Senator Lautenberg..................................     1
Statement of Senator Lott........................................     5
    Prepared statement...........................................     6
Statement of Senator Pryor.......................................    25
Statement of Senator Smith.......................................     9
Statement of Senator Stevens.....................................     2
    Prepared statement...........................................     3
Statement of Senator Thune.......................................     8

                               Witnesses

Peters, Hon. Mary E., Secretary, U.S. Department of 
  Transportation.................................................    10
    Prepared statement...........................................    12
Scovel III, Hon. Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................    35
    Prepared statement...........................................    37

                                Appendix

Letter, dated October 21, 2007, from the Sierra Club--National 
  Parks and Monuments Committee to the U.S. Senate Committee on 
  Commerce, Science, and Transportation..........................    49
Response to written questions submitted to Hon. Mary E. Peters 
  by:
    Hon. Barbara Boxer...........................................    61
    Hon. Maria Cantwell..........................................    62
    Hon. Daniel K. Inouye........................................    55
    Hon. John F. Kerry...........................................    59
    Hon. Frank R. Lautenberg.....................................    65
    Hon. Trent Lott..............................................    69
    Hon. John D. Rockefeller IV..................................    59
    Hon. Ted Stevens.............................................    69
Response to written questions submitted to Hon. Calvin L. Scovel 
  III by:
    Hon. Barbara Boxer...........................................    73
    Hon. Daniel K. Inouye........................................    72
    Hon. Frank R. Lautenberg.....................................    73


                           OVERSIGHT OF THE 
                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                       THURSDAY, OCTOBER 18, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Senator Inouye is detained, and we want 
to, with his suggestion, get this hearing started. And so, 
we'll do just that. The starting time is not necessarily the 
significant time, it's the finishing time that is most 
important to him. We've got business to do and things to take 
care of.
    I want to open the hearing. Welcome, Secretary Peters. I'm 
going to begin by saying that I am disappointed that President 
Bush continues to pour his energy into ideology instead of 
taking the steps necessary to solve our country's 
transportation problems. It seems clear that this 
administration wants to raise taxes on travelers and widen the 
divide between those who can afford to pay more for their 
travel and those who can't. For example, we know that the skies 
over the New Jersey and New York region are crowded with 
flights, but, instead of transportation--the Department of 
Transportation using its authority to require realistic flight 
schedules to reduce delays, the administration wants to charge 
travelers more money to fly during certain times. This scheme 
is called ``congestion pricing.'' Should just be called 
``higher fares,'' and then everybody understands exactly what 
we're talking about.
    Now, we saw this same ideology this past summer, when the 
Secretary offered New York City $355 million in Federal funding 
if they would increase tolls on people entering the city. Now, 
a couple of things. For people who commute from my state, who 
have to drive because they don't have, or choose not to use 
public transportation, can't find convenient times to travel 
there, the costs for parking are enormous. And now, to suggest 
that we're going to charge these people higher tolls, it 
doesn't really--make a lot of sense, nor is it, frankly, 
possible.
    Charging higher tolls with gas prices at record levels is 
not in the best interest of families who need to commute to 
work. From our bridges to our airports to our railroads, we've 
got real transportation problems. The holiday travel season is 
almost upon us. After last year's debacle at the airports, I'm 
concerned about our aviation system. Delays at our airports are 
atrocious, and customer service has reached new lows. The 
Department of Transportation needs to do a better job in 
responding to travelers who have complaints. Now, I've worked 
on the Appropriations Committee to include funding in next 
year's budget to do precisely that.
    Also, instead of preparing for the mass exodus of retiring 
air traffic controllers by hiring and training new ones, this 
administration is showing them out of the door--shoving them 
out of the door--by imposing new working conditions instead of 
bargaining with them.
    Our highway and bridge funding needs are enormous. We 
received a tragic reminder of the condition of our bridges 
after the collapse of the I-35W Bridge in Minneapolis this 
summer, and we've got to adequately fund our transportation 
infrastructure in the next highway bill.
    Both the House and Senate recently passed a strong 
transportation appropriations bill, but the President has 
threatened to veto it. Now, along with improvements to our 
roads, bridges, and aviation system, any long-term 
transportation system must also improve passenger rail. Senator 
Lott and I have a bill that would do just this. And, once 
again, the administration has offered ideology in this debate 
on the future of our rail system, and has tried to bankrupt 
Amtrak. Over a 3-year period, there was a specific design to 
bankrupt Amtrak. And we have 24 million people a year who are 
using Amtrak. Are we going to tell them to go out and 
hitchhike? The highways are too crowded. You can't get a ride; 
and it's too slow, if you do. We are anxiously awaiting our 
bill coming to the Senate floor.
    So, it's time for President Bush to put the money and the 
resources where the problems are and offer practical and 
meaningful solutions to the transportation problems that have 
increased under his watch.
    And, with that, I'd call on the Senator from Alaska, the 
Ranking Member of the Commerce Committee. Welcome.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Well, thank you very much. Sorry to be 
slightly late.
                                                                                                                                                                                                                                                              Madam Secretary, I do thank you for being here today, and I 
want to congratulate you on what you've done in such a short 
period of time. We do have some substantial problems in our 
transportation systems, as you have indicated. The decline of 
our transportation systems is apparent. The aging of America is 
upon us because of so many things happening at the same time. I 
look forward to your comments today, and your prepared 
statement.
    Let me point out that we have some substantial problems in 
our state, not the least of which is that we have fewer roads 
than Vermont. Vermont has 2 percent of the land that we have in 
Alaska, and yet, they have more roads than we do. We have a 
substantial problem with airports. We still have some airports 
in the northern part of Alaska that do not have runway lights, 
and yet, that's the only means of egress and access to those 
small villages. And, in the wintertime we've had to improvise 
in many ways to get medevac planes into those places. We also 
have half the shoreline of the United States, and we have fewer 
ports I think, than my friend here has in his----
    Senator Lott. Seems fair to me.
    Senator Stevens.--in his state.
    [Laughter.]
    Senator Stevens. Clearly, the problem is that we are an 
enormous State with enormous transportation problems. So, we 
look forward to working with you. My dream is to, before I 
leave the Senate, extend the Alaska Railroad over to Canada, so 
I'd like to take you up sometime to show you that 200 miles is 
left before we hook up the railroad systems of the northern 
part of this continent.
    I see the Chairman's here. I'll ask that my statement be 
printed in the record in full.
    Mr. Chairman?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman [presiding]. Without objection, so ordered.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    Thank you Chairman Inouye for holding today's hearing. We have not 
had Secretary Peters before the Committee since her nomination hearing 
and I am glad she could join us today.
    The State of Alaska has a unique transportation infrastructure 
system along with transportation challenges that most in the Lower 48 
do not have to address.
    To understand the infrastructure challenges it is important to take 
into account Alaska's size and environment. Alaska's land mass is 
591,004 square miles, which is more than twice the land area of Texas. 
East to west, Alaska crosses what would normally be four time zones. 
North to south, Alaska stretches approximately the distance from the 
Gulf Coast to the Canadian border.
    Environmentally, the State contains 17 of the 20 highest mountain 
peaks in the U.S. Much of the State is designated wet lands and this 
along with the long winters makes for a short and challenging 
construction season.
    While Alaska is the largest state in land area, it only has 
approximately 14,000 miles of public roads, which is equivalent to the 
miles of road in Vermont, a state with less than 2 percent of the land 
area in Alaska.
    Furthermore, over 70 percent of Alaska's communities are not 
connected to a land highway system. This lack of highway infrastructure 
creates a situation where commuter and air taxi flights routinely serve 
as the traditional road system, making aircraft essential for personal, 
commercial, cargo, and mail transportation to most Alaskan communities.
    Alaska lies under 20 percent of the airspace in the National 
Airspace System (NAS). Alaska ranks sixth in the total number of 
airports with 583, including heliports and seaplane bases, a number 
that equals approximately 3.5 percent of the total number of airports 
in the U.S. These figures do not include the many places pilots land 
where there is no constructed facility or published airport.
    According to the FAA, each year air carriers in Alaska transport 
the equivalent of four times the state's population, compared to about 
1.7 times the U.S. population carried by air operators in all other 
states.
    Proudly, because of its unique obstacles, Alaska has become a major 
test bed for new transportation systems and technology. The State has 
done well by innovating out of necessity. It is important the 
Department understands these challenges and makes a concerted effort to 
work with this Committee to improve the states' transportation 
infrastructure, rural access and construction challenges.
    Thank you Chairman Inouye, I look forward to the testimony.

    The Chairman. I, too, will place my opening statement in 
the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Transportation fuels our economy and improves the quality of our 
lives. It permits industry to move goods and people to travel both 
across our Nation and globally. Transportation is an economic catalyst 
that drives our Nation's prosperity.
    While the U.S. transportation system is first-rate, it is facing 
substantial challenges that threaten to gridlock commerce. Many of our 
highways, bridges, and tunnels, built in the middle of the last 
century, are nearing the end of their design life and must be rebuilt 
or replaced.
    The tragic Minneapolis bridge collapse this past August highlighted 
a growing problem across the entire nation, and serves as a wake-up 
call to the crisis facing all of our transportation modes and their 
essential infrastructure.
    Simply replacing aged infrastructure will not be enough to meet the 
needs of our Nation in the coming century. We also must expand the 
capacity of our transportation systems to accommodate growing commerce 
and an ever-increasing population. The growing daily congestion, 
whether on our highways or railways, or in our ports or airspace, is 
problematic for the public and American businesses, and is steadily 
becoming worse. More highway, aviation, and port infrastructure must be 
built, more railway tracks must be upgraded and laid, more intermodal 
connections must be developed, and the entire system must be managed 
and maintained more efficiently.
    In addition to addressing the improvement of the mass 
transportation modes, Congress is on the verge of addressing fuel 
economy standards for the first time in several decades. The 
opportunity to address our growing dependence on foreign oil and reduce 
our greenhouse gas emission is here, and I look forward to partnering 
with the Members of the House of Representatives and with the 
Department of Transportation (DOT) to have the fuel economy provisions 
the Senate included in H.R. 6 sent to the President and signed into 
law.
    Improving safety, of course, is as important as taking action to 
improve capacity and efficiency, and the two must proceed hand-in-hand.
    In some areas, the DOT has made good progress on this mission. The 
Federal Aviation Administration (FAA) has achieved an unprecedented 
safety record over the past several years, and the Federal Railroad 
Administration (FRA) has helped reduce railroad accidents. But the 
safety of other areas of our transportation system has not seen as much 
progress. Highway and truck fatalities have either risen or remained 
stubbornly high in recent years, and efforts by the Federal Motor 
Carrier Safety Administration (FMCSA), in particular, appear not to be 
achieving the safety improvements that we expect and that the driving 
public deserves. While the National Highway Transportation Safety 
Administration (NHTSA) has been executing the rulemakings mandated by 
SAFETEA-LU, there are questions about the efficacy of the rules, 
especially in the areas of roof crush and occupant safety.
    I hope to hear from Secretary Peters that the DOT will redouble its 
efforts to improve safety and remain vigilant in maintaining the safety 
improvements we have achieved so far.
    Finally, scarce fiscal resources compound the challenge of 
efficiently replacing and expanding our aged infrastructure. The 
Congressional Budget Office projects the Highway Trust Fund will be 
depleted by the end of this decade, and the Government Accountability 
Office has raised questions about the ability of the Airport and Airway 
Trust Fund to sustain needed funding for the FAA and pay for the 
modernization of the air traffic control system.
    The DOT must act now to avoid catastrophic breakdowns across all 
transportation modes in the system. Congress must find the resources to 
fund new capacity and safety programs, and provide diligent oversight 
to ensure goals are met. I look forward to the testimony of Secretary 
Peters and Inspector General Scovel today and plan to work closely with 
my colleagues in the Senate to ensure the challenges our transportation 
system faces are met.

    The Chairman. The only comment I have is that, like Senator 
Stevens, I do a lot of traveling, and it gets a bit tiring when 
you have to sit around. My last trip to New York City took me 5 
hours going and 6 hours coming back. Of the 5 hours, I spent 3 
hours on the tarmac.
    Senator Lautenberg. Mr. Chairman, without interrupting, try 
Amtrak.
    [Laughter.]
    Senator Lautenberg. Oh--to New York? I thought you were 
talking about from New York to here.
    The Chairman. New York, yes. Maybe I should. But they get 
delayed, also.
    Senator Lautenberg. You're the Chairman, sir.
    Senator Stevens. I do interrupt. What you should do is join 
me in asking the airlines to assign their pilots and crew to be 
in the city they're going to fly out of on the night before. 
All of these delays I've faced all summer have been because the 
pilots or other members of the crew have been in some other 
city.
    Pardon me.
    The Chairman. Would you support us, Madam Secretary?
    Secretary Peters. Mr. Chairman, I certainly understand the 
challenges with air traffic, and we are taking definitive steps 
to deal with the congestion and the delays in air travel.
    The Chairman. I have just one question before I call 
someone else. I have a shoulder replacement, and it's been 
there with me for many years now. When I received the surgery, 
they gave me a card, and said, ``Just show it to the airline 
people and they'll let you go through.'' That card is no longer 
in use, because, whenever I show it, that's when I get the full 
inspection.
    So, with that, may I now recognize----
    Senator Stevens. She hasn't made her statement.
    The Chairman. Who?
    Senator Stevens. She hasn't made her statement.
    The Chairman. Oh, I'm sorry. Please.
    Senator Lott. Mr. Chairman?
    The Chairman. Yes?
    Senator Lott. Before our special witness here today makes 
her statement, I would like to just make a very brief opening 
statement please, because I'm anxious to hear her statement, 
too.
    The Chairman. Oh, please. Yes.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. But, Madam Secretary, thank you for being 
here. Thank you, Mr. Chairman, for having this hearing. I think 
it's very important that we do this.
    I think you're doing a great job as our Secretary, and I 
want you to do more, I want to empower you to do more. I am 
firmly convinced that one of the areas where the Federal 
Government really does have a key role is in the transportation 
area. Lanes, trains, planes, ports, and harbors are absolutely 
critical and essential for our future economic development. But 
I do think that you, as our Secretary, and this administration 
should be more proactive. We need less, you know, response or 
reacting to what we're doing. You should be pulling us, but 
we're pulling you. When it comes to the highway bill, when it 
comes to Amtrak, when it comes to aviation, we're pushing the 
envelope. And I wish y'all would get out ahead of us and 
challenge us more and get the White House and the 
administration to give a higher priority to transportation.
    I don't mean that to be as critical as it sounds, but if 
you don't act, we will do it, eventually. And these things, 
like the New York airspace, I know that's complicated. It's not 
easy to do. But we've got a problem there. You're going to have 
to deal with it. Cross-border trucking, I supported you on 
that, but we haven't pulled that off. But those are small 
pieces of a bigger picture. And I just wish that you would 
really, really push a lot more and help. We need an Amtrak 
bill. The Senator from New Jersey and I have been working on 
this for, I don't know, 5 years, and we've got a commitment for 
it to come up, but we need you to help us get Amtrak the 
flexibility it needs, the reform it needs, and the money it 
needs. I'm not a guy to get huge benefit from Amtrak in my 
State, but it makes common sense that we have this form of 
transportation available in America. Planes and lanes can only 
do so much. So, I challenge you to be aggressive. And if you'll 
be aggressive, we will help you.
    Meanwhile, thank you for what you do. We appreciate the 
fact that you get around the country, you don't just stay holed 
up in the Ivory Tower over there at the Department. And we want 
you to do more.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Lott follows:]

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi
    Mr. Chairman, thank you for holding this hearing. I have long 
believed that an efficient transportation system is vital to our 
Nation's prosperity. I also believe that improving transportation is 
vital at the State and local level to promote economic development. 
That is why I was especially pleased when the President nominated a 
former state transportation secretary to be the Federal Secretary of 
Transportation.
    Madam Secretary, the challenges you and the Department of 
Transportation face are difficult and multi-faceted. And you also have 
plenty of folks second guessing you and looking over your shoulder. So 
I want to commend you for the effort you have made to reach out to this 
committee when working on many of these issues.
    Over the summer a great deal of attention was placed on the 
aviation congestion and delays in New York. I think we all realize that 
something has to be done before next summer to ensure we don't see a 
repeat. But I hope that whatever you do for next summer is not seen as 
a permanent solution. I think that the long term solution for New York 
is increased capacity and a more modern air traffic control system. For 
example, you have completed a redesign of the New York airspace that 
the Department estimates will increase capacity by 20 percent. I would 
urge you to implement that design as quickly as possible. I have heard 
estimates of as long as 5 years to get all of the benefits--that's 
really too long.
    As the Department studies this problem, I hope that you consider 
the effects of any solution on: consumer choice; ticket prices; and 
service to smaller communities. For better or worse, small communities 
are dependent on the hub and spoke system. If we start constraining 
capacity at hubs rather than increasing capacity, the first flights 
that will be dropped will be the lower volume flights from small 
communities. The 747 full of business travelers from London is going to 
be able to pay a pretty hefty congestion fee--a regional jet coming 
from a smaller community will not be able to pay much. I am under 
little illusion that my State is going to have much in the way of 
direct flights to airports in the New York area. But my State does rely 
on other hubs, such as Atlanta, Memphis and Dallas-Fort Worth, for 
connections. These are all busy airports that will see increased 
congestion in the future if projected traffic growth materializes.
    We should not forget that the best way to address the burden to the 
air space is to support the Next Generation Air Transportation System. 
The entire aviation system needs an overhaul. We need a permanent 
solution. I want to work with you on passing an FAA Reauthorization 
bill that provides the financial and programmatic tools the FAA needs 
to modernize.
    Thank you and I look forward to the witness testimony.

    The Chairman. Thank you.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    I can attest firsthand that Secretary Peters does not stay 
holed up in her Ivory Tower. We spent a lot of time together in 
Minnesota this summer after the tragedy with our I-35W Bridge, 
and I really appreciated how practical you were and how you 
were able to work with everyone from the Governor to the Mayor 
to our Congressional delegation. You helped us with that 
emergency funding immediately. I think you saw how quickly our 
State responded. And now, of course, we're working on the 
appropriations, which I just urge you to bring the message to 
the President that we'd like the transportation bill upheld.
    What I said that day when we were standing next to each 
other in front of that bridge was that a bridge just shouldn't 
fall down in the middle of America. I continue to believe that, 
and I think that if there was any silver lining to our tragedy, 
it's that it triggered a national discussion about 
infrastructure investment, not just in bridges, but also in 
roads and in rail and, as Senator Lott pointed out, in harbors, 
in ports, and our entire transportation infrastructure.
    As President Kennedy once said, ``building a road or 
highway isn't pretty, but it's something our economy needs to 
have.'' I would like to make one point today, and I'd say that 
there is nowhere that that's truer than in rural America. We 
see this rejuvenation and revitalization in rural America, from 
wind farms to ethanol plants, and, at the same time, these 
industries are placing great demands on our transportation 
infrastructure. The U.S. Department of Agriculture estimates 
that truck freight in rural America is going to double by the 
year 2020. You take ethanol, just as a specific example, an 
average square mile of land in southern Minnesota, which now 
generates the equivalent of 80 loaded semi trucks of grain per 
year, could soon produce double that, 160 loads per year. And 
the continuing trend toward greater reliance on trucking to 
support these industries raises concerns about the wear and 
tear, not only on our bridges, but on our roads. Many of these 
roads and bridges were built before this trend was evident, and 
they were not designed for this type of traffic.
    I also support Senator Lautenberg's work with rail and 
Amtrak, and I'd like to say, from a shipping standpoint with 
rail, we have some major problems in the rural parts of our 
country for captive shippers. Senator Dorgan and Senator 
Rockefeller and Senator Vitter and I have a bill focused on 
that, because we believe there's not a level playing field for 
our captive shippers. We have numerous examples of places in 
Minnesota, such as paper mills that are trying to ship their 
goods, and it's cheaper for them to actually import--from their 
plant in Europe--to Indiana by plane than it is to send them 
down by rail. And some of that is because they are captive 
shippers, the way they've priced things out, is difficult for 
shippers to contest the prices now, and how much money they 
have to even make a claim is a problem.
    So, in the end, I think we need to commit to broadening our 
transportation options, developing the right mix of multimodal 
solutions to serve our emerging needs, while maintaining our 
existing system of roadways. I believe this is going to include 
a mix of high-occupancy vehicle and high-occupancy toll lanes, 
rapid bus transit, and, of course, light rail.
    At the moment, we are heading into a 21st century economy 
on 20th century roads and rail. I'd say the same can be said 
about our airports.
    I appreciate you being here today, Madam Secretary. Thank 
you for your time. We look forward to hearing what you have to 
say.
    The Chairman. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here today. And, as, 
I think, maybe one or maybe two states in the country that 
don't have Amtrak, we would take direct air service in lieu of 
Amtrak if there is a bill that allows for that. But we have a 
lot of infrastructure problems, as you know, in rural areas of 
the country, and this summer's tragic events in my neighboring 
state of Minnesota did bring to light a very stark reality for 
our country, and that is that our aging infrastructure is 
putting our citizens at risk, and action needs to be taken to 
address the problem.
    Of our Nation's 600,000 bridges, we're told that 12 
percent, or about 72,000, are classified as structurally 
deficient as of 2007. And I would argue that the highest 
percentage of those structurally deficient bridges are going to 
be found in rural areas, and I think the data supports that. 
And, in fact, while deficiencies in most classes of bridges 
have actually declined over the past decade, deficiencies of 
interstate bridges in rural areas have actually increased. So, 
to address the problem, Congress and the administration are 
going to need to get together, and must place a high priority 
on maintenance, inspection, reconstruction, and replacement of 
our aging transportation infrastructure in the United States, 
and we need to consider new and innovative ways to find 
transportation--to fund transportation projects at the local, 
State, and Federal levels. And I also recently introduced a 
piece of legislation, along with Senator Wyden and other 
members of this committee, that--it's a bipartisan bill; it's 
called the Build America Bonds Act. The bill would provide $50 
billion in infrastructure investment for all states across the 
country, including many important projects that would improve 
our aging and deficient infrastructure.
    And, while Congress has allocated record funding levels to 
States under the 2005 highway bill, the need for infrastructure 
improvements far exceeds available Federal and State resources. 
And so, the Build America Bonds Act is intended to replace--I 
should say, is not intended to replace the current user-fee 
structure we have in place in the Highway Trust Fund, but it 
would be a supplemental funding stream that would allow States 
to address the backlog of important highway, bridge, rail, and 
waterway projects that exist literally in every State across 
the country. The funding under the legislation would be 
distributed directly to the States. Again, it's much-needed 
funding. It would create over 2 million jobs, spur significant 
economic growth, and save lives by addressing transportation 
problems that exist from coast to coast.
    In addition to the aging transportation infrastructure, 
another issue that is of great importance, which was referenced 
by my colleague from Minnesota, is the need for additional rail 
capacity to deliver biofuels from the Midwest to blenders in 
regional markets around the country. As you know, the President 
has set a goal of reducing petroleum consumption by 20 percent 
in the next 10 years. In order to achieve that goal, the 
President has also proposed an alternative fuels standard of 35 
billion gallons by the year 2017, and the Senate has acted upon 
a similar renewable fuels standard--standard that we would 
achieve by the year 2022. I don't have any doubt that the 
American farmer and the innovative leaders of the ethanol 
industry can achieve that very ambitious national priority. I--
however, I do believe that we've got to act with a true sense 
of urgency to improve our transportation infrastructure to be 
able to deliver this fuel to all parts of the country.
    My home state of South Dakota is going to be producing a 
billion gallons of renewable fuel alone by the year 2008. 
Nationwide ethanol production capacity is expected to double in 
the next 2 years. Considering cellulosic ethanol is still a few 
years away, the near-term future of ethanol production 
continues to remain concentrated in the Midwest. Absent a 
dedicated ethanol pipeline, much of the ethanol must be moved 
by truck, rail, or barge. And, in past years, railroads have 
responded by securing additional tank and grain cars to 
efficiently ship both ethanol and its byproducts. However, 
railroads are already taxed by growing shipments of coal, 
containers, and grain; capacity concerns remain on the horizon. 
And according to the Association of American Railroads, 
shipments of ethanol have tripled since 2001, and are expected 
to top 140,000 carloads this year.
    So, Madam Secretary, I look forward to hearing your 
thoughts on this issue, of creating a more robust 
transportation system that will keep our biofuels industry 
growing. Again, Congress and the Administration have got to 
develop a comprehensive plan to address an increased rail 
capacity for the delivery of biofuels. And so, I welcome your 
input and thoughts about that issue, as well as your thoughts 
about Build America Bonds legislation that might address the 
infrastructure problems we have across the country.
    And, Mr. Chairman, again, I thank you for holding the 
hearing and giving us an opportunity to exchange some of these 
ideas.
    Thank you.
    The Chairman. Thank you.
    Senator Smith?

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman.
    And, Secretary Peters, it's great to see you here. I 
understand you were recently in Oregon, and so, you got a 
firsthand look at some of our issues as it relates to I-5 and 
connecting. It's a vital link for transportation and commerce 
between the states of Washington, Oregon, and California, and 
it is in need of increased capacity and repair. And I know, 
really, what we're all saying in a different way is that we 
understand the need to balance the need for repair with the 
need for expansion, and that is the challenge that you have.
    I think Minnesota's bridge tragedy is a deadly reminder 
that we're playing for keeps here, and we really do need to 
focus on the work that you're doing.
    The only other comment I have relates to the Essential Air 
Service Program. You know, there are many rural communities 
who, if they don't get this important aid, they don't have air 
service. And it seems like Congress is consistently having to 
fight the administration from attempts to cut funding for the 
program. And I think that should stop. We need the program, I 
think.
    So, thank you, Mr. Chairman. Thank you, Madam Secretary.
    The Chairman. Thank you very much.
    And, finally, Madam Secretary?

         STATEMENT OF HON. MARY E. PETERS, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Peters. Thank you. Chairman Inouye, Vice Chairman 
Stevens, and distinguished Members of the Committee, I am very 
pleased to appear before the Committee today to discuss the 
various activities of the U.S. Department of Transportation.
    The U.S. has the world's largest and most capable 
transportation systems. These systems have enabled our Nation 
to have unprecedented growth in domestic and in international 
trade, and have brought our States closer together and provided 
a critical foundation for the amazing wealth-creation and 
economic prosperity that have taken place in the United States 
and around the world over the last 60 years.
    When I returned to Washington last year, when I had an 
opportunity to appear before this Committee as part of my 
confirmation process, I told you that I wanted to seek to 
ensure the Department focused on the most pressing challenges 
facing our transportation system and on the most promising 
solutions. In my view, those challenges are, first, reversing 
the decline in overall transportation system performance. The 
performance decline is increasingly imposing costs on American 
families and American businesses and making us less competitive 
in a global marketplace. And, second, ensuring a continued 
reduction in transportation system fatalities and injuries, 
even as traffic volumes grow, by emphasizing comprehensive 
data-driven approaches and using new technologies that can save 
lives. The results of the focus are a work in progress, but I 
believe that the Department has made significant strides in the 
last year and will certainly continue to work with you to do 
so.
    In order to bring about the type of change that I believe 
is critical, we must recognize that the financing structure 
that underpins our aviation, highway, and public transportation 
systems is failing on multiple levels. More importantly, that 
structure does not allow us to align prices and charges with 
true cost, and, in that respect, the failures of our current 
system are the result, not of poor engineering, but of poor 
economics. And I think that, Senator Klobuchar, you hit the 
nail on the head when you said we have a--we have 21st century 
transportation needs with 21st century solutions--we need 21st 
century solutions, rather--and nowhere is that more apparent 
than in the funding strategies.
    And let me speak to aviation, in particular. As the members 
of this committee well know, there is a pressing need to 
overhaul the Nation's aviation system, to improve economic 
efficiency, and to maintain an impressive record of safety 
performance. We project tremendous growth in that system, with 
over a billion passengers expected to be flying on U.S. 
commercial carriers by 2015. And, in light of this strong and 
growing demand, which is a sign of our strong economy, the 
administration, in February, offered a comprehensive proposal 
to reform the way we finance air traffic control operations and 
air traffic air infrastructure and to capitalize on market-
based tools so that we can ease the congestion that has 
characterized air travel in more and more of the country today 
and has affected each and every person in this room in one way 
or another.
    Our proposal would create a new funding structure, a 
structure that would limit what--would link, rather, what users 
pay, when they fly, to the actual costs they impose on the 
system, and we commend this committee for the actions that it 
has taken to date, and appreciate the seriousness of the 
challenge. But we are concerned that Congress perhaps will 
simply pass an extension of the existing program rather than 
stepping up to what you and we have laid out, in terms of 
reforms that are needed. We look forward to working with 
Congress as the legislative process continues, and we urge that 
any further action remain consistent with our February 
proposal.
    The priorities that I mentioned earlier apply to more than 
aviation. The performance of the Nation's highway and transit 
systems is wanting, as well. Indeed, we are suffering what can 
only be called an intolerable decline in performance in the 
form of travel delays and unreliability, with longer and more 
costly delays affecting more and more cities around the Nation.
    When I was in Portland earlier this week, I heard from the 
business community about firms that had moved out of the area 
because they weren't able to navigate the challenges, and 
particularly, Senator Smith, the I-5 crossing over the Columbia 
River bridge. We've got to fix that. This deterioration of our 
surface transportation system is acute, and it is widespread, 
and it affects passenger travel and freight movement.
    The good news is, we are focused on this problem as never 
before. We have sought to identify and attack the existing and 
projected congestion in a very targeted way, particularly in 
urban areas that account for so much of that congestion along 
vitally important corridors that carry so much of our goods, 
many of which are in our rural areas. These efforts offer the 
hope of reduced congestion, reduced emissions, and greater 
value to users.
    The Department is also focused on bringing technological 
advances to bear on both safety and congestion, including, for 
example, building the urgent Next Generation Air Transportation 
System that will improve safety, and improving vehicle safety 
through advances such as our recent rule on the electronic 
stability control and one that I signed yesterday on roof 
crush.
    The performance and the safety challenges ahead are 
difficult. They are not difficult to identify. But, Mr. 
Chairman, I believe that, working together, we can resolve 
these issues. I so appreciate the opportunity to appear before 
you today, and would be pleased and honored to answer any 
questions that you may have.
    Thank you, sir.
    [The prepared statement of Secretary Peters follows:]

         Prepard Statement of Hon. Mary E. Peters, Secretary, 
                   U.S. Department of Transportation
    Chairman Inouye, Vice Chairman Stevens, and distinguished Members, 
I am pleased to appear before the Committee today to discuss the 
various activities of the U.S. Department of Transportation.
    The United States has the world's largest and most capable 
transportation systems. Those systems have enabled unprecedented growth 
in domestic and international trade, have brought our diverse States 
closer and closer together, and have provided a critical foundation for 
the amazing wealth creation and economic prosperity that have taken 
place in the U.S. and around the world in the last 60 years.
    When I returned to Washington last year, I sought to ensure that 
the Department was focused on the challenges that were most pressing 
and solutions to those challenges that would have the most impact. In 
my view, those challenges are: (1) reversing the decline in overall 
transportation systems performance that is increasingly imposing costs 
on American families and businesses, and (2) ensuring a continued 
reduction in transportation system fatalities and injuries even as 
traffic volumes grow by emphasizing comprehensive, data-driven 
approaches and new crash prevention technologies. The results of this 
focus are a work in progress, but I believe that the Department has 
made significant strides forward in the past year.
    To reverse the decline in our transportation systems, we need to 
look beneath the surface and explore the foundation of the problems we 
are facing. It is increasingly clear to me that the transportation 
policies and programs of the past are poorly suited to the economic, 
environmental and societal challenges of the future. In order to bring 
about the type of change that I believe is critical, we must be honest 
with ourselves and recognize that the financing structure that 
underpins our aviation, highways, and public transportation systems is 
failing on multiple levels. The financing structure prevents us from 
making efficient investments in maintenance and new construction 
because it does not allow us to allocate resources based on the highest 
returns to the taxpayer and the customer. The financing structure fails 
to sufficiently reward innovation and technology development. The 
failure of this structure can be traced back to the fact that it does 
not allow us to align prices and charges with true costs. The failures 
of our current systems are not a result of poor engineering but of poor 
economics.
    Today's transportation systems suffer from congestion and 
inadequate maintenance, but these are just symptoms of the fact that 
investment decisions in these systems are not business decisions, but 
political ones. Business from movie theaters to cell phone companies 
charge less during off-peak periods to maximize the use of available 
capacity--but political decisions made in the middle of the last 
century limit our ability to use variable pricing to maximize the use 
of our transportation systems. Similarly, transportation investment 
decisions are made politically. During my many years in transportation, 
I don't recall one ribbon-cutting after a much needed maintenance 
investment. Transportation spending decisions are frequently not based 
on estimated return on investment, but on the hometown of the Governor 
or committee chairman. During the course of the next year, I hope we 
can work together to improve the economics of transportation 
investments.
    As the Members of this Committee well know, there is a pressing 
need to overhaul the Nation's aviation system infrastructure to improve 
economic efficiency and maintain an impressive record of safety 
performance. We operate the world's largest and most complex air 
traffic system, one that controls aircraft transiting the domestic 
United States and millions of square miles of international airspace. 
By any measure, this is the safest period for aviation operations since 
the dawning of the jet age and the enactment of the modern-era Federal 
Aviation Administration Act in 1958, with a 65 percent decline in the 
commercial aviation fatal accident rate over the last decade.
    While we have made great strides in safety, we project tremendous 
growth in the system. We expect over a billion passengers to be flying 
on U.S. commercial carriers by 2015, partly as a result of the success 
we have had in gaining access to international aviation markets around 
the world. This increased demand will bring new airlines, aircraft, 
flight crew, and controllers into the system. That is clearly a safety 
challenge, but it also is an increased burden on system performance. 
More and more, our skies and our airports are choked with aircraft, 
passengers are badly delayed in reaching their destinations, and the 
inefficiencies that we see are hampering growth across the economy. 
Simply put, today's air traffic management system is incapable of 
meeting the challenges presented by projected air travel demands in the 
future.
    That is why the Administration in February offered a comprehensive 
proposal to reform the way we finance air traffic control operations 
and infrastructure to capitalize on market-based tools to ease the 
congestion that characterizes air travel in more and more of the 
country today. Rather than settling for a status quo extension of the 
existing program, our proposal would create a new funding structure 
that would link what users pay when they fly to the actual costs that 
they impose on the system.
    Numerous bipartisan commissions have recommended cost-based funding 
for the FAA over the last two decades, and air traffic control 
providers in virtually every other developed country have it. This 
reform is necessary to support our efforts to make the Next Generation 
Air Transportation System--NextGen--a reality. Failure to adopt a cost-
based system will hinder the implementation of NextGen, and for the 
first time in history we will risk placing the United States behind 
other countries that are moving toward the future of aviation.
    The Administration's proposal also includes market-based 
mechanisms, such as auctions or congestion pricing, to allocate scarce 
airspace and airport resources more efficiently. Charges for flying 
into congested airspace or airports should more closely reflect the 
true societal costs of those decisions. To the extent they do not, the 
cost of delays will continue to accelerate and ripple throughout our 
aviation system.
    While many economists have stressed the potential demand-side 
impacts of market pricing policies, such as peak period spreading and 
increased overall passenger throughput, we believe the revenues 
generated in connection with any form of market pricing can and should 
be re-invested to expand aviation capacity at or near these 
bottlenecks. In addition, just as excessive delays send signals about 
where capacity expansion is most critical, the signals sent by market 
mechanisms are even clearer. Congestion pricing has worked 
exceptionally well in other areas of our economy such as highways, 
electricity and telecommunications, and we believe the time has arrived 
to pursue similar approaches in the aviation sector.
    We commend this Committee for taking the actions that it has taken 
to date and for appreciating the seriousness of the aviation challenges 
before us. We look forward to working with the Congress as the 
legislative process continues, and we urge that any further action 
remain consistent with our February proposal.
    As the reauthorization process progresses, the Department continues 
to move forward on several fronts to improve system performance in 
aviation and to ensure that consumers are treated fairly when they fly. 
We issued the Record of Decision for a thorough redesign of airspace 
over New York City, New Jersey, and Philadelphia. This redesign alone 
will reduce delays by 200,000 hours annually. We have convened an 
aviation rulemaking committee that is focused specifically on the New 
York City area and that is considering numerous solutions--including 
market-based tools--to ease the congestion that ripples out from the 
Tri-State area to airports across the Nation. A third of the Nation's 
air traffic moves through New York airspace, and two-thirds of the 
Nation's air traffic can be affected when the New York area experiences 
delays.
    We can respond to aviation congestion in the New York region in one 
of three ways--(1) continue with current policies and accept the fact 
that the region will be congested; (2) re-regulate air traffic in this 
region and have the Federal Government decide who can fly in this 
airspace and when; or (3) use some form of pricing to optimize the use 
of existing capacity. Some have suggested re-imposing slots in the 
region. That would be a mistake for a variety of reasons. As we have 
learned, slots limit competition and increase prices for consumers, and 
I am always leery of any proposal that relies on the Federal Government 
picking winners and losers in a market.
    In addition to trying to improve the economics of our aviation 
system, we also have pledged to improve the fairness and transparency 
that passengers experience when they choose to travel. And we have 
continued to enforce the Department's existing consumer protection 
regulations vigorously. As the President put it when I met with him 
several weeks ago to discuss this issue, ``We've got a problem, we 
understand there's a problem, and we're going to address the problem.'' 
I certainly look forward to continuing to work with the President and 
the Committee to do just that.
    The priorities that I mentioned earlier apply to more than 
aviation. The Department, of course, plays a major role in sustaining 
and improving the Nation's highways and transit systems. Here, too, 
system performance is wanting. Indeed, we are suffering what can only 
be called an intolerable decline in performance in the form of travel 
delays and unreliability. This deterioration in our surface 
transportation system is acute and widespread, and it affects both 
passenger travel and freight movement.
    The numbers tell the tale. In the past 20 years, hours of delay and 
wasted fuel have each increased by more than 400 percent. In 2005, 
highway and transit congestion wasted 4.2 billion hours of time and 2.9 
billion gallons of fuel. The cost for this wasted time and fuel was 
over $78 billion--about 5 times the amount in 1982. If we add the extra 
time people must allow in planning for congestion delay and the lost 
productivity associated with it, the annual costs exceed $170 billion.
    Even as it has been deepening, this problem has also broadened, to 
cover more and more travelers and freight operations. Highway 
congestion increased from affecting 33 percent of travel in 1982 to 
nearly 70 percent of travel in 2005. Rush hours increased in duration 
from 4.5 hours per day in 1982 to 7 hours per day in 2005. And the 
delay associated with the average rush hour driver's trip increased 
nearly three-fold--from 11 percent of normal trip time in 1982 to 30 
percent in 2005. The cost to the trucking industry alone is estimated 
to be $10.7 billion every year, and if the indirect but very real costs 
to shippers are included, the total rises to about $20 billion.
    This problem now affects the transportation of waterborne freight, 
too, as several of our leading ports have become chokepoints for 
intermodal container traffic, with others not far behind. Seattle/
Tacoma, Galveston/Houston, LA/Long Beach, New York/New Jersey--nearly 
all our major ports are projected to experience enormous growth in 
volumes within several years. In calendar year 2006, approximately 27 
million cargo containers were unloaded at U.S. ports and reloaded onto 
vessels, trucks, and railroad cars. Since many container ports are near 
or at capacity, the Department is addressing freight and passenger 
transportation issues from a system-wide perspective to support 
improved port efficiency and intermodal connections to better enable 
ports to handle increased volume and maintain growth.
    Congestion is not merely an irritant to one's morning commute; it 
has real ramifications for American economic competitiveness. The 
efficient networks that we as a Nation have come to rely on have 
allowed businesses freedom of location and the ability to quickly reach 
customers across the Nation and around the world. Large U.S. firms that 
depend on the international supply chain tell us that growing system 
failures are propelling them to make inefficient decisions in the form 
of facility re-locations, delivery time shifts, and building in more 
and more expensive buffer time. The trend poses a real threat to a 
``just-in-time'' inventory management revolution that has helped smooth 
business cycles and reduce economic volatility. And with the costs of 
building new capacity growing far more quickly than inflation, the 
challenge is not getting any easier.
    The good news is that we are focused on the problem as never 
before. The initiative that we have undertaken is aimed at identifying 
and then attacking in a targeted way existing and projected traffic 
congestion. Our urban partnership program will provide over $800 
million to support tolling and other congestion-relief demonstration 
projects in Seattle, San Francisco, Minneapolis, Miami, and New York 
City. New York's congestion pricing plan, if fully authorized by 
legislation now before the General Assembly in Albany, will help 
incentivize off-peak travel in Manhattan and finance substantial 
upgrades to the Nation's largest transit system. The other cities plan 
to partner with us as well to experiment with tolling and transit 
improvements that we believe can have tremendous impact.
    Through our Corridors of the Future program, we have identified six 
critical multistate corridors that together carry nearly 23 percent of 
the Nation's traffic, and have begun to work with applicants on making 
improvements to these facilities. Elements of the program include 
building new capacity, adding lanes to existing roads, building truck-
only lanes and bypasses, and integrating real-time traffic technology 
such as lane management that can match available capacity on roads to 
changing traffic demands. These advances offer the hope of reduced 
congestion, reduced emissions, and greater value to the users.
    As a former state transportation chief, I know that in some 
circumstances there is no substitute for expanding physical capacity. 
But, in other situations, it is simply not possible to build our way 
out of the problem. The Department, therefore, also is focused on 
bringing technological advances to bear on congestion. Let me offer 
several examples.
    In aviation, we have recently taken several major steps forward in 
the deployment of what is known as ADS-B capability, a NextGen 
technology that will give pilots real-time awareness of the location of 
nearby aircraft and other information essential to improved operations 
in crowded corridors. At our airports, we have continued to expand the 
use of procedures such as area navigation (RNAV) and required 
navigation performance (RNP)--advances that allow aircraft to fly more 
precise routes for takeoffs and landings, thus reducing congestion and 
emissions at crowded hubs and affording airlines greater flexibility in 
point-to-point operations.
    In our surface transportation programs and regulations, we are 
seeing similar progress. Intelligent transportation systems 
technologies are recognized as valuable tools not only to reduce 
traffic congestion, but also to improve safety. We are witnessing a 
rapid proliferation of real-time traffic information that is giving 
drivers more choices and more awareness of system conditions. New 
traffic signalization technologies can help to increase throughput and 
provide smoother operating conditions in metropolitan areas.
    Technological advances are in some circumstances primarily about 
safety. In April, we finalized a rule requiring automakers to equip 
their vehicles with electronic stability control (ESC), a technology 
designed to improve the driver's ability to retain control of a motor 
vehicle under certain adverse conditions. This technology is expected 
to dramatically reduce the frequency of crashes due to the driver's 
loss of control, particularly rollover crashes. We estimate that, once 
all vehicles are equipped with ESC, the technology will prevent 5,300 
to 9,600 highway deaths and 156,000 to 238,000 injuries every year.
    In addition, new technology is now on-board trucks to help the 
motor carrier industry automate the process of recording its drivers' 
duty status, technology that eventually will allow for real-time 
transmission of a vehicle's location and other operational information. 
This technology has the potential to help reduce driver fatigue and 
allow trucking companies to keep better information about far-flung 
routes across the country. Also, DOT works closely with State and 
local-level highway organizations to assure that effective life-saving 
strategies and comprehensive, data-driven programs are advanced. The 
touchstone for all these efforts, of course, is to reduce the number 
and rate of fatalities on our highways, so that Americans can 
confidently and safely take to the roads.
    Earlier this year, the Federal Railroad Administration announced 
approval of the first Positive Train Control system capable of 
automatically controlling train speed and movements to prevent certain 
accidents, including train collisions. The approved system, which 
includes both digital communications and a global positioning system, 
utilizes an in-cab electronic display screen that will first warn of a 
problem and then automatically engage the train's braking system if a 
locomotive engineer fails to act in accordance with operating 
instructions. This is an encouraging preliminary development, and DOT 
will work with industry and other stakeholders to consider cost-
effective options for broader implementation of PTC.
    Turning to fuel economy, I was pleased that this Committee 
responded to the President's proposal in his State of the Union address 
to improve the fuel economy program for passenger automobiles. This 
Administration demonstrated through its innovative light truck rule 
that fuel economy can be increased while preserving consumer choice, 
maintaining safety and not needlessly sacrificing jobs. We achieved 
these goals by emphasizing that the path to greater fuel efficiency is 
through utilizing fuel saving technologies. Following the President's 
directive, we continue to address our Nation's energy security policy 
goals and to reduce carbon dioxide emissions from vehicles by improving 
fuel economy and displacing gasoline with alternative fuels. Working 
with EPA and other agencies, the Department intends to propose new 
standards for fuel economy and carbon dioxide emissions from vehicles 
before the end of this year. These standards will be based on sound 
science and a cost-benefit analysis. This will ensure that for every 
dollar in a fuel saving technology cost added to a vehicle, motorists 
and society in general would see a dollar or more returned in benefit. 
However, as the President stated, our efforts are not a substitute for 
effective legislation. Accordingly, the Administration has articulated 
clear principles to move America toward a strong, cleaner energy 
future, and we continue to want to work with Congress as it moves ahead 
with its fuel economy legislation.
    The Administration also looks forward to working with the Committee 
and Congress to improve the Nation's intercity passenger rail system, 
not with technological advances but with financial reform. We currently 
have a flawed model for providing intercity passenger rail service that 
does not encourage innovation or emphasize accountability. The 
Administration's goal is to create sustainable, demand-driven service 
by, among other steps, empowering States and localities to direct rail 
investment and fostering opportunities for participation by alternative 
rail service providers. I think these are goals that everyone can agree 
on, and I urge Congress to collaborate with the Administration to 
develop a common vision for this important mode of transportation.
    The challenges that lie ahead are difficult, though they are not 
difficult to identify. Our transportation networks need improvement, 
but as I and many others have made clear, the challenge is not to 
simply spend more and more money, but to insist that we utilize Federal 
resources with an eye to the performance improvements that we urgently 
need. As the President has noted, we need innovation and creativity. We 
should embrace real solutions, such as advanced technologies, market-
based congestion tools, private sector financing, and flexibility for 
state and local partners. If we do this, the potential for improving 
system performance and safety--and in the process to aid the Nation's 
continuing economic vitality--is enormous.
    My message today is simply that the time has come to acknowledge 
that the financing structure that underpins our aviation, highways, and 
public transportation systems is failing on multiple levels, prevents 
us from making efficient investments in maintenance and new 
construction, and needs fundamental reform at the statutory level.
    Mr. Chairman, I appreciate this opportunity to appear before the 
Committee today, and I would be pleased to respond to questions that 
you or other committee members may have.

    The Chairman. I thank you very much, Madam Secretary.
    In your confirmation hearing, you pledged that truck safety 
will be one of your priorities. And, as you know, from 2004 to 
2005 fatalities rose. Have you been able to reverse this trend?
    Secretary Peters. Senator Inouye, thank you for the 
question, Mr. Chairman. And, yes, it is--it remains an 
important area. I don't have the data right in front of me, but 
I believe, as you said, there was a slight increase in the 
number of truck fatalities. However, that was disproportionate 
to the increase in truck traffic that we have seen on the 
highways. But, nonetheless, it remains a very, very important 
part of what we are doing to improve safety, and I continue to 
work with Administrator Hill to advance that goal.
    The Chairman. Your department has received the dubious 
distinction of having its truck driver hours-of-service rules 
struck down by the courts twice in a row. I'm deeply concerned 
by the Department's failure to craft a rule that will clearly 
increase truck safety and meet the requirements of law. Well, 
how are you doing in this area?
    Secretary Peters. Mr. Chairman, as you said, the court just 
recently struck down the rule that was passed and has been in 
place since January of 2006. We are evaluating the court's 
decision, and, as you may be aware, they have issued a stay 
through the end of this calendar year. And, as soon as we reach 
a decision, sir, on which way we should go forward, I will 
communicate with you and with this Committee immediately.
    The Chairman. Do you see any improvement possible?
    Secretary Peters. Yes, sir, I do.
    The Chairman. How are you getting along with Secretary 
Chertoff?
    Secretary Peters. I get along well with Secretary Chertoff.
    The Chairman. Because we have been told that your 
relationship is not as strong as it should be. Is it?
    Secretary Peters. Mr. Chairman, I hope that--and believe 
that--that is not the case. In fact, Secretary Chertoff and 
myself, along with our deputy secretaries, meet at least once a 
quarter to discuss issues that are relevant to our two 
agencies, and, in fact, just this last week, have had much 
communication about a Memorandum of Understanding that we 
signed between our agencies to assist with emergency 
transportation, should there be events along the Gulf Coast. 
So, we do communicate frequently, and it is not my opinion that 
there is a bad relationship between us.
    The Chairman. The Implementing Recommendations of the 9/11 
Commission Act of 2007 significantly enhanced whistleblower 
protection. What is your plan for administering new provisions 
to ensure that employees' identities are adequately shielded 
from disclosure?
    Secretary Peters. Mr. Chairman, I, with you, share the 
belief that when employees bring valid safety concerns forward, 
they need to be responded to. My preference is to respond to 
those without having to have people resort to whistleblowing, 
but, when they do, they must be protected, and we must respond 
to the issues that they raise. And, in fact, we are working 
with the Office of Special Counsel at this time, dealing with 
several issues that have been raised to his office by 
whistleblowers.
    The Chairman. I'm certain you're aware that the total 
volume of goods shipped to or from the U.S. will double over 
the next 20 years. What policies and programs are you 
developing to assist ports in addressing this added capacity 
demand?
    Secretary Peters. Mr. Chairman, you are so right, the 
doubling of the freight volume that will hit our Nation's 
transportation system over the next 20 years is something we 
have to pay attention to in very much a cross-modal fashion. We 
are working right now with the ports in L.A. and Long Beach to 
employ methods that will help us move freight more efficiently 
through that infrastructure, and we're using the Pure Pass 
program, for example, which has been tremendously successful. 
But I actually have our deputy administrator in the MARAD 
administration working directly on that very issue of how we 
can expand our port capacity so that we can meet the congestion 
and the future needs in that area.
    Like my predecessor and your good friend, Secretary Norm 
Mineta, I do believe that a marine highway system in our 
waterways can be a tremendous help in moving this increased 
freight volume that we will see in the future.
    The Chairman. Thank you.
    Senator Stevens?
    Senator Stevens. Thank you very much.
    Again, I welcome you, Madam Secretary.
    Secretary Peters. Thank you.
    Senator Stevens. I've mentioned to the Committee several 
times that recently a 15-year-old girl in Juneau boarded a 
plane and flew to Seattle without her parent's permission, and 
she did that to go on and meet a person that she had met over 
the Internet. This, I think, exposes a loophole in the travel 
of underage persons. Have you had occasion to take a look at 
that and to see whether we ought to find some way to put into 
effect a paradigm that requires parental consent or the 
accompaniment of an adult for an underage person to fly, 
particularly interstate flying?
    Secretary Peters. Senator, I have not dealt with that issue 
specifically, but I will. I, like you, probably saw the 
television coverage last evening of a young girl who also met 
up with an Internet predator that kept her captive. And I--as a 
mother and a grandmother, I'm very, very attuned to the dangers 
that our children have, especially when predators that--contact 
them through the Internet. So, I would be happy to follow up 
with you along those lines.
    Senator Stevens. I do hope you will, because I think this 
is a very sad situation. We've got more and more information 
concerning the predators on the Internet. I don't think we have 
strong enough condemnation of that in our criminal laws. I 
intend to follow up on it. But I do think the way to discover 
it has to be brought out, and somehow or other we ought to deny 
access to aircraft and interstate travel of any form, to 
underage people. I think that's going to be a scourge of our 
Nation if we don't watch out. This lovemaking over the Internet 
doesn't set with my generation.
    Secretary Peters. I will follow up with you, sir.
    Senator Stevens. The question of identification when a 
ticket is purchased, I think, has to be examined by the 
Department.
    And this Committee's getting tired of me commenting upon 
the delays that are caused by the way that airline crews are 
distributed around the country. Five times this past 2 months, 
the aircraft I've been on has been delayed for over 4 hours, 
waiting for crews. Once, we were going from here to New York; 
we had to wait for a person coming down from Boston to be the 
pilot of the plane going back to New York. Another time, we 
were in Seattle, waiting for a person to come from Los Angeles 
to be the pilot of a plane coming to Washington, D.C. And in 
Minneapolis several times, we've been waiting for people to 
come up from Florida to be the pilots of planes, or members of 
the crews, going east. Now, that was not the situation in years 
gone by with regard to the regulations of the old CAB regarding 
the location of crews. And I think that the old CAB was right. 
When I buy a ticket on an airline, the taxpayers buy mine--but 
when I get there, they've made a contract with me that a plane 
will be ready to go when I get to the gate. As a matter of 
fact, you now require me to be there over an hour before this 
plane leaves, but there's no such requirement for the crews, 
and there's no penalty when they don't. And I've talked to 
these people waiting up to 4 and a half hours in these waiting 
areas of the airlines, the traveling public is as disturbed as 
I am about this. Once, we got here past midnight, and there 
were no baggage people to unload the plane. And when you get to 
the delays involved in this, I think they're faking it, a lot 
of times, saying, ``Oh, this is--this is some light on the 
panel. We've got to have it examined,'' but suddenly the light 
goes off when the pilot comes in the plane.
    Now, I do believe that your Department has a role in this 
and ought to look into it and examine! I have asked the GAO to 
look into the concept of increasing delay in departure of 
aircraft, and to give this committee a report. I hope they 
will. But I hope you will look into it, also.
    Secretary Peters. Mr. Vice Chairman, we absolutely will. In 
fact, we are looking into it, at this time. In fact, as 
recently as last spring I asked the Inspector General, who will 
testify after me today, to look into the issue of passenger 
concerns with these over--significant delays, passengers 
trapped in airplanes for hours and hours on the tarmac. And 
there are a variety of issues that we have to look into. As you 
may know, I met with the President at the end of September, and 
he directed me to really take a hard look at this. We want to 
report--and will report back to you and to the President before 
the end of the year--and we're working on a dual path, sir. 
What I want to be able to do is address the symptoms of 
aviation delays, these difficulties that people like you are 
experiencing today, while, at the same time, correcting the 
underlying cause so that we don't have passengers suffering 
these delays. We are looking very hard--and appreciate the 
Inspector General's work in this effort--to look at this 
contract of carriage that you mentioned, this contract that you 
have with the airlines that you enter into when you purchase a 
ticket. We want to ensure that travelers have better travel 
information about the on-time arrivals of particular flights. 
We're investigating airlines that have chronically delayed 
flights, and taking steps within our enforcement action to 
discipline those airlines who have flights that are greater 
than 15 minutes late greater than 70 percent of the time over 
two quarters, which categorizes them as a chronically delayed 
flight. We also, sir, are looking at the compensation that 
passengers get when they take an involuntary bump, when enough 
passengers are not willing to give up their seats and someone 
is involuntarily bumped, and, in fact, have a rulemaking out on 
that specific issue today that would likely double, depending 
on the result of that rulemaking, how passengers are 
compensated.
    But the real issue is to stop these delays from happening. 
The good news in our Nation is that air travel is up, and it's 
back up to and exceeding the levels that we were seeing prior 
to the tragic events of 9/11. But the system is not responding 
to this additional traffic in a way that is consumer-friendly. 
So, we are targeting the New York area with two specific 
issues; one, an Aviation Rulemaking Committee, where we can 
bring the airlines, the airports, travelers, general aviation, 
business travelers all together to have an open discussion 
about what we can do about this. And I am looking to that 
Aviation Rulemaking Committee to give me recommendations, 
recommendations that will fix this, not just for the short 
term, for the long haul. And, concurrent with that, Mr. Vice 
Chairman, we also have scheduled a scheduling meeting. We have 
asked the airlines for all of their schedules for next summer, 
and we want to take steps, either through voluntary methods or 
through methods that the Department will impose if they don't 
choose to do so, so that we don't have a hellish summer, like 
we had in the summer of 2007, in the summer of 2008.
    But, even before that, sir, the upcoming holiday travel 
period--it is the time when many Americans are traveling to be 
with their families, service members are coming home and have 
limited time to be home, so I am calling together all of the 
aviation executives on the 1st of November to challenge them in 
the near term to do something about this so that we do not have 
a difficult holiday travel season in advance of these longer-
term fixes that I hope to announce to you by the end of the 
year.
    So, you're--you are right, I told the President travelers 
are very, very cranky, and they have good reason to be, and he 
has directed us to fix it. And, sir, we will do so.
    Senator Stevens. Well, thank you very much for your 
interest. I think that continued complaints by the passengers 
will lead to the restoration of power such as the CAB. And I 
would be one to join that if this situation isn't fixed.
    Thank you very much.
    The Chairman. Thank you.
    Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    Ms. Peters, as I think about congestion pricing, I think 
about the fact that businesses typically operate in hours that 
would be considered peak hours. The conclusion I draw is that 
if we continue to increase costs for arriving at work and 
shipping materials and--that's what we're doing implies. We're 
going to see the Administration, in my view, say that it's got 
to cost more money to do business in America. That's what we 
want to do, we want to increase the cost. Why, instead of 
looking at expanded development of other means of 
transportation, isn't that part of the solution, as simply 
saying, ``Here's a tax we're going to impose on you,'' and when 
there's all kinds of concerns about increasing taxes, but we're 
willing to impose on those taxes on business and workers and 
say that that's the best we can do in America? It doesn't seem 
to me that that ought to be the approach.
    It's apparent that Amtrak trains moving throughout the 
country are delayed by slow-moving freight trains. This 
represents cost increases for Amtrak and increases their need 
for Federal funding. And since only the administration can 
enforce that law which gives Amtrak trains the right-of-way 
over these freight trains, what's your agency doing to address 
this problem?
    Secretary Peters. Senator Lautenberg, thank you for the 
question. And let me answer the question about the sharing of 
track between freight rail and passenger rail. That actually is 
an area that's governed by the Surface Transportation Board. I 
would be happy to talk with the director--the Chair of that 
Board, Chip Nottingham, to raise these issues to his concern. 
But let me address the issue that you raised first, and that--
--
    Senator Lautenberg. Well, my time is limited, so if you 
could consolidate your response, I would appreciate it.
    Secretary Peters. Absolutely, I will, sir.
    Sir, having additional options for travel is important, and 
it is part of the solution. My home state of Arizona is 
experiencing unprecedented growth. And, having come from there, 
I certainly understand that we need to add more modes and more 
capacity. But we also need to manage and get better throughput 
from the capacity that we have today. And what we're 
discussing, in terms of congestion pricing or value pricing, is 
not a--not an additional way, but perhaps a replacement way 
that we can use our transportation system, and, on highways, 
for example, get as much as 40 percent greater throughput by 
having dynamic pricing than we could on static, general-purpose 
lanes. So, that is, in my opinion, one of the tools we must 
have.
    Senator Lautenberg. Well, one of the ways to relieve the 
congestion at our airports might be an improved passenger rail 
service--higher speed, more schedules throughout the country. 
Don't you think that would help in reducing airport delays, as 
well as traffic on the highways, if we could get that done?
    Secretary Peters. Senator Lautenberg, I absolutely do. In 
fact, when I flew to New York last to deal--to meet with people 
about this aviation congestion issue, I had an experience not 
unlike the Chairman's experience. It was not positive. And I 
had wished, all day, I had taken the train up there instead. 
But especially--especially in distances of 500 miles or less, 
passenger rail traffic is a very good and very viable 
alternative, and that, in fact, are some of the issues that 
we're discussing on the Transportation Commission that is due 
to report to you by the end of this year on surface 
transportation.
    Senator Lautenberg. So, Madam Secretary, then I'll assume 
that you will enthusiastically support the Lautenberg bill for 
Amtrak.
    Last year, you testified that there are circumstances where 
we could perhaps define situations where longer and heavier 
trucks could be safe. Now, that was discussed somewhat by our 
colleague, the Vice Chairman of the Committee. In light of the 
recent Minneapolis bridge collapse, the presence of overweight 
construction materials may have played a role. Have you changed 
your views on allowing heavier trucks on our bridges and our 
highways?
    Secretary Peters. Senator Lautenberg, make--let me make 
sure that I was clear in what I said earlier. I would only 
support exceptions to the existing truck size and weight rules 
if we had truck-only lanes, dedicated lanes that were built to 
handle that longer, heavier traffic. I have not been, and am 
not, a fan of revising the truck size and weight limits, except 
on those type of dedicated facilities.
    Senator Lautenberg. Earlier this year, I chaired a hearing 
in this Committee on the use of electronic onboard recorders in 
commercial trucks. The debate clearly indicated that many would 
like to see these inexpensive, critical safety devices on every 
truck, like they're required, in much of the rest of the world. 
Did the Department have any plans with respect to this 
proposal?
    Secretary Peters. Senator Lautenberg, we are studying that. 
And I, too, think electronic onboard recorders have tremendous 
value. In fact, as the Chairman asked earlier about where we're 
going after the hours-of-service ruling, that is one of the 
issues that we are looking at.
    Senator Lautenberg. Yes. The FAA has always claimed that 
understaffing of air controllers is not a safety issue, because 
air traffic is simply slowed down to safe levels. How can we 
make sure that our air traffic control system is adequately 
staffed to prevent further delays, considering that there's 
substantial retirement facing us, we are short-staffed. I would 
urge, Madam Secretary, that you take a look at what the 
population of--fully qualified controllers--is in the towers 
throughout the country, because we've had some disagreements 
with the FAA about the number of controllers, fully qualified, 
in Newark or New York, the heavy congested airports in the New 
York/New Jersey region. So, I'd appreciate it if your 
Department would do some research on that and get back to us.
    Secretary Peters. Senator Lautenberg, we would be happy to 
do that. We have completed, just recently, the air traffic 
controller workforce plan, and it looks at staffing, not only 
in the overall sense, but at specific facilities. And, in fact, 
we're pleased to report that we exceeded our recruitment goals 
for this year in new air traffic controllers.
    But let me say that I have the greatest respect for the men 
and women who control the traffic in our skies. It's a very 
important responsibility, and they have a great deal of the 
credit due for the unprecedented safety record that we now have 
in our Nation's skies. But----
    Senator Lautenberg. No one's arguing----
    Secretary Peters.--as you said, many of them are retiring, 
and we must find a way to replace them with qualified 
controllers.
    Senator Lautenberg. Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Lautenberg. We can keep the record open for----
    The Chairman. Oh, absolutely.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Madam Secretary, referencing some of the discussion that's 
already occurred on air service, this last summer was, I think, 
the worst in a very long time, in terms of on-time performance 
with the airlines, and, in fact, I think it was three in ten--
almost one in three flights now is delayed. Would it--is it 
fair to say that, if three in ten flights are delayed, that, if 
you have to make a connecting flight, that there's a chance--
there's a six in ten chance that you're going to be delayed if 
you have to have two operations to get to your destination?
    Secretary Peters. Well, Senator Thune, you're--you are 
exactly right. Regrettably, since we have started capturing 
data, last summer was the worst that we've ever had on record, 
and, as you said, fully 30 percent of the flights were delayed. 
One of the reasons we're concentrating on the New York area in 
the short term is because delays into, out of, or over the New 
York airspace contribute to three-quarters of the delays, 
systemwide. And you're absolutely right, if a plane is delayed, 
and you have to make a connection, you're much more likely to 
miss that connection. And if--even if there is a subsequent 
flight, because planes are flying, on average, 80 percent full 
today, it is even more difficult for you to get a seat on a 
subsequent flight.
    Senator Thune. And we all experience that and see it time--
most of us are frequent fliers, for better or worse. And--but, 
I mean, if you have six in ten--a 40-percent chance, basically, 
that an airline is going to be able to meet their contract 
obligation to you to get to your destination on time, I mean, 
that is a performance record that anyplace else in our economy 
would be considered deplorable. And I--people always ask me, 
``What's the best part and the worst part of your job?'' And, 
of course, I'm someone who, like many of my colleagues, goes 
back and forth on weekends, back to my home state, and my 
answer always is, ``The worst part of it is getting to and from 
it.'' And I think that that--and I'm--so I'm with my 
constituents a lot in airports, we spend a lot of time in 
airports. But I think that you have to--if you look at a record 
like that--and everybody blames somebody else. I mean, the 
airlines blame the air traffic control system; the air traffic 
control system, FAA, DOT, say, ``Blame Congress. We need more 
money to move to the NextGen system.'' But until we get there--
and I'm one who believes that we've got to modernize our air 
traffic control system and use the very latest technology to 
improve air service in this country--there has got to be some 
way of dealing with this issue in--where we all--I'm--whatever 
Congress can do to help you with that--and I appreciate your 
commitment to make sure this doesn't happen next year, during 
the summer season--but it's gotten to be where it's, kind of, a 
year-round thing. I mean, there are a lot more people flying in 
the summer season, but when you have flights that are delayed 
or canceled, and with the higher load rates that they have 
trying to get another flight, becomes virtually impossible. And 
I see, like I said, constituents of mine in airports all the 
time, and there is tremendous frustration and angst out there 
about this. And I've introduced a bill, which is part of the 
FAA modernization bill, that would require at least more 
disclosure by the airlines. I mean, flights that are 
chronically delayed, canceled all the time, at least customers 
need to know what their chances or what their probabilities are 
on some of these flights. And I think those are things that, 
absent action by the Congress on FAA modernization--or 
reauthorization, which I hope we will get--those are things, I 
think, that you all could work with the airlines to impose, as 
well. I mean, there has just got to be more done to address 
this situation, because it affects our productivity, it affects 
our competitiveness, when people are wasting time in airports, 
like so many are, it just doesn't--the entire economy suffers.
    So, I would just urge you to intensify the efforts that you 
are making with the airlines, and at least people need to know 
which ones are doing a good job, which ones aren't. And, I 
think, not just on an overall month-by-month basis, but flight-
by-flight. I mean, I think people need to have that kind of 
information when they make decisions. And it seems, at least in 
the legacy airlines, they're all--the records are all fairly 
similar, they're all kind of bad. But I guess it's--what I'm 
expressing is a lot of frustration that I hear from people I 
represent.
    Let me just raise one other issue, and that's the issue 
of--I talked about a little bit earlier, and that's railroad 
capacity. We've got a serious need, in my part of the country, 
for competition between railroads--we've got an ethanol--a 
booming ethanol business. Obviously, a lot of coal and 
agricultural commodities are hauled out of that area of the 
country. And I guess I'm interested in your thoughts about 
whether there is enough competition. Do we need another Class I 
railroad? What steps can be taken to ensure that shippers have 
at least an opportunity to have enough competition to where 
they can keep their rates at a reasonable level? And I will 
tell you, as a--that every power company, public or private, 
that comes into my office, every agricultural shipper that 
comes into the office, the issue is always the same, it's 
transportation cost and service. And the STB, which is their 
recourse to challenge some of those cases, seems to be less and 
less independent. It seems like every decision comes down--
comes down on the side of the railroads. And I guess I'm 
wondering what your thoughts are about, What can we do to 
enhance and increase competition so that, as this ethanol 
industry--if we try to get to 20 or 35 billion gallons by the 
year 2017, that's a very ambitious goal and one that's going to 
be complicated by the lack of infrastructure out there to 
support the movement of that product around the country.
    Secretary Peters. Senator Thune, you're exactly right, we 
need to do a lot more for this type of transportation. And, 
participatory, as both you and Senator Klobuchar mentioned, 
rural areas of the United States are experiencing very 
different transportation challenges and patterns today because 
of the additional production of ethanol, as well as hauling 
more coal out of the Powder River Basin and places like that, 
as well. As part of the National Infrastructure Committee, the 
one that is--was challenged at looking at future needs, we are 
looking at freight rail capacity, as well as capacity for 
trucks and--to carry this additional increase in freight that 
we're seeing in the future.
    I would also agree that we will likely need more of 
everything in order to handle that, and, again, would be happy 
to report back to you at the end of this year, when our report 
is due, and to continue to work with STB on some of these 
challenges that have been brought forward, in terms of captive 
shippers, that I know is important to you, as well.
    Senator Thune. One last question, if I might. I'd--I want 
to come back to something I mentioned earlier in my opening 
statement, and that's dealing with the broader issue of 
infrastructure, the needs that are out there, the demand for 
additional funding exceeding the supply of funds that we have 
through the Highway Trust Fund and other sources of funding. 
This Build America Bonds proposal that Senator Wyden and I have 
introduced in the Senate is a way of increasing funding for 
infrastructure, $50 billion, outside of the Highway Trust Fund, 
that could be used by States to address some of these high and 
urgent needs without raising taxes. And I know--the 
administration, I'm told at least, is--has been opposed to this 
in the past, but I'm interested in getting your thoughts about, 
``If not this, what?'' And why can't a concept like this, which 
is a fairly, I think, innovative financing proposal, be used to 
address what are some very desperate infrastructure needs that 
we have across the country, and not replace the Highway Trust 
Fund, but act as a supplement to it? There are a lot of 
deficiencies we have, and clearly it's going to take more money 
to solve some of those.
    Secretary Peters. Senator, I applaud your initiative--both 
you and Senator Wyden--in putting forth a proposal to increase 
funding for transportation. One of the concerns that we have 
about it within the administration, and I, particularly, is the 
underlying base funding and the reliability and sustainability 
of that funding to repay those bonds over a period of time. 
We're seeing the gas tax be less and less responsive to demand 
in our Nation today. And, in fact, we, as a Nation, have agreed 
that we want more fuel-efficient vehicles, we want cleaner-
burning fuels, we want greater reliability on our ability to 
produce those fuels here in the United States, such as is being 
produced in your home State, with the ethanol. And my main 
concern is that there is not a good, solid base to repay that 
over time, that we have to supplement and diversify our funding 
for transportation in a much greater sense. That is why we have 
been advocates of attracting private-sector investment, where 
we can, to supplement existing revenues. And I think that that 
certainly holds a great deal of promise, but it is not the 
answer, in and of itself. We do have to look long term, and, 
again, that's what this Commission is looking at, and will 
bring back recommendations to you by the end of the year, in 
terms of where we should go long term for funding surface 
transportation in our Nation.
    Senator Thune. Well, I would hope you'd take a new look at 
this concept, because it does use tax credits in lieu of 
interest payments, it is a way--a very cost-effective way of 
using leverage to get a lot more funding out there, funding 
that could be made available for States to use to determine--as 
they determine what are their highest needs, and it would be 
used for highway, rail, waterway, all types of infrastructure. 
But you--the--what we've got coming into the Highway Trust 
Fund, we already know, is going to be deficient by 2009, and it 
seems, to me at least, we've got to come up with some ways--
some innovative ways of using the private sector to help 
address some of these infrastructure needs that we have.
    So, I would hope that you would take a hard look at that 
and see if that might not be something that the administration 
could work with us on.
    Secretary Peters. Will do, sir.
    Senator Thune. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Secretary Peters, good to see you again----
    Secretary Peters. As well.
    Senator Pryor.--and thank you for frequent contact with me 
and my office on a variety of subjects. I'm going to ask you 
about a lot of different subjects, so I'm going to try to go 
quickly, and I hope you can help me by keeping your answers 
short because I don't want to take too much of the Committee's 
time.
    But let me start with NHTSA and rollover protection the 
roof-crush issue.
    Secretary Peters. Yes.
    Senator Pryor. What is the status of that rulemaking?
    Secretary Peters. Senator, I signed that rulemaking 
yesterday. It went to OMB and should have been published today.
    Senator Pryor. OK. So, does that mean the rule is done?
    Secretary Peters. It does not, sir. OMB has 90 days to redo 
the--review the rule, and then it goes to final publication.
    Senator Pryor. All right. The intent of Congress is pretty 
clear in the legislation, that there be roof-strength testing 
for driver and passenger sides of the vehicle. Does the rule 
include driver and passenger sides?
    Secretary Peters. Senator, to my knowledge, it does. I will 
verify and get back to you on that. ``The rulemaking addresses 
both sides of the vehicle (driver side and passenger side) one 
after the other. We expect to publish a NPRM by the end of the 
year.''
    Senator Pryor. OK. And are you guys doing any different 
type of testing on roof strengths now? Are you requiring the 
manufacturers do a different type of testing than you did 
before?
    Secretary Peters. That, sir, is what the rule addresses, 
that--the different types. And, again, I'll get back to you on 
the specifics of that so that I don't spend too much of your 
time here today.
    Senator Pryor. Great, thank you very much.
    Secretary Peters. Yes.
    Senator Pryor. If we can stay with NHTSA just for a minute. 
We all know the Senate passed some language on CAFE, and I'm 
wondering about the Administration's position on the Senate 
language in CAFE. Has the Administration taken a position?
    Secretary Peters. Sir, we have not yet taken a position on 
that language that came out of the Senate. As you know, we did 
work with you during that period of time.
    Senator Pryor. Right.
    Secretary Peters. One of our concerns is that, when we set 
fuel economy standards--and we do believe that we should have 
the authority to do that at NHTSA--we want to take into 
consideration what is technologically feasible, what is 
economically feasible, and what the impacts on safety would be. 
And our concern is that, without some valid, I'll call them 
``off ramps,'' the goal may be set too high, it may not be 
achievable, considering those three important factors.
    Senator Pryor. I would strongly encourage either you or 
your staff or someone in the administration to contact the 
leadership in the House and Senate, because, as I understand 
it, there are discussions now about putting together an energy 
package, which would include this CAFE standard.
    Secretary Peters. Yes.
    Senator Pryor. The House hasn't passed one, we have--and 
try to come up with something. I offered an amendment, along 
with--a bipartisan group of Senators, and ours did not prevail. 
We ended up not offering it, because we just couldn't get the 
votes right. But, certainly, I think now is the time to weigh 
in on that.
    Secretary Peters. I agree. And, Senator, as recently as 
yesterday I was meeting with House members on this very issue--
--
    Senator Pryor. Great.
    Secretary Peters --and I will get some further 
documentation to you on that.
    Senator Pryor. Great, thank you.
    And, on the Mexican truck issue, which we've talked about 
before--you and I have spoken about it two or three times--what 
is the current status of GPS devices? I know, at one point we 
thought they may be included, and then maybe not. What's the 
status of GPS devices?
    Secretary Peters. Sir, we are moving forward with the GPS 
devices. What we found when we went--we had felt that, at the 
one time, that there was only one provider that could provide 
those devices, and thought we might be able to move to a more 
immediate contract to do that. We have found that there are 
several vendors who are interested in providing those devices, 
so, appropriately, we're holding an open competition, and, by 
the end of this calendar year, we should be able to have a 
program in place to put a GPS device on every Mexican truck 
that is participating in the demonstration program.
    Senator Pryor. And on the issue of drug testing and alcohol 
testing for the Mexican truck drivers, is that being done?
    Secretary Peters. Yes, sir.
    Senator Pryor. Are you are satisfied with how that's being 
done?
    Secretary Peters. Yes, I am. American labs are conducting 
those tests, and I also asked the Office of Drug Control Policy 
to validate that we have the proper procedures in place, as 
well as the independent panel to validate those procedures.
    Senator Pryor. Great. And are those procedures and the 
protocols, are they public information? Can members of the 
public find out what's going on there?
    Secretary Peters. Yes, sir.
    Senator Pryor. Great.
    And, let's see, I just had a couple of more quick questions 
for you. One is high-priority corridors. I know that you have 
designated I-69 as a high-priority corridor. I just would like 
to know where that is and how far along the I-69 building and 
design and all the things you have to go through to do a new 
interstate highway are--if you could just give me an update on 
I-69.
    Secretary Peters. Sir, I will. It was one of six corridors 
selected, and those corridors were selected because together 
they carry 23 percent of all freight in the United States, and 
I-69 is certainly an important component of that. Some areas of 
I-69 have not yet been completed, especially in some of the 
southeast States and in Indiana. Let me get back to you on the 
record with the specific completion.
    But what being selected as a Corridor of the Future will 
allow us to do is expedite processes so that we can complete 
sections of that urgent highway more quickly than we might 
otherwise be able to, as well as some funding to help 
accomplish that.
    Senator Pryor. That's great. Thank you.
    And, really, the last question I had for you is on air 
traffic control. I know I've been jumping all around, and thank 
you for being patient. But, on air traffic control, we know 
that--in September, the Memphis TRACON went down. Do we know 
what happened, why that happened, how we're going to prevent 
that in the future?
    Secretary Peters. Senator, what happened was a wide-area 
power outage, and that's what caused the problem in that area. 
We're analyzing the specific impact on the Memphis TRACON. The 
good news is that, almost immediately, because of the actions 
of the air traffic controllers in that area, who literally 
picked up their own cell phones and notified other TRACONs to 
pick up that traffic, so there was minimal disruption that day. 
But system redundancy is something that I've asked about, what 
redundant paths do we have in the event that we get wide-area 
power outages like that in the future? And, again, I have to 
commend the controllers in the facilities for immediately 
responding and getting that traffic picked up by other TRACONs.
    Senator Pryor. Right. And Little Rock was part of that, and 
we were proud to do that. But, you know, I think that the 
Memphis system was down for about 3 hours----
    Secretary Peters. It was.
    Senator Pryor.--which caused at least 3 hours, and maybe a 
full day, of disruption. But they got it fixed within 3 hours.
    Last thing I just wanted to mention is Jim Ray, Chief 
Counsel at FHWA--came to Arkansas on the Yellow Bend Port 
issue. I don't know if you've been briefed on that. The people 
in Arkansas were very, very happy that he came down and spent a 
day looking at that issue. When you get back to the office and 
have a minute, if you could, give us a written update on the 
status of Yellow Bend Port, we would greatly appreciate it.
    Secretary Peters. Senator, I know you and I talked about 
that, and I wasn't personally able to go, but Jim did give me a 
very positive report----
    Senator Pryor. Good.
    Secretary Peters.--and we'll get something in writing to 
you.
    Senator Pryor. Thank you very much. We very much appreciate 
him, and he was great.
    Secretary Peters. Thank you.
    Senator Pryor. Everybody was very impressed with him.
    Thank you very much.
    Secretary Peters. Thank you.
    The Chairman. Thank you.
    Senator Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you, Mr. Chairman. First of all, thank 
you, Mr. Chairman, for having this hearing, which is, I think, 
one of the most important topics that we could be looking at in 
this Committee, and, unfortunately, doesn't always get the kind 
of attention that it deserves.
    Secretary Peters, thank you for agreeing to be here today. 
And we're going to hear, later this morning--from Inspector 
General Scovel, about the strain that the Department of 
Transportation is facing in the crumbling infrastructure.
    Mr. Chairman, I don't think it's a secret, the Secretary's 
testimony--I wasn't here for it, but I just read the entire 
thing through and through, and I want to ask a few things about 
it. It talks considerably about the hours lost and the greater-
than-inconvenience that this represents to families, the 
problems of productivity, the problems for our economy, which 
are not insignificant. But I think it's fair to say, Mr. 
Chairman, that, for a considerable period of time now, as a 
country, we really are facing an urgent challenge--both safety 
and economically with respect to our overall transportation 
system. And I know the Department of Transportation has assumed 
additional responsibilities to keep our highways and our 
railways and skies safe from terrorist attack, and is 
struggling to deal with some of the congestion issues, but 
these record-setting delays, not just at airports, which is 
sad, if not inexcusable, but in every major urban center in our 
Nation, where the traffic just gets worse and worse, and the 
numbers of single individuals driving single vehicles in 
gridlock, using untold amounts of fuel, is ridiculous. Sadly, 
reading through your testimony, Madam Secretary, while you cite 
some of these problems, you talk about financial reform, you 
don't really lay out an agenda or a program, a policy by this 
administration, a strategy, to really deal with those issues, 
particularly the issue of rail. I think rail gets a couple of, 
mentions here, and I'll come back to that in a minute.
    But I want to focus, first, on one particular problem that 
has been ignored until tragedy strikes, and then we pay 
attention to it, and that's the state--the fundamental state of 
bridges and tunnels in the country. We're all familiar--and it 
probably was mentioned previously--with the recent tragedy in 
Mississippi, across the Mississippi River--in Minneapolis--that 
brought everybody's focus back to this, at least temporarily. 
But Minnesota isn't alone in this. And the question that we 
ought to be asking is not just what went wrong there, but 
what's next, and where, and what are we doing to make sure that 
the next time you turn on your television set, you're not 
reading about another tragedy?
    Now, I say this as a Senator from a State, where, just this 
last weekend, inspectors found cracks in a beam that supports 
the 57-year-old Tobin Memorial Bridge in Boston, and the 
inspection that identified that crack had been expedited after 
the State received reports that large chunks of debris were 
falling from the bridge onto the boats below. Now, fortunately, 
those particular cracks were found to be minor, but that minor 
disruption underscores the much larger problem. Across the 
State, 12 percent of functioning bridges are classified as 
being structurally deficient.
    Now, for 88 percent, those folks who don't cross those 
bridges, they're OK, but for the person crossing that 
structurally deficient bridge, the tens of thousands of people 
crossing it, that's 100 percent to them. It's 100 percent. And 
it's 100 percent of the risk that goes with it. And those 
bridges are scattered across the entire State, and they carry 
literally hundreds of thousands of people in daily traffic. 
There's a bridge in Springfield, with a structural rating of 
zero, that sees average daily traffic of more than 104,000 
people every day. The Wood Street extension bridge in Lowell 
carries traffic of more than 38,000 people, while a bridge in 
the town of Dennis, over Swan Pond River, carries traffic of 
24,000. In Fall River, 15 bridges are rated as being 
structurally deficient.
    Now, it's true, as a Nation, that there are fewer bridges 
with a rating of ``structurally deficient'' today than there 
were 20 years ago, but, again, for the percentage left out 
there, for those hundreds of thousands of people crossing them, 
that's not an answer. And for a Nation that ought to be leading 
in its efforts to guarantee safety, I don't think it's an 
answer. We shouldn't be holding ourselves to a lower standard, 
if you will.
    So, I really want to know, what's the administration's 
strategy to urgently deal with an urgent question about $32 
billion of backlog in bridge repair? And--that's number one.
    Number two, I'd like to know what's going to happen with 
respect to increased oversight on these kinds of Federal-funded 
projects. Earlier this year, I introduced the Safety and 
Accountability in Construction Act, which would provide the 
Secretary of the Department of Transportation--you, Madam 
Secretary--with the authority to hire an independent engineer 
to inspect the planning, design, and construction of federally 
financed highway projects. I introduced that in response to the 
problems that we had in the well-publicized problems in 
Massachusetts with the Central Artery Project. During 15 years 
of construction, spanning four Governors, five Federal Highway 
Administrators, not once was an independent engineer brought in 
to oversee the work that was being done, despite repeated 
attention that this Committee and others drew to the cost 
overruns, the delays, questionable construction methods, and 
thousands of tunnel leaks. Tragically--and I know the Inspector 
General will allude to this in his testimony--an innocent woman 
lost her life when faulty ceiling panels fell from the I-90 
connector tunnel into her car in July of last year.
    Why is this oversight necessary? Well, amazingly, in the 
case of the Central Artery Project, the main contractor, 
Bechtel/Parsons Brinckerhoff was, in fact, both constructing 
the tunnels and acting as the safety inspector. The Federal 
Government obviously needs to have explicit authority under 
Federal law to bring in an independent engineer to oversee that 
kind of project.
    And then, finally, I just want to come back to this other 
issue of rail. Reading through your testimony, Madam Secretary, 
Senator Thune was referring to the bill--Senator Lott and I 
introduced, in the Finance Committee, a $900 million bond 
effort on rail. We did that, not the Administration. The 
Administration has failed, in my judgment, to confront the 
realities of these choices. We've got an old cow-path rail 
system that goes through New England, that winds its way around 
bays and coves, while other countries are building high-speed 
systems. You go to Shanghai, you can go from Shanghai to 
downtown now in about 12 minutes on a mag-lev train.
    I remember sitting in this Committee when Senator Moynihan 
was around here, and we used to talk about mag-lev and its 
possibilities. There's nothing. I mean, leave ``mag-lev'' out, 
if you don't like the technology. Where's the discussion? We 
should be talking about taking the median strips of major 
highways--which is the only rights-of-way you're going to get 
today, given what's happened to the former rights-of-ways--in 
order to build something that's straight and true and has the 
ability to go fast. You can see the TGF or the Bullet Train in 
Japan, where, people greatly benefit in those countries as a 
consequence of their investment in infrastructure. Here we are, 
priding ourselves as the greatest technological, innovative, 
entrepreneurial Nation in the world, and we've got one of the 
most ancient, unbelievably underinvested rail systems in the 
world, behind tiny countries in Latin America. It's shameful.
    Nowadays you can almost be competitive riding the rail 
system, the Acela, from here to New York, and it's a lot more 
comfortable and less hassle than going out to the airport and 
taking off your shoes and going through security and everything 
else, and you can plug in a computer, and you can get a meal. 
Why don't we offer that to people in more communities?--I saw 
that plenty of times in Seattle or in California or in Houston, 
other places on the West Coast, where you just can't move. 
People are taking 2 hours to get to work. And what's happened, 
further, is families are being driven further away from the 
centers of these communities, where they work, because they 
can't afford to buy the home, so people are forced into this 
hour-and-a-half commute each way, away from family, away from 
work time, because we don't have adequate kind of 
transportation system.
    I've gotta tell ya, it just burns me up. It's beyond my 
comprehension that we're not talking in this Nation about some 
kind of funding mechanism to do the infrastructure, and put 
Americans to work in every which way--in a comprehensive way.
    So, I'd like to know, on each of those--on the bridges and 
tunnels, the strategy for $32 billion, the accountability 
issue, and, finally, this question of rail. Those are three 
solid questions.
    Secretary Peters. Senator, certainly, and I'll try to 
answer your questions as quickly as I can.
    First of all, we do have a national strategy to relieve 
congestion, and we're very actively working that strategy. And, 
in fact, several of the projects that we have authorized 
recently have tremendous promise to help us reduce congestion 
on those corridors that carry 23 percent of our Nation's 
freight, as well as the urban areas, where some of the 
congestion is the worst in our Nation. And these strategies, I 
believe, will give us strong new tools to help relieve this----
    Senator Kerry. Are you talking about the technology and the 
Smart Roads, so to speak,----
    Secretary Peters. Sir, it's a combination of----
    Senator Kerry. Of what?
    Secretary Peters.--tools. Of pricing, of using more 
technology----
    Senator Kerry. Pricing. How is pricing going to affect 
Houston's traffic problem?
    Secretary Peters. Well, the way pricing can affect it, sir, 
is that, if we could take as little as 10 percent of the 
vehicles off a road during high-peak times, we could achieve 
almost free-flow status. A recent household travel survey has 
indicated to us that almost 50 percent of the people who are on 
a roadway during a peak period of time are not commuting to 
work and back, and, in fact, very nearly a quarter of those are 
retired. If there were some pricing mechanism so that they had 
to pay more to be there on peak periods, less to be off-peak, 
those drivers who do not have to be on that road during peak 
periods of time would not be there. This mechanism, when it's 
been tested, gives us as much as 40-percent greater throughput 
on the same configuration of roadway, of so-called ``general 
purpose lanes.'' So, that is one tool. But it is, by no means, 
the only tool that we want to look at.
    Senator Kerry. What's the alternative going to be for those 
people if they deem themselves as ``needing'' to be there, but 
not necessarily able to afford the increased prices?
    Secretary Peters. Well, sir, those who can will move 
themselves off the peak period, those who cannot will be able 
to take the lower-cost, perhaps no-cost, options outside of 
peak. If they do need to be there, and we, as a Nation feel 
that we need to subsidize some of those drivers, we can 
certainly do that, and do that through the technology that's 
available to day.
    What Mayor Bloomberg has proposed, in New York in a pilot 
program, would actually funnel some $500 million almost 
immediately and additionally into building transit options, 
park-and-ride stations, things like that.
    We need to--and you're very correct, sir--look at this 
comprehensively--from not just a single modal status, but 
comprehensively. I also very much agree with you that passenger 
rail has to be part of the solution, and I think, particularly 
in distances of up to 500 miles, or--that is an excellent, 
excellent opportunity, and probably more cost-effective than 
air travel. All of this, we are looking at, sir.
    Let me answer, specifically, your questions about the----
    Senator Kerry. You've only got about a year left to look at 
it.
    Secretary Peters. We're looking at it very hard, sir, and 
our recommendations will come by the end of this year.
    Sir, in terms of the bridges and tunnels and the backlog, 
I've done several things in the aftermath of the tragedy that 
occurred in Minneapolis. First, I asked our inspector general, 
who you will hear from next, to do a very thorough review of 
our bridge inspection program to ensure that the program was 
sufficient and rigorous. But, as importantly, what do we do 
with that data that comes out as a result of those 
investigations and those inspections? And are we using that 
appropriately to prioritize the expenditure of bridge funds or 
other funds that could be spent on bridges?
    I have also sent out two advisories to States, asking that 
they reinspect their bridges. And I do believe, sir, that that 
contributed to the reinspection of the Tobin Bridge.
    I have also asked States to be very mindful of the loading 
of construction materials and equipment on a bridge when they 
are doing construction and repair on the bridge. These two 
factors were brought to my attention by the Chairman of the 
National Transportation Safety Board, and he and I spoke, as 
recently as yesterday, about this, about what the cause would 
be and how we might be able to not only ensure that a tragedy 
like what happened in Minnesota does not happen again, but that 
we do more aggressively deal with the backlog in repairs that 
we do have.
    Senator Kerry. What does that mean, in terms of the $32 
billion?
    Secretary Peters. I'm sorry, sir?
    Senator Kerry. What does mean, when you say ``that we do 
more aggressively''? I mean, you don't need a study to know 
that you need to move more aggressively on the $32 billion.
    Secretary Peters. Sir, there are funds available in States 
today to do these necessary repairs. What we're asking is the 
prioritization of those funds being appropriately made.
    Senator Kerry. I don't think they think they are available. 
I was told by my state's highway commissioner about a bridge in 
New Bedford; it required $100,000 of repair, but the State 
lacked the funding to do it. They lacked the flexibility to use 
its apportionment of highway bridge funds to fix it. The bridge 
went untended. The bridge got worse. Eventually, the entire 
superstructure needed to be replaced, at $9 million. So, 
$100,000 fix, which they weren't allowed to use the Federal 
money, and, therefore, didn't have the money, became a $9 
million price tag.
    Secretary Peters. Well, sir, I'll--I will look into that 
specific case, because my knowledge is, and my experience as a 
State highway administrator, is that there is significant 
flexibility.
    I also wanted to mention, sir, what you asked about, in 
terms of a bridge that was rated zero and is carrying 104,000 
vehicles a day. My understanding of--is that if a bridge is 
rated zero, it should be closed to traffic. So, I will 
certainly investigate that.
    Senator Kerry. Appreciate that. But, also, the President's 
budget request is $4.388 billion. We upped that. We plussed 
that up by an additional billion. Senator Murray put that 
amendment in, and we passed it. And we've still got 72,500 
bridges out there that need repair. It seems to me that there 
just isn't that sense of urgency about it.
    Secretary Peters. Sir, there is very much a sense of 
urgency, and I think the Inspector General can repeat to you 
what I have asked him to do. But, again, I have asked every 
division administrator in every Federal highway office 
throughout the country to review with the State DOT how they're 
prioritizing the funds that they have available to ensure that 
these important bridges are dealt with.
    Further, sir, we will publish, by the end of this year, and 
at your direction--and I think you were very appropriately 
directing us to do so--standards for tunnel inspections, as 
well.
    Senator Kerry. Are you following the Inspector General's 
recommendation with respect to implementing a data-driven, 
risk-based approach?
    Secretary Peters. Yes, sir, we are.
    Senator Kerry. And when do you expect that that would be 
fully implemented?
    Secretary Peters. I will have to get back to you on that, 
sir. I know that the inspector general is continuing his review 
of the bridge inspection program, but that is something, in 
fact, that I asked be part of this review.
    Senator Kerry. Thank you, Mr. Chairman.
    Oh, and a final thing--the accountability?
    Secretary Peters. Yes, sir.
    Senator Kerry. The--independent inspectors?
    Secretary Peters. Yes, sir. I think that's a very good 
suggestion. We did a very comprehensive review. And, in fact, 
you may recall, when I was with the Federal Highway 
Administration, I met with you on that very issue. And I do 
think that there are many, many lessons we can learn as a 
result of the Central Artery Tunnel Project. And one of those 
is how we have the independence of various folks, including the 
Federal Highway Administration, on those projects.
    Senator Kerry. But, here's the problem. We met, when you 
served for about 4 years as the Federal Highway Administrator.
    Secretary Peters. Yes, sir.
    Senator Kerry. You went back to Arizona. You've come back 
now. Still hasn't happened.
    Secretary Peters. Sir, there is a very aggressive four-
point plan that is being implemented. In fact, I'll get the 
date for you, but I spoke with Governor Deval within the last 2 
months, I believe--I'll get you a date--about following through 
on this very important plan to not only deal with the issues on 
the Central Artery, which I did start earlier, but to do the 
important follow-through that has to occur in a stem-to-stern 
review.
    [The information referred to follows:]

                 Update of FHWA and DOT OIG Activities 
  in Response to July 10, 2006, Central Artery Tunnel Ceiling Collapse
    FHWA and the Department's Office of Inspector General (OIG) have 
been involved in four activities:

        1. The EOT/MHD immediate evaluations of the I-90 connector. 
        Activity 1 was remedial and aimed at reopening closed sections 
        of the I-90 corridor.

    As of June 1, 2007, all roadways have been completely re-opened. 
However, there are a number of non-safety related items that still must 
be completed as part of the permanent corrective work. FHWA continues 
to work with and monitor the State's progress toward completion of 
these items. Due to weather constraints the remaining few items of work 
are now scheduled for completion by June 30, 2008.
    Each re-opening phase was accomplished by meeting 12 safety-related 
criteria that were jointly developed by FHWA and the State, and each 
re-opening was accomplished with concurrence from the OIG.

        2. Support to the National Transportation Safety Board (NTSB) 
        and other investigations (e.g., U.S. Attorney's Office) of the 
        July 10 ceiling failure. Activity 2 was aimed at determining 
        the cause of the incident, which led to the fatality and 
        injury.

    FHWA engaged in two primary activities to support the NTSB 
investigation:

  <bullet> We conducted sustained-load (creep) testing on both the 
        Fast-Set epoxy used in the tunnel and the corresponding 
        Regular-Set epoxy.

  <bullet> We conducted a parametric study of the anchor system 
        considering such variables as preparation of the anchor holes 
        and proportioning of the epoxy components.

    On July 10, 2007, the 1-year anniversary of the tunnel ceiling 
collapse, the NTSB issued its final report of the investigation. The 
NTSB determined that the probable cause of the July 10, 2006, ceiling 
collapse was the use of an epoxy anchor adhesive with poor creep 
resistance. The NTSB made safety recommendations to a number of 
entities, including FHWA and the State departments of transportation. 
NTSB recommendations to FHWA included: (1) working with AASHTO to 
develop standards and protocols for testing adhesive anchors to be used 
in sustained tensile-load overhead highway applications, (2) 
prohibiting the use of adhesive anchors in sustained tensile-load 
overhead highway applications until standards and protocols have been 
developed, (3) seeking legislation authorizing FHWA to establish a 
mandatory tunnel inspection program similar to the National Bridge 
Inspection Program, (4) establishing a mandatory tunnel inspection 
program once authorized, and (5) developing a tunnel design manual.

        3. FHWA independent review of the July 10 ceiling failure. 
        Activity 3 can be viewed as an extension of Activity 2 in 
        looking at the broader process that led to the incident and 
        implications for the rest of the CA/T project, as well as 
        tunnels elsewhere.

    The primary objective of the independent review was to evaluate the 
probable cause of the failure of the ceiling anchor support system. A 
nine person multidisciplinary team was established to execute a 
comprehensive work plan that included looking at the ceiling system 
design and loading, oversight roles and responsibilities, in service 
inspection expectations, behavior of materials, workmanship, and 
quality control/quality assurance. The independent review team relied 
on the same testing that was done for the NTSB. The final report was 
completed July 13, 2007. Most of the conclusions and corresponding 
recommendations from the independent review coincide with the NTSB 
recommendations and are being acted on.

        4. The Governor's ``stem to stern'' risk-based safety review 
        was authorized by emergency legislation. The first phase report 
        was submitted to the Governor in November 2006. While the 
        ``stem to stern'' review is a State initiative, FHWA has 
        provided input to the Governor on the Phase I report and is 
        overseeing the State's response to the recommendations 
        contained in that report and the development and implementation 
        of Phase II.

    Based on the Phase I report submitted in November 2006 that 
contained the results of the State's review of the structural and life 
safety systems of the Metropolitan Highway System (which includes but 
is not limited to the Central Artery Tunnel), the State developed a 
Phase I implementation plan that identifies the status of each action 
at the time of the hand-off of the ``stem to stern'' (STS) review to 
Governor Deval Patrick. The corrective actions for the items of 
immediate safety concern identified in the Phase I study have been 
addressed. Other items of less immediate concern identified in the 
Phase I study are currently being pursued by the State. The State 
developed a Phase IA study that contains a small number of items that 
required further analysis based on comments by FHWA and the DOT Office 
of Inspector General. The Phase IA reports were made available to FHWA 
and the DOT OIG for comment. FHWA continues to monitor the resolution 
of all items identified in the Phase I Report. The State has also 
developed the scope for a further Phase II study and work on this 
effort was started on July 1, 2007. FHWA provided input on the scope of 
Phase II study (which includes non-Central Artery MTA facilities) and 
is currently involved in the resolution of the Phase II findings along 
with the OIG. FHWA will continue to oversee implementation of the STS 
findings and recommendations in coordination with the State and the 
OIG. FHWA's Deputy Administrator continues to serve as FHWA's lead 
official in this effort.
    On August 16, 2007, the DOT OIG issued a report titled ``Initial 
Assessment of the Central Artery/Tunnel Project Stem To Stern Safety 
Review.'' Steps are being taken by the State to address the concerns 
expressed in the report.

    Senator Kerry. Well, we sure hope so.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Madam Secretary, I have a whole flock of questions here, 
but I've noted that you've been very patient, you've had much 
skill and grace, sitting there, responding to over an hour and 
a half of nonstop questioning. And so, if I may, I'd like to 
submit my questions to you for your consideration and response.
    Secretary Peters. I would be delighted to do so, Senator.
    The Chairman. And on behalf of the Committee, I thank you 
for your presence here.
    Secretary Peters. Thank you, Mr. Chairman.
    The Chairman. Our next witness is the Honorable Calvin L. 
Scovel III, Inspector General, U.S. Department of 
Transportation.
    General welcome to the Committee.

STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Chairman Inouye, Members of the Committee, we 
appreciate the opportunity to appear today to discuss the 
challenges facing the U.S. Department of Transportation and the 
Nation's transportation system.
    As you know, we report annually on the top management 
challenges facing DOT, as required by Congress and the Office 
of Management and Budget. We will issue our latest report 
shortly.
    At the outset, I would like to briefly highlight three 
pressing transportation challenges that will require the 
Department to work with Congress and other stakeholders to 
identify policy solutions.
    First, agree on a long-term solution on how to finance FAA. 
The Congress has put in place a short-term FAA financing 
measure that reflects the status quo, but a long-term 
reauthorization is needed.
    Second, achieve reform of intercity passenger rail. 
Significant progress is unlikely without a new reauthorization 
of Amtrak, one that addresses the critical questions of where 
intercity passenger rail makes sense, what types of service 
should be provided, how much it should cost, and who pays for 
it.
    Third, resolve the short- and long-term challenges related 
to the Highway Trust Fund. The current surface transportation 
authorization expires at the end of 2009, and DOT and the 
Congress will need to determine funding levels and sources of 
funding in light of the growing demand for Federal 
infrastructure investments and escalating construction costs.
    Now let me turn to the specific challenges that DOT needs 
to address. We have assembled these issues along three cross-
cutting areas.
    First, strengthen oversight to ensure surface safety and 
make the most of the Federal investment in highway and transit 
projects. There are five areas that need sustained management 
focus.
    One, ensure the safety of the Nation's tunnels. FHWA must 
develop and implement a system to ensure that States inspect 
and periodically report on tunnel conditions.
    Two, improve oversight of the Nation's structurally 
deficient bridges. Nearly 72,500 bridges across the Nation have 
been designated as structurally deficient. As we testified last 
month, Federal oversight of bridge inspections and funding for 
bridge rehabilitation and replacement constitute one of the 
most significant challenges facing DOT.
    Three, carry out commitments to closely monitor Mexican 
motor carriers allowed to operate throughout the United States 
under the Department's demonstration project. Assuming the 
demonstration continues, FMCSA must develop checks to ensure 
that all drivers in the demonstration are properly licensed and 
that all trucks have undergone a recent safety inspection.
    Four, reduce highway project costs by promoting the use of 
value engineering. States have foregone opportunities to 
realize hundreds of millions of dollars in additional savings 
that could have been reprogrammed to other transportation 
projects. FHWA must improve its value engineering program to 
strengthen oversight activities and disseminate best practices 
to States.
    And, finally in this area, provide vigilant oversight of 
transit projects to control costs and schedules. FTA has 
several massive infrastructure projects in various stages of 
design or construction, and it will be challenged to ensure 
that these projects stay within budget and on schedule.
    Our second cross-cutting area is to enhance the safety of 
the Nation's aviation system. Three issues here need 
management's sustained focus.
    One, take actions to improve runway safety. Reducing the 
risk of runway incursions--that is, potential collisions on 
airport surfaces--is a critical safety issue that requires 
proactive and ongoing efforts on the part of FAA, airlines, and 
airport operators.
    Two, strengthen risk-based oversight system. In the past 9 
years, FAA has made important progress in developing risk-based 
approaches to safety oversight. However, to meet the demands of 
an ever-evolving aviation industry, FAA must step up its 
efforts to complete implementation of its air transportation 
oversight system, to gather more complete data on the 
facilities air carriers use to complete critical maintenance, 
and to modify its risk-based system for manufacturers to 
effectively respond to the growth in use of suppliers.
    Finally, maintain a sufficient number of aviation safety 
inspectors. The rapidly changing aviation environment makes it 
imperative that FAA maintain a sufficient number of well-
trained inspectors in the right locations.
    Our third cross-cutting area is to reduce airline delays 
and meet anticipated demand for air travel, and address short- 
and long-term challenges to operate, maintain, and modernize 
the National Airspace System. Four areas need management's 
sustained focus.
    First, reduce delays and improve airline customer service. 
These are urgent issues. During the first 7 months of 2007, 
airlines' on-time performance was at the lowest percentage over 
the last decade, with nearly 28 percent of flights delayed, 
cancelled, or diverted. Secretary Peters is committed to 
action, but there is no silver bullet to this problem. The 
answer lies in a mix of solutions, including scheduling, air 
traffic control modernization, and additional ground 
infrastructure. Airlines and airports, likewise, must do their 
part in the short term to effectively implement their customer 
service plans, including contingency plans, especially when 
there are extraordinary flight disruptions that cause 
significant delays, cancellations, and diversions.
    Two, hire and train a new controller workforce. Through 
2016, FAA must hire and train over 15,000 new controllers as 
controllers hired after the 1981 strike retire. FAA is making 
progress, but further efforts are needed, particularly in terms 
of reducing the time and costs associated with on-the-job 
training, the longest and most expensive portion of new-
controller's training.
    Three, reduce cost, schedule, and technical risks with 
NextGen, the most complex, high-risk effort FAA has ever 
undertaken. It will require multibillion-dollar investments by 
the Government and airspace users. FAA needs to continue to 
address complex engineering and integration issues, and develop 
an effective human-factors program for controllers and pilots, 
to ensure anticipated changes can be safely introduced.
    And, four, keep existing modernization projects on track. 
FAA's major acquisitions have a long history of cost growth and 
schedule delays. These were a result of overly ambitious plans, 
changing requirements, complex software development, and poor 
contract oversight. FAA needs to prevent schedule slips, cost 
growth, or performance shortfalls with ongoing projects, that 
could delay much-needed NextGen capabilities for enhancing 
capacity.
    Mr. Chairman, this concludes my statement. I'd be pleased 
to answer any questions you or other Members of the Committee 
might have.
    [The prepared statement of Mr. Scovel follows:]

  Prepared Statement of Hon. Calvin L. Scovel III, Inspector General, 
                   U.S. Department of Transportation
    Chairman Inouye, Vice Chairman Stevens, and Members of the 
Committee:

    We appreciate the opportunity to appear today to discuss the 
challenges facing the U.S. Department of Transportation (DOT) and the 
Nation's transportation system. I also want to express my appreciation 
for the strong support that this Committee has shown for the Office of 
Inspector General (OIG) and its mission.
    As you know, we report annually on DOT's top management challenges 
as required by Congress and the Office of Management and Budget. We 
will issue our latest report on these issues in November.
    This year, we will highlight nine challenges facing DOT across 
multiple modes of transportation, including issues related to funding 
and overseeing infrastructure projects; strengthening highway, rail, 
and air safety; reducing congestion; and modernizing the National 
Airspace System (see Figure 1).

          Figure 1. Fiscal Year 2008 Top Management Challenges
------------------------------------------------------------------------

------------------------------------------------------------------------
<bullet>                             Continuing To Enhance Oversight To
                                      Ensure the Safety of an Aging
                                      Surface Transportation
                                      Infrastructure and Maximize the
                                      Return on Investments in Highway
                                      and Transit Infrastructure
                                      Projects
<bullet>                             Addressing Long- and Short-Term
                                      Challenges for Operating,
                                      Maintaining, and Modernizing the
                                      National Airspace System
<bullet>                             Developing a Plan To Address
                                      Highway and Transit Funding Issues
                                      in the Next Reauthorization
<bullet>                             Reducing Congestion on America's
                                      Transportation System
<bullet>                             Improving Oversight and
                                      Strengthening Enforcement of
                                      Surface Safety Programs
<bullet>                             Continuing To Make a Safe Aviation
                                      System Safer
<bullet>                             Strengthening the Protection of
                                      Information Technology Resources,
                                      Including the Critical Air Traffic
                                      Control System
<bullet>                             Managing Acquisition and Contract
                                      Operations More Effectively To
                                      Obtain Quality Goods and Services
                                      at Reasonable Prices
<bullet>                             Reforming Intercity Passenger Rail
------------------------------------------------------------------------

    The Secretary and her team have been responsive to the challenges 
we have identified in the past. In fact, many of these are long-
standing priorities that are at the heart of DOT's mission. The 
Department's Performance and Accountability Report also tracks progress 
in addressing the issues that we have identified and shows whether 
meaningful actions are underway to address them.
    At the outset, I would like to briefly highlight several pressing 
transportation challenges that will require the Department to work with 
Congress and other stakeholders to identify policy solutions. They are:

  <bullet> Agreeing on a long-term solution on how to finance the 
        Federal Aviation Administration (FAA). Several alternatives 
        have been proposed as to how to best fund FAA, including 
        imposing user fees, adjusting the existing excise tax 
        structure, and allowing the Agency to borrow for long-term 
        capital investments. The Congress has established a short-term 
        FAA financing measure that reflects the status quo, but a long-
        term reauthorization is needed.

  <bullet> Achieving reform of intercity passenger rail. Significant 
        progress on reform is unlikely without a new reauthorization of 
        Amtrak. New reauthorization should address the critical 
        questions of where intercity passenger rail makes sense, what 
        types of service should be provided, how much it should cost, 
        and who should pay for it. DOT must continue to work with 
        Congress to improve the cost-effectiveness of Amtrak's 
        operations to free up funds for Amtrak's capital program within 
        the constrained Federal budget environment.

  <bullet> Resolving the short- and long-term challenges related to the 
        Highway Trust Fund. DOT and Congress must first decide how to 
        address Highway Trust Fund revenue shortfalls that may require 
        near-term reductions in Federal highway spending. The current 
        surface transportation authorization expires at the end of 
        2009, and DOT and Congress will need to determine funding 
        levels and sources of funding in light of the growing demand 
        for Federal infrastructure investments and escalating 
        construction costs.

    Today, I would like to highlight the challenges facing DOT in the 
areas of strengthening aviation and surface safety and getting the most 
from our Federal transportation infrastructure dollars. We have 
assembled these issues along three cross-cutting areas:

  <bullet> Strengthen oversight to ensure surface safety and make the 
        most of the Federal investment in highway and transit projects.

  <bullet> Enhance the safety of the Nation's aviation system.

  <bullet> Reduce airline delays, meet anticipated demand for air 
        travel, and address challenges for operating, maintaining, and 
        modernizing the National Airspace System.
Strengthen Oversight To Ensure Surface Safety and Make the Most of the 
        Federal Investment in Highway and Transit Projects
    Recent fatal highway incidents highlight the need for the 
Department to focus on ensuring the safety of the Nation's surface 
transportation infrastructure, particularly for aging tunnels and 
bridges needing costly rehabilitation, repair, or replacement. 
Additionally, the recent decision to permit some Mexican carriers to 
operate beyond the commercial zones along the border underscores the 
need for the Department to provide vigilant oversight to ensure the 
safety of the Nation's highways. The Department must also maximize the 
Federal transportation investment by ensuring that highway and transit 
projects are completed in a timely and cost-effective manner. This is 
critical at a time when infrastructure needs are increasing and the 
Nation's fiscal resources are struggling to meet growing demands.
    Going forward, the Department will be challenged to balance the 
need to provide funding for projects to repair or replace aging 
infrastructures with funding for projects to reduce congestion with new 
capacity. Accordingly, we have identified the following areas that need 
continued management emphasis.
    Ensuring the safety of the Nation's tunnels: In July 2006, a 
motorist was killed by falling ceiling panels in a tunnel of the 
Central/Artery Tunnel Project in Boston.\1\ The safety problems that 
surfaced on this project call into question the oversight and quality 
control processes for constructing and maintaining the Nation's highway 
tunnels. Accordingly, the Federal Highway Administration (FHWA) should 
develop and implement a system to ensure that states inspect and report 
on tunnel conditions.
---------------------------------------------------------------------------
    \1\ OIG Report Number MH-2007-063, ``Initial Assessment of the 
Central Artery/Tunnel Project Stem To Stern Safety Review,'' August 16, 
2007. OIG reports and testimonies are available on our website: 
www.oig.dot.gov.
---------------------------------------------------------------------------
    To begin addressing these problems, FHWA officials informed us that 
they will issue an advance notice of proposed rulemaking by December 
2007 to seek input on the development of national tunnel inspection 
standards. FHWA should move aggressively on this rulemaking and 
establish rigorous inspection standards as soon as possible.
    Improving oversight of the Nation's structurally deficient bridges: 
In August 2007, 13 people were killed when the Interstate 35W Bridge in 
Minneapolis, which spanned the Mississippi River, collapsed during the 
evening rush hour. The National Transportation Safety Board is 
investigating the cause of the collapse. This tragic incident 
underscores the importance of vigilant oversight for structurally 
deficient bridges (those that have major deterioration, cracks, or 
other deficiencies in their structural components). Nearly 72,500 
bridges across the Nation have been designated as ``structurally 
deficient.'' As we testified last month, Federal oversight of bridge 
inspections and funding for bridge rehabilitation and replacement 
constitute significant challenges for DOT.\2\
---------------------------------------------------------------------------
    \2\ OIG Testimony Number CC-2007-095, ``Federal Highway 
Administration's Oversight of Structurally Deficient Bridges,'' 
September 5, 2007.

  <bullet> Specifically, FHWA should sharpen its focus on developing a 
        data-driven, risk-based approach to bridge oversight to better 
        identify and target those structurally deficient bridges most 
---------------------------------------------------------------------------
        in need of recalculation of load ratings and postings.

  <bullet> Further, FHWA must identify and implement a process to 
        determine the amount of Federal funds expended on structurally 
        deficient bridges.

    Carrying out commitments to closely monitor Mexican motor carriers 
allowed to operate throughout the United States under the Department's 
demonstration project: On September 6, 2007, after responding to 
Congress regarding our audit report issued that day, the Department 
initiated a 1-year demonstration project to permit up to 100 Mexican 
carriers to operate beyond the commercial zones along the United 
States-Mexico border.\3\ Our report called on the Federal Motor Carrier 
Safety Administration (FMCSA) to address the need for coordinated, 
site-specific plans for checking trucks and drivers participating in 
the demonstration project each time they cross the border into the 
United States.
---------------------------------------------------------------------------
    \3\ OIG Report Number MH-2007-065, ``Issues Pertaining to the 
Proposed NAFTA Cross-Border Trucking Demonstration Project,'' September 
6, 2007.
---------------------------------------------------------------------------
    Assuming that future funding for the demonstration project is 
approved and the project continues, FMCSA will need to coordinate with 
the states and the U.S. Customs and Border Protection to carry out the 
plans for these checks. These checks must ensure that all Mexican 
drivers participating in the demonstration project are properly 
licensed and all trucks display a decal denoting a recent safety 
inspection.
    Reducing highway project costs by promoting the use of value 
engineering: One way to more effectively use Federal highway funds is 
to lower project costs by increasing value engineering (VE) usage. VE 
is the systematic process of review and analysis of a project during 
the concept and design phases. A multi-disciplined team of persons 
independent of the project conducts the review. In our March 2007 
report on FHWA's VE program, we found that states have missed 
opportunities to realize hundreds of millions of dollars in additional 
savings that could have been reprogrammed to other transportation 
projects.\4\ FHWA should improve its VE program by strengthening 
oversight and disseminating best practices to states.
---------------------------------------------------------------------------
    \4\ OIG Report Number MH-2007-040, ``Final Report on Value 
Engineering in FHWA's Federal-Aid Highway Program,'' March 28, 2007.
---------------------------------------------------------------------------
    Providing vigilant oversight of transit projects to control costs 
and schedules: The Federal Transit Administration (FTA) has several 
massive infrastructure projects in various stages of design or 
construction. The Agency will be challenged to ensure that project 
sponsors keep these projects within budget and on schedule. Vigilant 
oversight of these projects will be particularly important as FTA 
simultaneously continues its oversight of a large portfolio of other 
transit projects across the country. For example, the magnitude of 
ongoing major surface transportation projects in New York City, with an 
estimated cost of over $16 billion (this includes about $8.48 billion 
in Federal funds) warrants close FTA oversight to ensure that project 
sponsors are exercising sound project and financial management.
Enhance the Safety of the Nation's Aviation System
    Safety is FAA's highest priority. For more than 5 years, FAA and 
the U.S. aviation industry have experienced one of the safest periods 
in history--even though the industry has undergone dramatic changes. 
However, the August 27, 2006, crash of Comair Flight 5191 (when pilots 
attempted to take off from the wrong runway) serves as a reminder that 
we must do more to make a safe system safer. We have identified the 
following areas that need sustained focus.
    Taking proactive actions to improve runway safety in light of 
recent serious incidents: Reducing the risk of runway incursions 
(potential collisions on airport surfaces) is a critical safety issue 
that requires both proactive and ongoing efforts on the part of FAA, 
airlines, and airport operators. As shown in Figure 2, the number of 
runway incursions decreased from a high of 407 in Fiscal Year (FY) 2001 
to a low of 323 in FY 2003. However, the number of runway incursions 
has slowly increased since 2003, reaching a high of 371 in FY 2007--a 
12-percent increase over FY 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Serious runway incursions also continue to occur. For example, on 
July 19, 2007, at Chicago O'Hare International Airport, a collision was 
barely avoided when a United Airlines aircraft exited the wrong taxiway 
and taxied directly underneath the path of an arriving U.S. Airways 
aircraft. Although the controller instructed the U.S. Airways aircraft 
to go around, it over-flew the nose of the United aircraft by 50 to 70 
feet.
    These incidents underscore the need for proactive efforts that are 
both technological and programmatic in nature. A key technology for 
reducing runway incursions is the Airport Surface Detection Equipment--
Model X (ASDE-X) program. FAA is developing ASDE-X to aid air traffic 
controllers in preventing runway incursions.
    Keeping this important technology on track is critical because 
ASDE-X is currently at risk of not meeting its cost and schedule goals 
to commission all 35 systems for $549.8 million by 2011.
    When we testified before the Senate Appropriations Committee in 
May,\5\ FAA had already expended about $288 million (52 percent of the 
total ASDE-X planned funding) but had only deployed 8 of the 35 
systems. Additionally, at the deployed sites, FAA had yet to implement 
the planned capability to alert controllers of potential collisions on 
intersecting runways and taxiways.
---------------------------------------------------------------------------
    \5\ OIG Testimony, CC-2007-054, ``FAA's FY 2008 Budget Request: Key 
Issues Facing the Agency,'' May 10, 2007.
---------------------------------------------------------------------------
    FAA also needs to take programmatic actions to reduce runway 
incursions. In May, we reported \6\ that several national initiatives 
for promoting runway safety (undertaken by FAA as early as 2000) have 
waned as the number of incidents declined and FAA met its goals for 
reducing runway incursions. Actions needed include:
---------------------------------------------------------------------------
    \6\ OIG Report Number AV-2007-050, ``Progress Has Been Made in 
Reducing Runway Incursions, but Recent Incidents Underscore the Need 
for Proactive Efforts,'' May 24, 2007.

  <bullet> Improving information sharing among users to identify root 
        causes of pilot deviations and communicate best practices to 
---------------------------------------------------------------------------
        reduce runway incursions.

  <bullet> Placing additional focus on controller human factors issues 
        and training to improve individual, team, and facility 
        performance.

  <bullet> Assigning greater authority and accountability at the 
        national level to ensure that runway safety remains a priority 
        for all FAA lines of business.

    FAA has begun addressing these concerns. For example, FAA met with 
airline and airport officials and agreed to a five-point, short-term 
plan for improving runway safety. The plan's major focus includes 
conducting safety reviews at airports where wrong runway departures and 
runway incursions are the greatest concern, accelerating the deployment 
of improved airport signage and markings at the top 75 airports ahead 
of the June 2008 mandated deadline, and reviewing cockpit procedures 
and air traffic clearance procedures. These efforts are clearly steps 
in the right direction, but their success will depend on ensuring that 
the current momentum continues and that runway safety remains a high 
priority for all users of the National Airspace System.
    Strengthening risk-based oversight systems for air carriers, 
external repair facilities, and aircraft manufacturers: In the past 9 
years, FAA has made important progress in developing risk-based 
approaches to safety oversight of air carriers; aircraft manufacturers; 
and, most recently, aircraft repair stations. According to recent data 
provided by FAA, it has implemented the Air Transportation Oversight 
System at 110 air carriers; however, 8 carriers still need to be 
converted to the new system. FAA plans to complete this transition by 
the end of calendar year 2007. In addition, ATOS requires the use of a 
team of inspectors with specialized expertise, not only in technical 
areas such as maintenance and electronics, but also in conducting risk 
assessments. Based on information provided to us, FAA has not developed 
a plan that details how this transition can be accomplished with the 
Agency's limited inspector resources. FAA has indicated that it is 
reconfiguring field offices to more efficiently use existing and newly 
hired inspector resources in conjunction with the transition, but has 
not fully addressed how it plans to ensure these inspectors have the 
skills needed.
    FAA needs to refine its safety oversight of aircraft repair 
stations. For its new risk-based system to be effective, FAA must have 
a sound process for determining where critical aircraft maintenance is 
performed. FAA developed new inspector guidance and air carrier 
processes to address this problem, but these efforts still fall short 
of providing FAA with the information it needs. For example, FAA 
developed a process for air carriers to report the top 10 critical 
maintenance providers used each quarter, but this reporting is 
voluntary; also, FAA inspectors are not required to validate the data 
that air carriers submit.
    Further, FAA's new risk-based system does not include a process for 
overseeing critical repairs performed by non-certificated repair 
facilities. In 2005, we reported that over 1,400 non-certificated 
repair facilities were performing maintenance for U.S. air carriers and 
that more than 100 of these facilities were located in foreign 
countries.\7\ FAA's efforts to improve its oversight of non-
certificated repair facilities are still underway.
---------------------------------------------------------------------------
    \7\ OIG Report Number AV-2005-062, ``FAA Safety Oversight of an Air 
Carrier Industry in Transition,'' June 3, 2005.
---------------------------------------------------------------------------
    FAA will also need to modify its risk-based system for 
manufacturers so that inspectors can more effectively oversee 
manufacturing operations in today's complex aviation environment. The 
new system was not designed to address the increasingly prominent role 
that aircraft part and component suppliers now play in aviation. Rather 
than build the majority of their aircraft within their own 
manufacturing facilities using their own staff, manufacturers now have 
large sections of their aircraft built by domestic and foreign part 
suppliers. Therefore, FAA will also need to ensure that its risk-based 
system includes an assessment of the number of suppliers manufacturers 
now use.
    Maintaining a sufficient number of inspectors: The rapidly changing 
aviation environment makes it imperative for FAA to maintain a 
sufficient number of inspectors in the right locations. FAA has 
approximately 4,000 inspectors located in offices throughout the United 
States and in other countries. These inspectors must oversee both 
domestic and foreign aspects of air carriers' maintenance and 
operations. FAA expects to hire approximately 287 aviation safety 
inspectors in FY 2008. FAA also expects to lose approximately 200 
aviation safety inspectors during the same period, which would result 
in a net increase of 87 inspectors in FY 2008. FAA requested funding 
for these 87 inspectors in FY 2008; this would be an increase over FY 
2007 staffing levels. FAA faces an additional challenge with 
approximately 48 percent of the inspector workforce eligible to retire 
by 2012.
    FAA must ensure that its inspectors are properly trained. Using 
risk-based oversight systems is a foundational part of FAA's plan to 
meet future oversight challenges, but it requires that inspectors be 
skilled in risk analyses. Therefore, the Agency needs to improve its 
hiring and training efforts if it is to maintain a sufficient number of 
inspectors with the right skill set to oversee a dynamic aviation 
industry.
Reduce Airline Delays, Meet Anticipated Demand for Air Travel, and 
        Address Challenges for Operating, Maintaining, and Modernizing 
        the National Airspace System
    The Department is pursuing a national strategy to reduce congestion 
across all modes of transportation. Congestion limits economic growth, 
wastes fuel, and costs billions of dollars in lost productivity each 
year. This will likely remain a prominent challenge for the Department 
for some time, particularly with regard to air travel. We are seeing 
record-breaking flight delays and cancellations, and forecasted air 
travel demands will continue to strain system capacity. This year's 
airline customer service issues drew national attention and underscored 
the need for the Department's continued focus in this critical area. 
While the Department has made progress on implementing a number of 
congestion-related initiatives this past year, the strategy was 
developed before this year's significant air travel problems. Reducing 
aviation delays and customer dissatisfaction with air travel is the 
most urgent congestion priority facing the Department. The Department 
and FAA also face several challenges in operating and modernizing the 
National Airspace System. This includes hiring and training a new air 
traffic controller workforce, reducing risks associated with the Next 
Generation Air Traffic Control System (NextGen), and ensuring that 
current modernization projects remain on track.
    Reducing delays and improving airline customer service while 
meeting the anticipated demand for air travel: Reducing delays and 
meeting the anticipated demand for air travel are urgent issues. The 
National Airspace System is operating at the fringes of capacity, and 
record-breaking flight delays and cancellations are leading to long, 
on-board delays.
    During the first 7 months of 2007, airlines' on-time performance 
was at the lowest percentage over the last decade, with nearly 28 
percent of flights delayed, canceled, or diverted. During the same 
period, over 54,000 scheduled flights, affecting nearly 3.7 million 
passengers, experienced tarmac delays of 1 to 5 hours or more (see 
table). This is an increase of nearly 42 percent as compared to the 
same period in 2006.

      Table.--Number of Flights With Tarmac Delays of 1 to 5+ Hours
                 [January Through July of 2006 and 2007]
------------------------------------------------------------------------
              Time Period                   2006       2007     % Change
------------------------------------------------------------------------
1-2 Hrs.                                    33,438     47,558      42.23
2-3 Hrs.                                     3,781      5,213      37.87
3-4 Hrs.                                       710      1,025      44.37
4-5 Hrs.                                       120        189      57.50
5 or > Hrs.                                     27         44      62.96
------------------------------------------------------------------------
    Total:                                  38,076     54,029      41.90
------------------------------------------------------------------------
Source: BTS data.

    Consumer complaints are also rising. DOT's Air Travel Consumer 
Reports disclosed that, for the first 7 months of 2007, complaints 
relating to flight problems (delays, cancellations, and missed 
connections) more than doubled, from 1,096 to 2,468, as compared to the 
same period in 2006.
    The Department should take a more active role in overseeing 
customer service issues to ensure that airlines comply with their 
policies involving flight problems. Secretary Peters is committed to 
taking action, but there is no ``silver bullet'' solution to this 
problem. We believe that a cumulative mix of solutions would help the 
situation, including scheduling procedures, air traffic control 
modernization, and additional ground infrastructure. Other solutions, 
such as peak hour pricing, involve complex policy questions. It is also 
important to remember that the traveling public will likely face 
similar air travel problems in the spring and summer of 2008 and 2009 
before they experience any real relief from capacity problems.
    The airlines and airports must also do their part in the short term 
to effectively implement their customer service plans--including 
contingency plans--especially when their extraordinary flight 
disruptions cause significant delays, cancellations, and diversions.
    Hiring and training a new controller workforce: Through 2016, FAA 
must hire and train over 15,000 new controllers as controllers hired 
after the 1981 strike retire. In December 2004, FAA developed a 
comprehensive workforce plan to address this challenge and issued the 
first in a series of annual reports to Congress. FAA issued its first 
update to the plan in June 2006 and the second in March 2007. In 
February, we issued the results of our review of FAA's progress in 
implementing its controller workforce plan.\8\ Overall, we found that 
FAA continues to make progress in implementing a comprehensive staffing 
plan to address the surge in retirements. However, further progress is 
still needed in key areas. These include:
---------------------------------------------------------------------------
    \8\ OIG Report Number AV-2007-032, ``FAA Continues To Make Progress 
in Implementing Its Controller Workforce Plan, but Further Efforts Are 
Needed in Several Key Areas,'' February 9, 2007.

  <bullet> Completing validation of accurate facility-level staffing 
        standards. This is a critical component because FAA has over 
        300 air traffic facilities with significant differences in air 
---------------------------------------------------------------------------
        traffic levels and complexity.

  <bullet> Establishing baseline metrics to measure the effectiveness 
        of controller productivity initiatives. FAA must ensure that 
        reductions in staffing are a result of increased productivity 
        and not simply fewer controllers controlling more traffic.

  <bullet> Continuing efforts to reduce the time and costs associated 
        with on-the-job training. This is the longest and most 
        expensive portion of new controllers' training.

    Reducing cost, schedule, and technical risks with NextGen: The 
development and execution of NextGen is the most complex, high-risk 
effort FAA has ever undertaken and will require multibillion-dollar 
investments from the Government and airspace users. While costs for 
developing and implementing NextGen remain uncertain, FAA expects to 
spend $4.6 billion on NextGen initiatives between 2008 and 2012. The 
bulk of these funds will be spent on developmental efforts and projects 
such as the Automatic Dependent Surveillance-Broadcast Program--a 
satellite-based system that allows aircraft to broadcast their position 
to controllers and other properly equipped aircraft.
    In our February 2007 report, we examined progress with FAA's Joint 
Planning and Development Office,\9\ which is responsible for developing 
a vision for NextGen, and highlighted needed actions. We recommended, 
among other things, that FAA develop a strategy for obtaining the 
necessary expertise to execute NextGen initiatives and review existing 
modernization projects to determine required adjustments.
---------------------------------------------------------------------------
    \9\ OIG Report Number AV-2007-031, ``Joint Planning and Development 
Office: Actions Needed To Reduce Risks With the Next Generation Air 
Transportation System,'' February 12, 2007.
---------------------------------------------------------------------------
    FAA has begun addressing our concerns. FAA must also continue to 
address complex engineering and integration issues and develop an 
effective human factors program (for controllers and pilots) to ensure 
that anticipated changes can be safely introduced.
    Keeping existing modernization projects on track: FAA's major 
acquisitions have a long history of cost growth and schedule delays. 
For example, two acquisitions, the Wide Area Augmentation System (a 
satellite-based navigation system) and the Standard Terminal Automation 
Replacement System (new software and hardware for controllers that 
manage traffic in the vicinity of airports), have experienced cost 
growth of over $4.2 billion since their inception. Problems with FAA 
acquisitions are the result of overly ambitious plans, changing 
requirements, complex software development, and poor contract 
oversight.
    It will be important to keep existing modernization projects on 
track because about 30 of these are intended to serve as platforms for 
NextGen. This includes the $2.1 billion En Route Automation 
Modernization project to replace hardware and software for facilities 
that manage high-altitude traffic. We note that the project is within 
budget and on schedule to be deployed to Salt Lake Center in 2008. 
While FAA has done a better job of managing acquisitions over the last 
several years, some programs are still at risk of further cost growth, 
schedule slips, or diminishing benefits. For example, the benefits 
(expected cost savings) of the FAA Telecommunications Infrastructure 
program (an effort to replace and consolidate all telecommunications 
into a single system) have eroded as costs have increased and the 
completion schedule has slipped. FAA needs to prevent schedule slips, 
cost growth, and performance shortfalls with ongoing projects that 
could delay NextGen capabilities needed to enhance capacity.
    Enhancing air traffic control system security and continuity 
planning: The President has designated air traffic control systems as 
part of the Nation's critical infrastructure due to the important role 
that commercial aviation plays in fostering and sustaining the economy 
and ensuring citizens' safety and mobility. We previously reported 
deficiencies in protecting this critical infrastructure in two areas: 
(1) continuity planning to restore essential air traffic service in 
case of prolonged service disruptions at en route centers and (2) 
review of operational air traffic control services security outside of 
the computer laboratory.
    During FY 2007, under the Deputy Administrator's (now Acting 
Administrator) direction, FAA undertook initiatives and made modest 
progress in both areas, such as developing a concept of operations for 
business continuity planning. However, these are multi-year efforts, 
for which FAA still faces many uncertainties.
    FAA also made progress during FY 2007 in reviewing air traffic 
control systems in the field by developing a methodology to select 
high-risk systems for testing. While this is a good initiative, we have 
identified two areas requiring further attention.

  <bullet> First, there are about 100 systems used to direct air 
        traffic, none of which were reported as having a high-risk 
        impact. After this was brought to management's attention, the 
        Department's Chief Information Officer, the FAA Acting Deputy 
        Administrator, and the FAA Chief Information Officer all agreed 
        to collaborate with the Air Traffic Organization to ensure that 
        air traffic control systems are individually reviewed and 
        categorized in accordance with Government standards and 
        departmental policy, as a key priority for FY 2008.

  <bullet> Second, FAA needs to focus on identifying and preventing 
        unauthorized software changes made in air traffic control 
        systems to meet local (field site) operational needs. As 
        evidenced in our previous audit reports, such software changes 
        could inadvertently create vulnerabilities to air traffic 
        control operations.

    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or other Members of the Committee may 
have at this time.

    The Chairman. I thank you very much, Mr. Scovel.
    I'll be submitting a whole list of questions.
    But, for this moment, on oversight, you've cited tunnels, 
bridges--there are 7,000 of them--and Mexican motorists, 
monitoring them. What is the estimated cost of carrying out 
what you propose?
    Mr. Scovel. Sir, with regard to the inspection of tunnels, 
I don't have a cost figure with regard to that. Our 
recommendation in this area arose from our study of the tunnel 
ceiling collapse in the Big Dig Project in July of 2006, which, 
as Senator Kerry mentioned, unfortunately killed a passenger in 
the tunnel. We discovered, in the course of our review of that 
event, and we recommended to FHWA, that it undertake a tunnel 
inspection program. Frankly, we were surprised to discover, in 
the course of reviewing the incident, that our country has no 
tunnel inspection program. In light of what happened in Boston 
and the age of many tunnels in this country, we thought that 
would be prudent. We recommended it to FHWA. They will 
implement it by the end of this year, as the Secretary 
mentioned.
    With regard to bridges, my understanding of the total cost 
is that somewhere in the neighborhood upward of $60 billion 
will be required to repair structurally deficient bridges. 
There are 72,500 structurally deficient bridges in the country 
right now. We have recommended an immediate plan for FHWA to 
undertake, as Senator Kerry mentioned, our term, a ``risk-based 
and data-driven'' approach to target its very limited inspector 
resources on the most needy bridges.
    The Chairman. How do you propose to finance this?
    Mr. Scovel. Sir, I can't presume to speak for the 
Department. I wish to make clear that our role is one of 
inspection and independent and objective oversight, rather than 
policymaking. We have, in addition to the short-term measures 
that I know Senator Murray has introduced here in the Senate 
and that Chairman Oberstar has introduced in the House, bridge 
inspections and repairs necessarily need to be part of the 
overall financing scheme to repair surface transportation in 
this country. We've identified a number of alternatives, and, 
as the Committee knows, two commissions are presently at work. 
Secretary Peters chairs one of those, and it's due to report 
out by the end of this year. But we've identified financing 
alternatives, and we will leave it to policymakers to determine 
the prudence of any one of those, or combination.
    Certainly, there are exemptions, perhaps to--the fuel tax, 
as the Committee knows. Those could conceivably be paid for 
from the General Fund instead of the Highway Trust Fund. The 
per-gallon fuel tax might be raised. It might be indexed to 
inflation. It could be converted to a sales tax. User charges, 
such as a per-container cargo fee, might be an option. Senator 
Thune mentioned his bonding proposal, certainly that should be 
on the table, as well as tolling and other innovative financing 
techniques that the Department is looking at most 
energetically. And, finally, mileage-based fees may be on the 
table, although we believe that that would be a long-term 
possibility, should the Administration and the Congress decide 
to move in that direction.
    The Chairman. Does the Administration have any 
recommendations to make?
    Mr. Scovel. I'm not aware of any at this time. I know 
Secretary Peters is chairing the commission which is examining 
a number of these alternatives, and we look forward to 
reviewing them, as I know the Committee will, at the end of 
this year, when it reports out.
    The Chairman. On the matter of recommending monitoring 
Mexican motorists, are you suggesting that we can't trust them?
    Mr. Scovel. Can't trust Mexican drivers, sir? No, I don't 
mean to suggest that at all. Our sustained focus for a number 
of years now, ever since the proposal to honor our country's 
agreement under NAFTA and institute a reciprocal trucking 
arrangement with Mexico--our sustained focus has been on 
oversight to make sure that that is done properly and safely. I 
have a number of very capable staff, who, frankly, have made 
their careers on this subject over the last 7 to 8 years.
    With regard to the demonstration project, our immediate 
concern has been the apparent absence, in the Department's 
initial plans, for coordinated onsite plans to ensure that the 
Department's promise, of ``every truck, every time'' to be 
inspected, would be honored. We found, in our review over the 
summer, that there were not coordinated onsite, site-specific 
plans to accomplish that promise. We pointed that out to the 
Department, they responded immediately and initiated the 
demonstration project.
    The Chairman. Runway safety, can you tell us what the 
problems are?
    Mr. Scovel. Sure. Mr. Chairman, a number of problems. And, 
in fact, FAA has identified runway safety as its most pressing 
immediate safety issue. As the Committee knows, aviation safety 
has improved markedly over the last 5 years. However, runway 
safety poses the greatest risk for tragic accidents; and, in 
fact, the most costly accident, in terms of loss of life, 
occurred between a collision of two jumbo jets some time ago--
not in this country, I should add. However, we have had a 
number of--close calls, one in Chicago, one in San Francisco, 
just this year, that, again, highlight the importance of runway 
safety.
    FAA is pinning a lot of its hopes in a system called ASDE-
X, which has great promise; however, in terms of management of 
the contract to install ASDE-X, we have found problems with 
FAA's performance. It's expended over 50 percent of the total, 
it's obligated over 60 percent, yet only nine systems--eight 
systems, in fact--and one has just recently been approved for 
Chicago, so that might make nine systems of the 35--have 
actually been installed, or will soon be installed.
    The deadline--or the goal for installation of all 35 
systems was to be 2011. I think, based on our review of the 
project, we're hopeful, but we have to be realistically 
skeptical, that FAA will be able to make it on time and on 
budget.
    To its credit--and my office always tries to be fair in 
giving credit where credit is due--Bobby Sturgill, the Deputy--
former Deputy Administrator at FAA, currently Acting 
Administrator--in August, convened a special Runway Safety Task 
Force, and came up with a number of very short-term and 
immediate actions that could be accomplished, having to do with 
signage, marking, dissemination of best practices between 
airports to ensure runway safety.
    And I would also like to give credit to FAA for finally 
making good on a point that we have emphasized for a number of 
years, and that is, at the national level, at FAA headquarters 
level, there seemed, to us, to be a lack of proper oversight. 
The Runway Safety Office had lacked a permanent director for 
over 3 years. That's recently been filled, we understand, and 
we have hopes that runway safety will come back to the 
forefront, in terms of proper FAA attention.
    The Chairman. I've been advised that the most important 
airspace in the United States is the New York/New Jersey one. 
It's also the area that many of the problems originate, such as 
delays and what have you. FAA just announced that final plans 
for the redesign of this airspace is on its way. Are you 
involved in this redesign?
    Mr. Scovel. Thank you, Mr. Chairman. We're not involved in 
the redesign. We have been watching it closely, because, in our 
opinion, as you mentioned, New York City appears to be the 
Gordian Knot of air traffic delays in this country. There is a 
ripple effect from everything that happens or doesn't happen in 
the New York area throughout the country.
    Airspace redesign has the promise to be a key to cutting 
that Gordian Knot. FAA estimates that 200,000 hours annually of 
delay might be saved with proper airspace redesign. It has 
exerted great energy in accomplishing airspace redesign in the 
New York/Philadelphia/New Jersey area, where they're close. We 
know FAA would like to move as fast as it possibly can. We're 
aware of the possibility of litigation, and many folks on the 
ground, particularly in areas of New Jersey, that might 
experience jet noise for the first time, have objections to it, 
and they may, indeed, bring suit.
    But if the agency is successful in accomplishing air design 
of the New York/New Jersey airspace, it will help. It is not a 
silver bullet, but it will certainly help ease the congestion 
and delays that result from all the traffic over the New York 
area.
    The Chairman. You said that you're not involved, but you 
monitor. If you find anything wrong, would they take your 
advice?
    Mr. Scovel. With specific reference to airspace redesign, 
sir?
    The Chairman. Yes.
    Mr. Scovel. We have not found anything wrong. We've, 
frankly, applauded their diligent efforts to move as fast as 
they conceivably can, they believe they can, taking into 
account the citizen objections to the new design.
    The Chairman. About the 15,000 more air controllers?
    Mr. Scovel. Yes, sir.
    The Chairman. How long will it take to train them?
    Mr. Scovel. We have significant concerns in this area. As I 
mentioned, and as the Committee knows, after the 1981 strike a 
whole new controller workforce was hired. Many of those folks 
are now eligible for retirement, and they are leaving. They 
have left in larger numbers than FAA first estimated. However, 
again, I'd like to give credit to FAA for doing a pretty good 
job, in our estimation, of adjusting their plans to accommodate 
the higher-than-expected retirement levels. FAA, again, has 
also done a pretty good job of recruiting to fill the 
vacancies. However, it's just that, that gives us concern.
    There is a large number, now, of developmental air traffic 
controllers. And that's the proper term that the agency uses 
when it talks about these new-hires. I have some recent updated 
numbers, just this morning. FAA--these are end of Fiscal Year 
2007 numbers--FAA projected 700 retirements, the actual 
retirements were 128 over that projection. Again, we think FAA 
made a pretty good stab at quickly adjusting to that. FAA 
projected 1,197 total losses; actual losses were 362 over that 
projection. FAA planned to hire 1,386 new controllers in Fiscal 
Year 2007, but actually hired 1,815. That was 429 above the 
planned number. So, again, our credit to FAA for reacting 
quickly.
    However, this strengthens the case about the flood of 
developmental controllers that now need to be trained. All of 
these people who have been hired to fill those vacancies need 
to go through the Air Traffic Controller Academy in Oklahoma 
City, then they are sent out to the field to air traffic 
control facilities, where their training, frankly, is a very 
labor-intensive and time-intensive process. They are not fully 
up yet--the newly hired employee--and a fully experienced air 
traffic controller really must sit at their elbow in order to 
educate them on processes and procedures for an extended period 
of time. That ties down manpower within the facility.
    We have recommended to FAA that it take steps to examine 
and improve that training process so that it can get more 
productivity from all its controllers.
    The Chairman. If I hear you correctly, you're predicting 
that we'll have more disasters or more delays. Is that correct?
    Mr. Scovel. I have to be a realist. When you say 
``disasters,'' I don't mean to try to predict that we are going 
to have loss of life. What we will certainly have is great 
dissatisfaction when the delays, that I do think are 
inevitable, simply because--for one reason, we're approaching 
the winter travel season--those delays are inevitable, and we 
will have passengers stranded on the tarmac again for long 
periods of time. And, because some of the air carriers have 
been slow in properly designing and testing their passenger 
care plans and their contingency plans, the carriers won't be 
able to respond in good fashion.
    The Chairman. If you had a very important engagement in New 
York City next Saturday--not this coming Saturday--would you 
take Amtrak or take a flight?
    [Laughter.]
    Mr. Scovel. I'd look very closely at Amtrak, Mr. Chairman. 
In fact, I have ridden Amtrak between Washington and New York 
on business during the week. I do a fair amount of traveling in 
this job, much of it by air, and I've been delayed on virtually 
every single trip, to some extent or another.
    I think, for short-segmented travel, like between 
Washington and New York, here in the Northeast Corridor, Amtrak 
is a viable option.
    The Chairman. The record of the Committee will be held open 
for 3 more weeks, and if you wish, Mr. Inspector General--want 
to change your testimony or add, you're free to do so. I will 
be submitting questions to you, and I expect other members to 
do the same. I hope you'll respond to them.
    Mr. Scovel. I welcome your questions, and thank you, Mr. 
Chairman.
    The Chairman. Thank you very much for your attendance.
    [Whereupon, at 11:57 a.m., the hearing was adjourned.]
                            A P P E N D I X

        Sierra Club--National Parks and Monuments Committee
                                                   October 21, 2007
To: U.S. Senate Committee on Commerce, Science, and Transportation

    Re: Oversight Hearing on the Dept. of Transportation (Oct. 18, 
                                                              2007)

    The Sierra Club, with its 840,000 members nationwide, wishes to 
comment for this Oversight Hearing on two current areas of concern 
concerning the Department of Transportation and its Federal Aviation 
Administration, re the failure to provide due-diligence, 
straightforward, timely implementation, of either

        1. The National Parks Air Tour Management Act (enacted April 5, 
        2000)

        2. The proposed Aviation Noise Abatement Policy (issued by FAA 
        July 14, 2000 in a Federal Register Notice for Comment)
The National Parks Overflights Act of 2000 (NPATMA)
    Congress had intended this legislation, within 2 years of its 
original enactment, to prevent significant adverse impacts of air tour 
noise on units of the National Park system, which were and still are 
barraged by noisy helicopter and fixed-wing, low-level air touring 
enterprises subject to management by the FAA.
    This intent has been unacceptably delayed and frustrated.
    The way Congress intended relief was to have the Park Service (NPS) 
and the Federal Aviation Administration (FAA) jointly develop air tour 
management plans for national parks--though excluding those in Alaska, 
and Rocky Mountain National Park and Grand Canyon National Park. 
Unfortunately, not a single air tour management plan has been completed 
well more than 7 years since the passage of the Act. Among other 
factors, this has mainly been the result of FAA's consistently 
challenging the authority of the Park Service, especially re the 
significance of noise impacts from air tours on national parks.
    Sierra Club believes that Congress should clarify the intent of the 
NPATMA by making it explicit that the Park Service has the unimpeded, 
sole authority to determine the significance of noise impacts on the 
parks, while the FAA has the authority to ensure airspace safety. With 
this clarification, the Park Service will have the clear authority it 
needs to make progress in better protecting natural sounds and quiet in 
the Parks.
    Sierra Club also believes that Congress should stipulate additional 
measures which FAA could have undertaken years ago under NPATMA, and 
failed to do so, again by not exercising due diligence. These were the 
subject of two recent General Accountability Office (GAO) reports. In 
fact, specifics from these two reports have informed certain sections 
in the pending FAA Reauthorization Act from either House.
    If appropriately managed, air tours provide a unique way for a 
reasonably controlled number of park visitors to experience some, 
though not necessarily all, of America's parks. However, we believe it 
is unfair for air tours and their noise to continue detracting from the 
experience of other visitors.
    FAA has not exercised the overall due-diligence required, and 
otherwise has obstructed the progress which Congress intended. As an 
unfortunate result, the National Parks Overflights Advisory Group 
learned in June 2007, that (1) no air tour management plan (ATMP) was 
near completion; and (2) that of $32 million earmarked for air tour 
management, only $9 million had been spent, and that if there were no 
ATMP's soon, the remainder would have to be returned to the U.S. 
Treasury unspent.
    The senior NPS representative at that June 2007 NPOAG meeting 
deplored the situation, and said that the viability of this DOT program 
could be seriously questioned without a single ATMP having been put in 
place. The September 2007 meeting of the NPOAG heard this sad story 
repeated, with the reasons for it essentially unchanged. After October 
1 of next year, many millions of dollars, intended for national parks 
protection from adverse air tour impacts, will increasingly return to 
the Treasury unspent, unless the impasse between the agencies (largely 
created by FAA's negligence, lack of due-diligence, and/or 
obstructionism) is resolved.
FAA Proposed Noise Abatement Policy of 2000
    The FAA has apparently abandoned its efforts to produce a revision 
of its Noise Abatement Policy of 1976.\1\ It was improper, furthermore, 
that the FAA made no disclosure of said abandonment to a thereby blind-
sided, concerned public.
---------------------------------------------------------------------------
    \1\ Wyle Noise Bulletin #53--``FAA's Aviation Noise Abatement 
Policy'' (Oct. 10, 2007--Wyle Laboratories, Inc., Arlington, VA), 
available at http://www.wylelabs.com/content/global/documents/
FAA1976NoisePolicy.
---------------------------------------------------------------------------
Background
    Three months after the FY 2000 enactment of the NPATMA, the FAA 
issued its proposed ``Aviation Noise Abatement Policy 2000.'' The 
Secretary of Transportation thereby published a departmental policy 
statement, which included as Goal 5, ``to provide specific 
consideration to locations in national parks and other Federally 
managed areas having unique noise sensitivities.''
    This was then translated to proposed ``Policy Element 6: Areas with 
Unique Noise Sensitivities'', (discussed at length [see FR 43811] 
within the subject announcement.)
    This element had been a long-standing concern. This policy element 
section had appeared within ``FAA's Noise Policy for Management of 
Airspace over federally Managed Areas'', issued Nov. 8, 1996, by FAA 
Administrator David R. Hinson. The FAA in 2000 reasserted through 
Policy Element 6, a need/intention to focus, ``to identify the extent 
to which low-level noise . . . may adversely impact areas with unique 
noise sensitivities.''
    Elsewhere in the same Federal Register 2000 notice, the FAA said in 
``Section 4: Assessing Aviation Noise'', that it wanted to accomplish 
such identification, ``in the vicinity of national parks in pristine 
areas, and land uses such as wildlife refuges.'' (FR at 43821)
    However, FAA's recent abandonment of the 2000 draft Noise Abatement 
Policy, after all the public comment \2\ it provoked (See Docket FAA-
2000-30109), is unacceptable and incomprehensible. To thereby return 
the Nation to an outdated, 40-odd year old noise policy is unworthy of 
the Department of Transportation, and counter-productive to FAA's own 
stated NextGen goals of a 3x increase in airspace capacity by 2025. 
Aviation growth of such magnitude cannot occur without a properly 
updated Noise Abatement policy. This would include metrics, parameters, 
and thresholds more meaningful/acceptable to the general public, such 
as recently developed by the Commonwealth of Australia.\3\ The 
Australian document confirms the views of many acoustic specialists in 
the U.S., that single-event metrics \4\ and the disclosure of 
``respite'' intervals are especially needed and appropriate.
---------------------------------------------------------------------------
    \2\ Noise Pollution Clearinghouse, ``The Failure of America's 
Aviation Noise Abatement Policy'', by Les Blomberg and James Sharp, 
2002.
    \3\ ``Guidance Material for Selecting and Providing Aircraft Noise 
Information'', Commonwealth of Australia, 2003, at http://
www.dotars.gov.au/aviation/environmental/transparent_noise/pdf/
GuidanceMaterial.pdf.
    \4\ ``What's In Your DNL?'' by William Albee, Tom Connor, Royce 
Bassarab, Roger Odegard, and Clint Morrow, Oct. 2006, at http://
www.wylelabs.com/content/global/documents/dnl.pdf.
---------------------------------------------------------------------------
    Key Questions: Was this 2000 Noise Abatement Policy abandonment 
accepted by any Secretary of Transportation within the past 7 years, 
and if so, by which one(s) and why? Was the interested public informed 
of such abandonment, and how? How does FAA now intend to inform the 
public, and promulgate a comprehensive noise abatement policy?
    The many hundreds of commentators on the Draft Policy and FAA 
Docket, and the Congress itself, deserve a full explanation. The Sierra 
Club was one of those commenters (comment of October 21, 2000, on 
``Draft 2000 Aviation Noise Abatement Policy.)
    To make it clear to the Committee the problems at issue (since FAA 
has suppressed them to date, without response and without a policy), we 
are enclosing a copy of our October 21, 2000 official comment for the 
Docket, now exactly 7 years after its original submission.
Conclusions
    The implications for national parks' aviation noise assessment and 
aviation noise mitigation generally, remain serious, as seen both from

        1. FAA's obstinacy and/or stalling with the NPATMA; and

        2. FAA's failure to achieve--or even offer--a cooperative 
        policy outcome, congruent with NPS, re national parks noise 
        assessment.

    The result is no air tour management plan for any park, now heading 
toward 8 years after the NPATMA, thus threatening the future viability 
of the entire air tour management program for national parks.
    Elapse of so much time on both these matters confirms that the Park 
Service now ought to be legislatively assigned sole authority to 
determine the significance of noise impacts on the Parks.
    The Sierra Club appreciates the time of Committee staff and members 
in undertaking to evaluate and correct this situation. We will respond 
willingly to further inquiry as needed.
            Sincerely,
                                  Dickson J. Hingson, Ph.D.

    Also attached: Sierra Club's Oct. 21, 2000 comment on FAA's Draft 
Noise Abatement Policy

                                                Sierra Club
                                San Francisco, CA, October 21, 2000
Federal Aviation Administration,
Office of the Chief Counsel,
Attention Rules Docket (ACG-200), Docket No. 30109,
Washington, DC.

Re: Draft 2000 Aviation Noise Abatement Policy: Sierra Club Comment

    The Sierra Club, on behalf of our 650,000 members, welcomes this 
comment opportunity on FAA's proposed Draft Noise Abatement Policy. We 
are particularly interested in Goal 5 and Element 6 as to locations in 
national parks and other federally managed, protected areas having 
unique noise sensitivities.
    The focus of many of our comments is on units managed by the 
National Park Service. However, the following statements, and some of 
our comments, apply also to the broader range of ``preserves'', i.e., 
those federally managed, protected areas thus bearing unique noise 
sensitivities. Please note, however, that the Statement which follows 
our Background Principles below is concerned specifically with scenic 
air tours.
Background Principles of Sierra Club re Natural Quiet
    I. The sounds and silences of nature are among the intrinsic 
elements which combine to form the natural environment. Natural sounds 
amidst intervals of stillness are inherent components of the ``scenery 
and the natural and historic objects and the wildlife'' within National 
Monuments, and units of the National Park System and National 
Wilderness Preservation System (all hereinafter called preserves.)
    II. Natural quiet is the extended opportunity to experience only 
natural sounds amid periods of deepest silence. The quiet to be 
preserved or restored is as defined by the National Park Service as 
``the quiet at the lower end of the ambient sound level range that 
occurs regularly between wind gusts, animal sounds, etc., not just the 
average sound level.'' As the Park Service explains, ``Lulls in the 
wind or interludes between animal sounds create intervals where the 
quiet of a sylvan setting is quite striking. In considering natural 
quiet as a resource, the ability to hear clearly the delicate and 
quieter intermittent sounds of nature, the ability to experience 
interludes of extreme quiet for their own sake, and the opportunity to 
do so for extended periods of time (are) what natural quiet is all 
about.''
    III. Many of these preserves are vast, open places of astonishing 
beauty and wilderness. Each preserve area has a distinct and powerful 
aura, fully dependent upon the tenuous natural sounds and natural 
quiet. As such, these areas afford unique opportunities for 
undistracted respite, solitude, contemplative recreation, inspiration, 
and education. Further, these units also provide scarce refuge and 
undisturbed natural habitat for animals. Artificial, human-generated 
noise can disturb some sensitive animal activities. Therefore, noisy 
overflights which disturb the peace are not normally appropriate in our 
preserves.
    Reference: National Park Service, U.S. Department of Interior, 
Report to Congress on Effects of Aircraft Overflights, 1994.
Statement Concerning Scenic Air Tours
    I. The Sierra Club supports management tools and methods to 
diminish or eliminate impacts from aircraft tours and landings 
(including bans of tours and landings wherever and whenever 
appropriate) upon National Monuments and units of the National Park 
System and National Wilderness Preservation System (all hereinafter 
called preserves.)
    II. A goal of agency managers should be to preserve and, where 
impacted, fully restore the natural quiet within their individual 
preserve and to address this issue in the preserve's general management 
plan.
    III. Key Statement:

        a. Appropriate Control and Management:

        The Sierra Club believes that, to be the most appropriate and 
        effective, control over air tour use of airspace above 
        preserves should entirely rest with the respective land 
        management agencies (e.g., National Park Service, U.S. Forest 
        Service, Bureau of Land Management, U.S. Fish and Wildlife 
        Service.) These are the agencies which are in position to 
        understand the preserves most intimately, and which are charged 
        to provide them the fullest possible resource protection.

        b. External Sources of Noise:

        The managing agency should work with responsible parties to 
        reduce or eliminate air tours or landings outside a preserve, 
        if needed to restore natural quiet within the unit. Federal 
        managers of adjoining preserves should coordinate their 
        management planning efforts.

        c. Monitoring:

        The Sierra Club supports the establishment of appropriate noise 
        standards and comprehensive baseline sound level monitoring and 
        sound source inventories of all preserves. This includes 
        continual assessment of noise from all human-generated sources 
        and incorporation of public comments about noise impacts.

        The foregoing Sierra Club Background Principles and Statement 
        re Air Tours Over Preserves admittedly is significantly at odds 
        with FAA's past insistence on ``exerting (FAA) leadership'' in 
        `balancing' the interest of the general public and/or aviation 
        transportation versus ``the need to protect certain natural 
        environments from the impact of aviation noise.'' (Reference: 
        FAA 1996 Noise Policy for Management of Airspace Over Federally 
        Managed Areas, issued Nov. 8, 1996.)

    The historical record is this: FAA' sense of ``balance'' or 
``leadership'' in such matters has inevitably resulted in protracted, 
legalistic delays, litigation, and inappropriate tour aircraft noise 
derogation of premier preserves, such as at the Grand Canyon. This 
stems from its industry-promoting organizational culture, above all.
    FAA has historically failed--time and again--to truly protect the 
natural preserves from the increasing impact of tour aviation noise. 
(See Statement of The Wilderness Society, re this same Docket.) The 
Sierra Club thus agrees with The Wilderness Society that FAA should 
relinquish its felt need to pursue this sort of ``balancing'' insofar 
as the environmental protection and assessment needs of natural 
preserves is concerned. The FAA should instead, at the earliest 
possible opportunity, cede control of environmental assessment, 
standards, and criteria, and related NEPA process-control, etc.) 
insofar as regulation of air tours in noise-sensitive airspace, i.e., 
preserves, is concerned. This may require FAA support for amending 
present law as well as administrative procedure. The FAA would retain a 
constructive consultative role, particularly with regards to various 
airspace efficiency and safety matters.
    A beneficial aspect of this change, from the FAA perspective, might 
be a welcome lightening of its ever-increasing responsibilities 
(becoming nearly impossible; see recent mass media coverage re summer 
airport gridlock and radar failures, etc.) FAA would no longer be 
beleaguered with convoluted NEPA leadership and public-process 
responsibility for the preserves re air tours. Its role there would be 
consultative, and re-focused on safety and efficiency. FAA solicitors 
would also shed some of the enormous burdens of litigation which they 
now carry. FAA would no longer bear the heavy burden of extensive 
scientific noise modeling and baseline noise research involving 
preserves. This consumes so much staff time and fiscal resources. That 
duty would devolve more properly to NPS (or other land agency), perhaps 
in consultation with the Environmental Protection Agency.
    FAA could then focus its concerns of ``balancing'' airspace 
efficiency and technical practicability and environmental sensitivity 
on air tours and other aviation noise over ``non-preserve'' areas. 
These still represent the vast majority of the agency's airspace 
management responsibility. They present--in themselves--more than 
enough, ever-increasing headaches in ``balancing.''
    The Sierra Club says all this because, historically, the FAA has 
ignored Section 4(f) of the Transportation Act, generally preferring 
end runs around it. It likewise has repeatedly ignored the first three 
``bulleted'' items in its own Nov. 1996 ``Noise Policy for Management 
of Airspace over Federally Managed Areas.''
    Illustrative recent examples of FAA neglect of that policy's public 
participation, communication, and ``consult actively'' requirements are

        1. Zion National Park (Utah)

        The inadequate and misleading draft Supplemental Noise Analysis 
        (June 2000) (re Zion National Park) for the St. George (Utah) 
        Replacement Airport was produced despite FAA ``oversight.'' It 
        is likely the Noise Analysis will have to be entirely redone. 
        Section 4(f) of the DOT Act likewise still remains 
        insufficiently addressed by FAA at Zion, in terms of this 
        project (For documentation, contact, Marty Ott, Superintendent)

        2. Saddle Mountain Wilderness Area (Arizona)

        FAA has failed to consult with USFS re this Wilderness, or 
        designate the area as ``noise-sensitive'' in response to the 
        USFS' request of 3 years ago, as protection against the 
        imminent derogation impacts of Grand Canyon air-touring upon 
        said Wilderness. It also neglected its NEPA responsibilities in 
        this regard. (For documentation, contact John Neeling, 
        Wilderness Manager for this unit at North Kaibab National 
        Forest, Fredonia, AZ)

        3. Bryce Canyon and Grand Canyon National Parks

        Noisy helicopter and propeller low-level touring has grossly 
        exceeded levels consistent with Sec. 4(f) of the DOT Act or 
        with the National Park Organic Act, or with the spirit and 
        intent of the 1987 Overflights Act (P.L. 100-91) and 1964 
        Wilderness Act. (For documentation, contact Fred Fagergren, 
        Superintendent, Bryce Canyon National Park, or Ken Weber at 
        Grand Canyon National Park)

        In all of the specific instances cited, requisite FAA 
        consultation has, in our view, been either lacking, 
        insufficient, perfunctory, or otherwise not genuinely 
        comprehensive, responsive or timely.

        The Sierra Club statement on air tours (above) provides some 
        further guidance which now may be applied to this next 
        (following) FAA statement, from the current policy draft.
FAA Statement:
    ``A primary focus for FAA is to identify the extent to which low-
level noise . . . may adversely impact areas with unique noise 
sensitivities. At present, no scientifically verified, predictable 
criteria have been established.'' We respond to this in three ways:

        1. Sierra Club's introductory Statement on Air Tours (Sec. II-
        (a) suggests rather, that FAA's more appropriate role would 
        instead support NPS (or USFS Wilderness Managers, etc.) 
        authority in making this identification and establishing 
        criteria for assessing low-level noise impacts. (This would 
        include establishing particularly stringent criteria for 
        helicopters, which FAA acknowledges are perceived by the 
        general public as more significantly annoying than other 
        aircraft operating at the equivalent decibel level.)

        2. NPS policy prohibits the derogation of Park resources. Until 
        such time as criteria are established, there exists the 
        continuing derogation of Park resources by various low-level 
        air tour impacts. Therefore the current level of use should be 
        made static (i.e., capped) for 3 years (providing enough time 
        for NPS to develop criteria.) If new criteria are not 
        established in 3 years, then the level for existing tours 
        should be decreased 10 percent each year (based on the rate of 
        use at the trigger year), to a level not to exceed 10 percent 
        of use at the three-year trigger date.

        3. The Sierra Club Statement thus means that in the creation of 
        comprehensive noise management plans, low-level scenic tour 
        aviation generally should adhere to NPS' definition of natural 
        quiet, and to NPS' legitimate mission to fully protect or 
        restore it. The standard for natural quiet should be based on 
        audibility and not noticeability standards for both tour and 
        commercial jet aircraft, and for general aviation.
FAA Statement:
    ``One of the cornerstones of the FAA's Year 2000 aviation noise 
abatement policy is the continuation of aircraft source-noise 
reduction.''
Sierra Club Comment:

        1. The FAA should make use of best available technology such as 
        Global Positioning Systems to create flight corridors that 
        avoid areas with unique noise sensitivities. It is likely that 
        many commercial flight corridors over sensitive areas in use 
        today are done so out of precedent and not necessity.

        2. The FAA should commit to establishing quiet technology 
        standards for aircraft under 75,000 pounds, as well as Stage IV 
        standards for larger aircraft. Quiet technology should address 
        not only reduction of high pitched engine noise, but also 
        deeper pitched low frequency noise.
Further Comment re Commercial Jet (High Altitude) Aviation
    The Sierra Club's prefatory (italicized) Statement re Air Tours did 
not specifically address the regulation of high-altitude commercial 
jets traveling longer, point-to-point distances over Parks and 
Wilderness units.
    However, it is becoming obvious that growing jet traffic is 
providing increasingly significant, frequent, and distracting noise 
impacts over otherwise pristinely quiet National Park and designated 
Wilderness units.
    The nation's airspace efficiency needs obviously make it impossible 
to route commercial transportation aircraft around so many Park and 
Wilderness units as now (or may in the future) exist. However, the FAA 
in consultation with the Park Service or other land agency could 
designate a few national parks, and a few national Wilderness 
preservation units as priorities for restriction from at least the bulk 
of this traffic noise, at least for some critical period of the day 
(e.g., sunset and evening hours.) A short (illustrative only) list of 
premier, particularly vulnerable national parks to be so designated 
might then be

        Grand Canyon
        Zion
        Bryce
        Yosemite
        Rocky Mountain

    (Four of these five are taken from the ``short lists'' of NPS 
priority parks for aviation noise concerns, found in Sec. 10.3.4.1 and 
Sec. 10.3.4.2 of the 1994 NPS Report to Congress on Aircraft 
Overflights.) This author previously made similar suggestions in his 
individual comments on FAA's Advance Notice of Public Rulemaking on 
this subject, issued March 17, 1994. Six years later, the need for 
relief and respite in at least a few parks is even more apropos as the 
projected amount of commercial jet traffic--thus noise intrusions--is 
steadily increasing.
    A ``short list'' of a few wilderness units might be similarly drawn 
up for special protection and mitigation.
    The Sierra Club urges the FAA, in consultation with the NPS or 
appropriate land-based agency managers, to so designate those few 
national parks and designated wilderness areas as places for special 
mitigation. The deference to the ``power of place'' of these special 
places would certainly represent a welcome maturation of our 
environmental consciousness and national pride in protecting them.
    Affected transcontinental jet routes would thus be lengthened by 
only a few miles, in most cases. For example, the existing commercial 
east-west jet traffic routes could be ``bowed'' (slightly bent) 10 
miles to either the north or to the south of the Grand Canyon National 
Park's boundaries, with only minuscule additions to total flight 
mileages. This is not a new concept to FAA; it does this sort of 
accommodation all the time with respect to Military Special Use areas.
Conclusion
    Visitors to our national parks and wilderness areas have a right to 
experience the entire natural environment, including the soundscape, 
unimpaired. Within units of the National Park System, natural quiet--
the extended opportunity to experience simple natural sounds amid 
periods of deepest silence--must be preserved for the enjoyment and 
inspiration of present and future generations. The FAA has an 
obligation to reduce and even eliminate intrusions on the experience of 
natural quiet. We appreciate the opportunity to comment on the proposed 
Noise Abatement Policy 2000.
            Sincerely,
                                 Dickson J. Hingson, Ph.D.,
                             Chair, Subcommittee on Noise/Aviation,
                              Sierra Club--Recreation Issues Committee.
    Commenter's Mailing Address: (original shows former address in 
Rockville, UT).

    Sierra Club--Headquarters Mailing Address: 85 Second Street, San 
Francisco, CA 94105.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Hon. Mary E. Peters
    Question 1. In your testimony, you discussed the need to 
drastically overhaul the Federal transportation financing system in 
order to increase the system's alignment with sound economics. How 
would the Federal safety programs that are funded through the current 
trust funds fit into this new paradigm? How do we fairly apportion the 
safety risks among the system's users?
    Answer. As I've emphasized since becoming Secretary of 
Transportation, safety is the number one job of the Department. 
Programs such as the Highway Safety Improvement Program (HSIP) play a 
critical role in enabling States to plan, implement, and evaluate 
safety projects, and I strongly support Congress's actions to 
incentivize States to develop strategic highway safety plans (SHSPs) as 
part of the HSIP. In fact, SHSPs actually include many of the 
attributes that we would be well served to incorporate elsewhere in our 
transportation decision-making processes. Within an SHSP, States must 
set performance-based goals, and must focus their resources on the 
areas of the greatest need. They must track progress toward their 
performance goals, and must evaluate the results of safety projects 
after their completion. SHSPs, unlike most of our surface 
transportation funding programs, focus on performance and 
accountability.
    Regarding financing, I would anticipate that we would continue to 
fund Federal safety programs in the surface sector through the Highway 
Trust Fund, at least in the short term. As States transition to 
alternative financing mechanisms, they could dedicate some portion of 
new transportation revenues to safety expenditures. The transportation 
reforms that I have called for would not reduce the amount of funding 
for safety programs. They would simply--and over time--more closely 
align the sources and amounts of funding with the costs that users 
impose on the system.
    In terms of apportioning safety responsibilities among system 
participants, I believe the ``Next Generation Air Transportation System 
Financing Reform Act of 2007'' transmitted to Congress in February 2007 
serves as a model for maintaining safety roles set forth by law while 
financing these activities with true user fees. Under our proposal, the 
Federal Aviation Administration would retain its safety role, with 
continuation of the current contribution from the Airport and Airway 
Trust Fund to safety operations. The only change in this area would be 
that receipts to the Trust Fund would come from user fees, not excise 
taxes. Our proposal is shaped to leave safety responsibilities 
undisturbed.

    Question 2. In your response to a question last year during your 
confirmation hearing before the Senate Commerce Committee, you pledged 
to make truck safety one of the Department's top priorities and 
committed to ensuring that the Federal Motor Carrier Safety 
Administration (FMCSA) aggressively implements truck safety 
legislation. Truck fatalities rose from 2004 to 2005, increasing from 
5,190 to 5,226. Has the Department been able to reverse this trend?
    Answer. Safety is the Department of Transportation's top priority 
and our efforts have produced results. The large truck fatal crash rate 
per 100 million vehicle miles traveled (VMT) for 2006 is at its lowest 
rate, 1.94 fatal crashes per 100 million large truck VMT, since the 
Department began tracking these figures 30 years ago. We are committed 
to reducing the fatality rate even further.
    Based upon a review of data from the National Highway Traffic 
Safety Administration's Fatality Analysis Reporting System (FARS), 
between 1997 and 2006, fatalities from large truck and bus crashes have 
declined 7 percent from 5,709 in 1997 to 5,309 in 2006. Looking 
specifically at large truck fatalities and excluding fatalities 
associated with buses, from 2004 to 2005, truck-related fatalities 
decreased from 5,235 to 5,212. The number of fatalities decreased 
further in 2006 to 4,995 truck-related fatalities, a 4.7 percent 
reduction over 2005. Relying on the FARS data, we are unable to account 
for the specific statistics cited in the question.
    One of the most important ways we could reduce truck-related 
fatalities further is to increase safety belt usage of drivers of 
commercial motor vehicles (CMVs). Specifically, of the 805 large truck 
occupant fatalities in 2006, 393 (49 percent) were not wearing their 
safety belts. Of these 393 fatalities, 134 were ejected completely from 
their vehicle. Many of these fatalities could have been avoided had the 
large truck occupants been wearing their safety belts. Through focused 
efforts in the last 2 years, we have seen safety belt use increase from 
48 percent to 59 percent. You may rest assured that the Agency will 
continue its efforts to raise the level of safety belt use.
    Another way to bring the fatality numbers down further is the use 
of technologies such as electronic and roll stability control systems, 
lane departure warning systems, and forward collision warning systems. 
The industry is starting to adopt these technologies at a faster pace. 
FMCSA continues to promote and evaluate these technologies. We intend 
to make the adoption of these technologies a part of our enforcement 
regime through settlement agreements when carriers have failed to 
demonstrate safety performance in their operations.

    Question 3. Your Department has received the dubious distinction of 
having its truck driver hours-of-service rules struck down by the 
courts twice in a row. I'm deeply concerned by the Department's failure 
to craft a rule that will clearly increase truck safety and meet the 
requirements of law. What action is the Department going to take to 
comply with the court's decision and how will this action improve truck 
safety?
    Answer. The Department has issued an interim final rule (IFR) that 
addresses the court's concerns by thoroughly explaining the safety 
basis for the rule and by giving ample opportunity for public comment 
so that the Federal Motor Carrier Safety Administration (FMCSA) can 
develop a new final rule in the coming year. The IFR keeps in place on 
a temporary basis the 2 hours-of-service provisions set aside by the 
court while FMCSA conducts its new rulemaking, thereby avoiding the 
disruption in enforcement and compliance efforts that would result from 
an immediate, short-term reversion to the pre-2003 requirements.

    Question 4. The 9/11 Act requires significant levels of cooperation 
and coordination between the TSA and the DOT in order to enhance 
security while improving efficiency and the use of Department 
resources. Can you describe the efforts that your agency is taking to 
strengthen your relationship with DHS? Specifically, please describe 
the progress required by Section 1541 of H.R. 1, the Implementing 
Recommendations of the 9/11 Commission Act of 2007, to develop an annex 
for truck security to the existing Memorandum of Understanding between 
the Departments for transportation security, as well as coordination 
efforts on the awarding, distribution, and oversight of grants.
    Answer. To strengthen the DOT-DHS relationship, Secretaries 
Chertoff and I, along with other high-level officials, continue to meet 
regularly to discuss issues of mutual interest. Effective October 11, 
2007, we entered an important Memorandum of Understanding (MOU) on 
roles and responsibilities for emergency preparedness and response 
activities.
    On the 9/11 Act (the ``Implementing Recommendations of the 9/11 
Commission Act of 2007''), DOT and DHS, including TSA, have formed an 
inter-agency working group to ensure both Departments coordinate and 
cooperate in implementing the actions required by the Act. The group 
holds meetings and conference calls and has agreed to coordinate draft 
documents and reports between the Departments.
    On the annex for truck security to the 2004 MOU between the 
Departments, staff of DOT's Federal Motor Carrier Safety Administration 
and DHS's TSA have been meeting regularly to discuss assignments under 
the 9/11 Act and other subjects where the two agencies interact. These 
discussions address subjects that in many cases we expect to cover in 
the annex, which is due no later than August 3, 2008, under the terms 
of the 9/11 Act. On coordination efforts on grants, the two agencies 
continue to work cooperatively, with DHS serving as the agency with 
primary jurisdiction for transportation security.

    Question 5. Are you getting the cooperation you need from Secretary 
Chertoff?
    Answer. Yes, DHS leadership has been wholeheartedly supportive in 
these efforts.

    Question 6. The 9/11 bill significantly enhances whistleblower 
protections for non-Federal railroad, public transportation, and motor 
carrier employees that report safety and security violations or refuse 
to work in hazardous conditions. What is the Department's plan for 
administering the new provisions and ensuring that protected employees' 
identities are adequately shielded from improper disclosure?
    Answer. The Department has a Legislative Implementation Plan 
underway for the ``Implementing Recommendations of the 9/11 Commission 
Act of 2007'' (the Act), and the new whistleblower protections for 
surface-transportation modes are included. We are currently working 
with the Occupational Safety and Health Administration of the 
Department of Labor and with the Transportation Security Administration 
to implement this aspect of the Act in a manner that prevents improper 
disclosure of employee identities.

    Question 7. What specific steps is the FAA taking to address 
congestion and delay in the short term?
    Answer. The Office of the Secretary and the Federal Aviation 
Administration are meeting regularly with the airline industry and 
aviation officials from the most over-stressed part of our system--the 
New York metro airspace--to develop a plan to alleviate congestion and 
reduce delays, along with steps implemented to address the short term. 
As you know, for the Thanksgiving holiday, the President announced the 
U.S. military would make some of its airspace available for use by 
civilian airlines to keep the air travel system running at full 
capacity. Also, the FAA imposed a holiday moratorium on maintenance 
projects that were not time-sensitive so all FAA equipment and 
personnel could focus on keeping flights on time. With our 
encouragement, many airlines had extra staff and airplanes available to 
expedite check-in and help accommodate passengers affected by 
cancellations and delays.
    We are working to address the symptoms of aviation delays while at 
the same time moving to correct the causes of those delays. In the 
short term we are getting travelers better information about flight 
delays, investigating airlines that have chronically delayed flights, 
and considering stronger consumer protections, such as boosting the fee 
airlines are required to pay for bumping passengers. For the New York 
region, we are moving forward with an ambitious plan to redesign the 
airspace routes over the northeastern United States to allow more 
flights to safely operate in those congested skies. In conjunction with 
these other initiatives, we held a scheduling reduction meeting for JFK 
to develop recommendations for reducing the number of flights into and 
out of that overcrowded airport.

    Question 8. The FAA recently announced final plans to redesign the 
New York/New Jersey airspace. To what extent is this redesign expected 
to reduce delays? How soon can we expect to see the benefits of this 
effort? Is there any way to speed that timeline up?
    Answer. The Record of Decision (ROD) on the airspace redesign was 
issued in September 2007. There are four stages of implementation 
identified in the ROD, with each stage taking approximately 12-18 
months to complete. Implementation activities and meetings are ongoing. 
The first implementation meeting was the first week of October 2007 and 
several additional meetings have subsequently occurred. We expect it to 
take at least 5 years to complete implementation of the selected 
project.
    The selected project for the New York/New Jersey/Philadelphia 
Metropolitan Area Airspace Redesign will reduce delays by more 
efficiently directing aircraft to and from major airports in the two 
metropolitan areas. We estimate there will be a 20 percent reduction in 
airport delay, once implementation is complete, compared to the case 
where nothing had been done.
    We expect to see benefits as soon as we implement any element of 
the select project. The implementation of the first elements of the 
selected project, dispersal departure headings at the Newark Liberty 
International, John F. Kennedy International, and Philadelphia 
International Airports, is planned for December 2007. These new 
departure headings will increase departure efficiency and are expected 
to reduce departure delay by as much as 20 percent during periods the 
dispersal departure headings are in use.
    This airspace redesign project is large and complex. The timing of 
the implementation is driven more by the managing of operational 
changes and identifying available infrastructure resources. It is not 
currently limited by legal or regulatory restrictions. Legal action has 
the potential to slow progress. Elements for each of the implementation 
stages are being prioritized based on their ability to provide relief 
to the congested airspace in the northeast.

    Question 9. The Department appears to have committed to pursuing 
some sort of congestion pricing for JFK or the NY airspace generally. 
Can you provide specific information as to the steps that Department 
has taken to validate that such an approach will reap real benefits in 
terms of reducing delays?
    Answer. Congestion pricing has been successfully deployed across a 
wide range of industries, including aviation, to make the best use of 
scarce capacity. Pricing encourages consumers to use a scarce resource 
during off-peak hours and can dramatically increase the capacity of a 
constrained system.

    Question 10. What steps do you intend to take that will protect and 
strengthen small community access to the NY airspace?
    Answer. No decision has been made concerning how to address 
aviation congestion in the New York area. However, in deciding on a 
course of action, the impact on small community air service will be 
considered.

    Question 11. What do you believe is the impact of general aviation 
on the NY airspace? How do you envision Teterboro Airport playing into 
any broad plans the Department has to reduce congestion in the NY 
region.
    Answer. In Fiscal Year 2007, general aviation accounted for 
approximately 26 percent of the operations at the New York Terminal 
Radar Approach Control and approximately 13 percent of the operations 
at the New York Air Route Traffic Control Center. At the three New York 
airports (Newark Liberty International, LaGuardia, and John F. Kennedy 
International Airports), general aviation overall accounted for less 
than 3 percent of the total operations. The New York Congestion 
Aviation Rulemaking Committee (ARC), established in response to the 
President's request, has taken a regional approach in examining the 
congestion issue and includes Teterboro (in addition to JFK, LaGuardia 
and Newark) as one of the airports being examined for potential 
solutions to congestion. The Secretary will be receiving a report from 
the ARC in December and owes a response to the President by the end of 
the year.

    Question 12. What are the expected benefits of the U.S.-EU Open 
Skies Agreement?
    Answer. The first-stage U.S.-EU Air Transport Agreement will have 
significant economic benefits for the United States and Europe. The 
Agreement has the potential to fundamentally transform the framework 
within which transatlantic air services operate, increasing 
dramatically the quality of competition in the market and benefiting 
consumers, communities, and employees who rely on air transport 
services, both directly and indirectly. The agreement also represents a 
next step in deregulation of the global airline industry, by removing 
regulatory barriers to the emergence of the European airline, 
establishing an EU-wide Open Skies regime with the United States, and 
promoting trans-Atlantic cooperation in areas such as security, 
competition policy, and consumer protection. We believe that these 
benefits will transcend anything achieved through our traditional 
bilateral Open Skies agreements.
    Under the agreement every EU and every U.S. airline will be able 
to:

  <bullet> fly between every city in the European Union and every city 
        in the United States;

  <bullet> operate without restrictions on the number of flights, the 
        aircraft used, or the routes chosen, including unlimited rights 
        to fly beyond the EU and United States to points in third 
        countries;

  <bullet> set fares freely in accordance with market demand; and

  <bullet> enter into cooperative arrangements with other airlines, 
        including code sharing and leasing.

    In addition to the economic impact of the Agreement, both sides 
have underscored their fundamental commitment to the highest standards 
of aviation safety and security. The Agreement provides for enhanced 
cooperation between European and American authorities in these vital 
fields. It also envisions consultations and cooperation between the 
European Union and the United States in the areas of competition law 
and policy, government subsidies and support, environment, and consumer 
protection. The Agreement will establish a Joint Committee to review 
implementation and resolve questions and will further improve 
cooperation between the two sides. Furthermore, the Agreement 
represents a first stage of opening markets and enhancing cooperation. 
The European Union and the United States have agreed to begin a second 
stage of negotiations within sixty days of application of the 
Agreement.

    Question 13. A franchising agreement between a U.S. airline and a 
foreign airline or investor would appear to give a foreign airline or 
investor considerable influence over a U.S. airline's operational 
decisions. While technically different from ownership, this seems to 
violate the spirit of the foreign ownership prohibition. What checks 
does DOT have in place, or what steps is the DOT taking, to ensure that 
franchising agreements do not become de facto ownership arrangements?
    Answer. Section 41102 of Title 49 of the United States Code (``the 
Transportation Code'') directs us to determine that applicants for 
certificate authority to provide interstate and/or foreign air 
transportation of persons, property and mail are ``fit, willing, and 
able'' to perform such transportation and to ensure that all operations 
relating to this authority conform to the provisions of the 
Transportation Code and the regulations and requirements of the 
Department. To determine whether an air carrier is fit, the Department 
must, among other things, find that the air carrier is a U.S. citizen 
as defined in section 40102(a)(15) (49 U.S.C. 40102(a)(15)), which 
requires that the president and two-thirds of the Board of Directors 
and other managing officers be U.S. citizens, that at least 75 percent 
of the outstanding voting stock be owned by U.S. citizens, and that the 
applicant must be under the actual control of U.S. citizens. An arms-
length franchising arrangement between a U.S. airline and a foreign 
airline must be structured to preserve the independence of the U.S. 
airline and its ability to exist outside the franchise. Any substantial 
change in a carrier's operations, ownership or management, including a 
franchising agreement that could affect its ownership or control, must 
be reported to the Department under 14 CFR  204.5.
    In addition, the Department, as part of its responsibilities under 
section 41110(e) (49 U.S.C. 41110(e)), periodically assess changes in 
ownership, management, financial condition, and operations that may 
affect a carrier's continuing fitness (including its control by U.S. 
citizens) since its initial DOT authorization or last fitness review. 
That section provides the Department with the authority to, among other 
things, modify, revoke, or suspend a U.S. airline's authority if it 
either fails to remain fit or fails to file such reports as the 
Department deems necessary to determine whether it remains fit. 
Further, section 41708 (49 U.S.C. 41708) empowers the Department to 
request information and reports that it may deem necessary to carry out 
its responsibilities under the Transportation Code and its regulations.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Mary E. Peters
    Question 1. NHTSA is in the process of developing a Notice of 
Proposed Rulemaking in connection with a provision contained in 
Subtitle C section 10301 of SAFETEA-LU on occupant ejection. The 
provision directs NHTSA to reduce full and partial ejections through 
new performance requirements. Given the importance of this rule to 
protect the driving public, during vehicle rollover and side impact 
events, I would like assurances from you that all occupants regardless 
of size, age or condition, belted or unbelted will be protected from 
full and partial ejections.
    Answer. In developing the proposal to fulfill the SAFETEA-LU 
mandate for an ejection mitigation standard, NHTSA is addressing full 
and partial ejections for all vehicle occupants. Research serving as 
the basis for the proposal has used both child and adult dummies in 
belted and unbelted conditions. NHTSA expects to complete this 
rulemaking by the statutory deadline of October 1, 2009.

    Question 2. Although the requirement to reduce full and partial 
ejections will be implemented through a performance standard, a 
systems-based approach combining advanced glazing, including laminated 
glass, and side curtain air bags shows better performance than either 
technology alone. As NHTSA moves forward with NPRM, are you focusing on 
the benefits of adopting a performance standard that would lead to the 
more protective combined system?
    Answer. NHTSA is developing robust performance requirements that 
will attain the most benefits feasible without specifying any 
particular technology or technology combinations. NHTSA has conducted 
tests of side curtain air bags in combination with laminated glass. 
These tests have shown some level of improved performance over 
individual technologies, and will be included in the body of tests used 
to draft the occupant containment proposal.

    Question 3. In the recent side impact final rule, NHTSA claimed 
that side impact air bags will reduce partial occupant ejections and 
that ``manufacturers will increasingly install air curtains in their 
vehicles because air curtains can potentially be used as a 
countermeasure in preventing ejections in rollovers.'' Does this mean 
the curtains would have to have sustained inflation during the life of 
a rollover crash rather than deflating after several milliseconds in a 
side impact? Is NHTSA implying that air curtains are one of the 
countermeasures that could be used to prevent ejections on rollovers or 
whether they are the only countermeasure that the agency will select to 
prevent ejections in order to comply with section 10301?
    Answer. By their nature, rollover events are considerably longer 
duration events than are side crashes, and tend to be measured in 
seconds rather than milliseconds. In developing a robust occupant 
containment requirement, NHTSA is taking this into consideration. While 
side curtain air bags are one technology that could be used to meet the 
requirements for occupant ejection, other technologies could also be 
utilized to meet the requirements. NHTSA will specify the performance 
requirement, but a particular countermeasure necessary to comply will 
not be selected.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Hon. Mary E. Peters
    Question 1. I understand that Federal regulators have begun to meet 
with airlines that use JFK International Airport to find ways to reduce 
traffic levels. Any plan that comes from these meetings will 
reverberate at airports across the Northeast, including in 
Massachusetts. Please detail the Administration's preferred strategy 
for reducing traffic at JFK, and provide insight as to how airlines are 
reacting to this strategy. What alternative strategies have been 
offered by airlines to meet the demands on a short term basis? When can 
travelers expect the Administration to act on this critical issue? And 
how will these strategies impact airports such as Logan International 
in Boston?
    Answer. The Department has been taking a multifaceted approach to 
air congestion in the New York area. The Administration's preferred 
strategy for reducing delays is through operational improvements and 
capacity enhancements, such as airspace redesign and implementation of 
the Next Generation Air Transportation System (NextGen). Since these 
operational and technology improvements will take time to come on-line, 
the Administration is looking at several options to reduce delays at 
JFK in the short and mid-term.
    We are implementing new operational improvements that will reduce 
delays in the short-term. We are designing new approach paths to JFK, 
LaGuardia, and Newark (EWR). The Northeast airspace redesign will also 
reduce delay for flights in the crowded New York region.
    Additionally, the use of military airspace by commercial aircraft 
was successful for the recent Thanksgiving holiday travel period. We 
believe using this airspace during holiday periods, in combination with 
the efficiencies gained by redesigning the airspace over the Northeast, 
will reduce delay and provide other useful benefits such as less 
exposure to noise and reduced fuel consumption.
    The FAA has held a scheduling reduction meeting to reduce peak hour 
flights at JFK to 81 per hour for the 2008 summer scheduling season. 
This decision came after much analysis. The process is still ongoing, 
but we expect to announce the results of the scheduling reduction 
meeting soon.
    We also chartered a New York Aviation Rulemaking Committee (ARC) to 
help us understand what options are available and how any changes would 
affect the ability of the airlines and airports to serve the traveling 
public. Members of the ARC included officials from the Office of the 
Secretary and Federal Aviation Administration (FAA), the Port Authority 
of New York and New Jersey (Port Authority), airlines, consumer groups, 
and other interested parties. The New York ARC explored five policy 
areas: Operational/Infrastructure Improvement--New York Airspace Czar, 
General Aviation, Voluntary Reductions; Congestion Pricing, Auctions, 
and Aircraft Gauge; Gate Utilization and Perimeter Rule; Priority 
Aviation Traffic Preferences; and International Air Transport 
Association World Scheduling Guidelines, Other Administrative Options.
    No decision has been made concerning how to address aviation 
congestion in the New York area; however, we expect to issue a proposal 
soon. The Department recently announced that it will not pursue 
congestion pricing in the New York area. However, we still prefer 
market-based mechanisms to allocate scarce airspace and airport 
resources more efficiently. Charges for flying into congested airspace 
or airports should more closely reflect the true societal costs of 
those decisions. To the extent they do not, the cost of delays will 
continue to accelerate and ripple throughout our aviation system.
    The Port Authority of New York and New Jersey recently announced 
that it would prefer to use the International Air Transport 
Association's World Scheduling Guidelines to allocate the airspace at 
the New York major airports. The airlines also would prefer the use of 
the World Scheduling Guidelines, but are willing to accept the limited 
use of auctions.
    Since three-quarters of the delays nationwide last summer resulted 
from the congestion surrounding New York, we expect that a reduction of 
congestion will benefit the entire air traffic system, including Logan 
International in Boston.

    Question 2. I understand that the FAA continues to deliberate over 
how height limitations may be imposed on structures near airports. 
These impending rules will have an impact on how building proceeds in 
neighborhoods surrounding airports as well as how airports address 
infrastructure improvements. When can a decision on height restrictions 
be expected?
    Answer. While current Federal Aviation Administration height limits 
serve to protect the airspace around airports, new navigation 
technologies and procedures, as well as the cumulative impact that 
results from an increase of tall structures, have demonstrated the need 
to consider changes in the FAA's obstruction evaluation process. The 
FAA is working with several communities concerning building heights 
around airports. This process considers the plans of communities 
surrounding these airports and recommends building heights that are 
conducive to the safe and efficient flow of air traffic. The FAA is 
working with the airport authorities and local zoning entities in Las 
Vegas, Nevada; Boston, Massachusetts; Miami, Florida; Phoenix, Arizona; 
and Arlington, Virginia.
    This is an ongoing effort because it involves multiple interested 
parties that must take concurrent action such as zoning changes. It is 
important to note the FAA can only recommend such height limitations 
and it is the responsibility of the local governments to take 
conclusive action to control growth around airports.
    The FAA will continue to develop relationships with local zoning 
entities to better secure and protect the diminishing national resource 
that is the National Airspace System. Deliberations to inform these 
decisions are on-going and a time-frame for finalizing them is not yet 
determined.

    Question 3. The General Accounting Office (GAO/RCED-99-155) and the 
National Cooperative Highway Research Program have previously issued 
reports detailing Owner Controlled Insurance Programs (OCIP). 
Notwithstanding the length of time that has passed since the GAO and 
NCHRP reports on OCIP were issued, are the findings and conclusions 
from those reports still as accurate and reliable as they were when 
they were originally issued? If so, please explain your response in 
detail.
    Answer. The National Cooperative Highway Research Program Synthesis 
Study #308--``Owner-Controlled Insurance Program Issues'' was published 
in 2002. The General Accounting Office's report titled: 
``Transportation Infrastructure: Advantages and Disadvantages of Wrap-
Up Insurance for Large Construction Projects'' was published in 1999. 
The FHWA is not aware of any published report that has presented new 
information regarding OCIPs.

    Question 4. Notwithstanding the length of time since the issuance 
of the Federal Highway Administration's Guidelines on Owner Controlled 
Insurance Programs (OCIPs), are they still applicable and reliable for 
the consideration, implementation and administration of OCIPs on 
transportation projects? If not, please explain your response in 
detail.
    Answer. Yes, the guidelines issued on OCIP are still applicable for 
transportation projects. We are not aware of any event or change in 
policy that would necessitate a revision of the guidelines. We believe 
these guidelines remain useful for the consideration, implementation, 
and administration of OCIPs on transportation projects.

    Question 5. Can Owner-Controlled Insurance Programs (OCIPs) be used 
in the aftermath of a disaster to increase the employment of local 
contractors and reduce the need to waive Disadvantaged Business 
Enterprise participation requirements?
    Answer. The FHWA's guidelines allow for the use of OCIPs on 
Federal-aid projects as an eligible cost. The contracting agencies have 
the discretion to decide when it is appropriate to use an OCIP with a 
particular Federal-aid project or program of projects.
    It is not clear how OCIPs would be used to increase the use of 
local contractors. State DOTs are required to meet Disadvantaged 
Business Enterprise (DBE) requirements on a statewide program basis. It 
is not clear how or why OCIPs would reduce any need to waive DBE 
requirements.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. Mary E. Peters
    Question 1. With respect to the campaign you led in May-June 2007, 
in which you and other U.S. Department of Transportation (DOT) staff 
communicated with and sought to contact state Governors and Members of 
Congress seeking to have them oppose California's request for a waiver 
under the Clean Air Act for the California regulations covering vehicle 
emissions of greenhouse gases (referred to below as the ``lobbying 
program''), please explain in detail how the lobbying program 
originated and was planned. Specifically, was this lobbying program 
entirely your doing, or did you or other DOT staff discuss it in 
advance with anyone a part of or connected with the White House, the 
Vice President's Office, EPA, or any other Executive Branch officials? 
Please identify all persons involved in each of those discussions and 
describe the substance of each such discussion.
    Answer. The enclosed copies of documents previously provided to 
Chairman Waxman of the Committee on Oversight and Reform reflect the 
various participants and communications related to this matter.

    Question 2. Did you or other DOT staff discuss the lobbying program 
with industry representatives? Please identify all persons involved in 
each of those discussions and describe the substance of each such 
discussion.
    Answer. I do not recall discussing this matter with industry 
representatives, nor to my knowledge did anyone on my staff.

    Question 3. Please provide me with copies of all documents 
(including e-mails) held by the DOT relating to or reflecting the 
lobbying program described above and any discussion or communication 
with regard to such lobbying program.
    Answer. Enclosed are copies of responsive documents provided to 
Chairman Waxman in response to his request for documents related to 
this matter.

    Question 4. Internal DOT e-mails in late May 2007 stated you 
personally directed the DOT lobbying program for the purpose of 
``facilitating a pushback from Governors'' on the waiver. The e-mails 
also included a script to be used in the lobbying contacts which 
included the language: ``If asked our position, we say we are in 
opposition to the waiver.'' Please state whether as of late May 2007 it 
was your understanding that Bush Administration officials within the 
White House, the Vice President's Office, EPA, or any other Executive 
Branch agency other than DOT opposed granting the waiver requested by 
California. Describe in detail the factual bases for your 
understanding.
    Answer. I do not know what position, if any, officials in those 
agencies or offices held as of late May 2007 concerning the California 
waiver request.

    Question 5. Please provide copies of all analyses, memoranda, e-
mails, and other documents reflecting, supporting or relating to the 
decision of DOT and any other person or unit within the Executive 
Branch to take a position in opposition to the California waiver or 
relating to the lobbying program as described above.
    Answer. Enclosed are copies of responsive documents provided to 
Chairman Waxman in response to his request for documents related to 
this matter.

    Question 6. In an e-mail dated May 23, 2007 from your colleague 
Robert Johnson of DOT to Jess Sharp, White House Domestic Policy 
Council Deputy Director, relating to the planned lobbying program, Mr. 
Johnson stated that you [Secretary Peters] had ``an issue with EPA and 
I need your [Mr. Sharp's] advice.'' Please describe fully the issue 
with EPA that you had as to which Mr. Johnson was seeking advice from 
Mr. Sharp.
    Answer. The issue referenced in the e-mail was the appropriate way 
for DOT to raise awareness of the implications of the California waiver 
petition.

    Question 7. In a response to Mr. Johnson later on May 23, Mr. Sharp 
asked: ``Did you get a call from Marty Hall, COS at CEQ?'' An e-mail on 
May 25, 2007, from Sandy Snyder of DOT to Robert Johnson, subject 
``Phone call from Marty Hall'' stated: ``Marty Hall . . . OK w/S1 
making calls, spoke with Steve Johnson yesterday.'' Please describe 
fully what Mr. Hall reported to DOT as reflected in this e-mail, and 
describe in detail DOT's understanding of the substance of Mr. Hall's 
communications with Steve Johnson.
    Answer. The May 25 e-mail reflects the full substance of Mr. Hall's 
message, and I have no knowledge of the substance of Mr. Hall's 
communications with Steve Johnson.

    Question 8. In an e-mail you sent to Robert Johnson on May 31, 
2007, you stated that your staff ``thought the WH had approved calls to 
the Gov's on the issue I had discussed with Administrator Johnson.'' 
Please confirm that in this e-mail, ``WH'' stands for the White House, 
and that the ``approved calls to the Gov's'' refers to the calls that 
were to be made in opposition to the California waiver request, defined 
in Question 1 above as the ``lobbying program.'' Please describe fully 
the substance of your conversations with Administrator Johnson that you 
referred to in this e-mail and your understanding of the White House's 
approval. Please describe fully all other communications between or 
among you (or other DOT officials or staff) and Administrator Johnson 
(or other EPA or CEQ officials or staff) relating to the California 
waiver request.
    Answer. ``WH'' refers to the White House, but I later learned that 
the relevant communication actually came from CEQ, not the White House. 
The ``approved calls to Gov's'' refers to calls from DOT to Governors 
informing them of the California wavier petition and its possible 
implications for the current, nationally uniform regulatory scheme for 
fuel economy, so that they could consider submitting comments to the 
EPA docket. The substance of my discussion with Administrator Johnson 
concerned DOT's longstanding support of a single Federal fuel economy 
regulatory scheme, and the implications of California's waiver 
petition.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Mary E. Peters
    Question 1. Madam Secretary, you have been on the record that the 
Federal gas tax is inefficient and will not address congestion. You 
have also said that you believe that future transportation investment 
should come from the private sector. I am concerned that if we 
privatize our transportation system, through long-term leases with 
little accountability, the concerns of users and other citizens will be 
ignored. What safeguards are you working to put in place to ensure that 
privatization efforts do not just benefit private entities, but also 
ensure accountability to the public?
    Answer. I agree that safeguards are critical to the success of 
efforts to finance future transportation facilities with reliance on 
private funding sources, and I look forward to working with Congress to 
assure that proper safeguards are in place. We face a shortage of funds 
for needed projects, and the current financing structure prevents us 
from making efficient investments in maintenance and new construction 
and system management and operations, because it does not allow us to 
allocate resources based on the highest returns to the taxpayer and the 
customer.
    It should be emphasized that no public transportation asset could 
be built or operated by the private sector without authorization from a 
public authority. That public authorization will be provided only on 
the basis of a carefully negotiated agreement between the public 
authority and the private operator. These agreements are written in 
such a way as to provide accountability for the concerns of users and 
other citizens. For example, an agreement for a private toll road could 
guarantee that tolls will not rise above certain levels, and that the 
facility will be operated and maintained in accordance with specified 
performance standards. These agreements generally provide that failure 
by the private partner to comply with the terms of the agreement leads 
to the control of the highway reverting to the public authority. In 
addition, where the private partner's revenues are made up of user 
fees, such as tolls, if the private partner is not responding to the 
concerns of users, the public would reduce use of the facility and 
motivate improvements.
    Private sector partners have a built-in incentive to operate as 
efficiently and effectively as possible, and that incentive means that 
private investment in our Nation's infrastructure is likely to result 
in significant public benefits, such as reduced costs, accelerated 
project delivery schedules, increased innovation, competition and 
efficiencies, and increased revenues for use on other transportation 
priorities.

    Question 2. Madam Secretary, private sector financing works when 
there is a revenue stream that can be used to finance future 
investments. But for the majority of nation's transportation system, 
that simply is not possible. Most, if not all, rural transportation 
projects and many urban mega projects don't pencil out for the private 
sector, and can't be tolled at a rate high enough to build the project. 
Given your commitment to private sector financing, how can we expect to 
build and maintain the vast majority of our transportation system when 
it simply is not possible to generate the kind of money needed to 
attract private sector investment?
    Answer. You have raised an important element of the changes needed 
to shift from the current excise-tax financing of our transportation 
system to a more efficient and flexible means to obtain the resources 
needed to maintain and expand our infrastructure in built-up and rural 
locales.
    Private sector participation is possible on projects where tolls 
don't cover all costs and even on projects where there is no tolling. 
The private sector can compete on the basis of the lowest level of 
subsidy they will accept to carry out the project. This approach is 
widely used in Europe. In the United States, it is being used for the 
Missouri Safe and Sound Bridge Improvement Project, where two short-
listed bidders are competing largely on the basis of the lowest level 
of ``availability payments'' they will accept (paid for from tax 
revenues) to bring 802 of Missouri's lowest-rated bridges (many of them 
in rural areas) up to satisfactory condition and keep them in that 
condition for 25 years. A similar approach is ``shadow tolling,'' where 
no toll is charged to highway users, but the payments to the private 
partner depend on the level of traffic on the highway.

    Question 3. Madam Secretary, under SAFETEA-LU, Congress created two 
commissions to examine the financing of the system. The first is the 
National Surface Transportation Policy and Revenue Study Commission and 
the second is the National Surface Transportation Infrastructure 
Financing Commission. It is my understanding, that to date, neither has 
reported on their findings. It would be helpful to have the insights of 
these commissions as we begin to move forward on transportation 
reauthorization and seek to address the shortfall in the Highway Trust 
Fund. Can you please comment on the work of these commissions and let 
us know when can we expect to receive their findings?
    Answer. The National Surface Transportation Policy and Revenue 
Study Commission is coming to closure on the final wording of its 
report. It intends to complete the report during December 2007 and 
print and release the report to Congress and the public during January 
2008. The Commission will coordinate with Congress on the exact January 
release date.
    The National Surface Transportation Infrastructure Financing 
Commission is finalizing an interim report that it expects to release 
in January 2008. The interim report will state what the Commission 
thinks the surface transportation infrastructure financing problem is, 
list possible solutions to the infrastructure financing problem, and 
solicit feedback from stakeholders on the solutions that it is 
considering. The Commission plans to issue its final report in the 
early part of 2009.

    Question 4. Madam Secretary, I understand that you have asked the 
Department's Inspector General to review the Federal bridge inspection 
and repair program and provide recommendations for improving that 
program. But having served as Federal Highway Administrator, you have a 
unique and intimate knowledge of those programs, having been the person 
in charge of them for 4 years. Based on your experience, what ideas do 
you have for making DOT's bridge inspection and repair programs work 
better? Is anything being done to take a fresh look at how the safety 
of bridges are evaluated to assure that funds are going to those 
structures posing the greatest risk to the public?
    Answer. Immediately following the collapse of the I-35W bridge, the 
DOT Inspector General (IG) was asked to conduct a rigorous assessment 
of the Federal-aid bridge program and the National Bridge Inspection 
Standards (NBIS). The IG will be reviewing our program to decide and 
advise us what short- and long-term actions we may need to take to 
improve the program. As demonstrated by the downward trends in 
deficient bridge numbers and the long history of safe bridges across 
the country, our current program is working; however, in the future, we 
believe the program could be improved through the development of 
performance standards that are data-driven and performance-based. As an 
example, future transfers of funds out of the bridge program might be 
permitted only if certain performance standards were achieved.
    We continuously strive to ensure that the quality of our bridge 
inspection program is maintained at the highest level and that our 
funds are utilized as effectively as possible. We have quality control 
systems that oversee the operations and use of our bridges. And we have 
quality control over inspections of bridges to keep track of the 
attention that a bridge will require to stay in safe operation. These 
systems have been developed over the course of many decades and are the 
products of the best professional judgment of many experts. We will 
ensure that any findings and lessons that come out of the investigation 
into the I-35W bridge collapse are quickly learned and appropriate 
corrective actions are institutionalized to prevent any future 
occurrence.
    The FHWA recently completed a ``fresh look'' at the NBIS, 
culminating in an updated regulation that took effect in January 2005. 
The updated regulation included several provisions aimed at making the 
program better, such as an increased emphasis on training, quality 
control and quality assurance, and follow-up on critical inspection 
findings.
    The FHWA continues to support the States in the development and 
implementation of comprehensive management systems to aid in improving 
their bridge programs. Pontis, a bridge management software tool, was 
developed with the assistance of FHWA and is supported through training 
and technical assistance. The NHS Act of 1995 struck the penalty for 
failure to meet the bridge management system requirement originally 
established in the 1991 ISTEA, but most States still use and continue 
to develop bridge management systems.
    We are excited about future advances in bridge deterioration 
modeling and bridge management that are expected to result from the 
FHWA's Long Term Bridge Performance Program (LTBPP). The LTBPP has been 
designed as a 20-year effort that will include detailed inspections and 
periodic evaluations and testing on a representative sample of bridges 
throughout the United States in order to monitor and measure their 
performance over an extended period of time. The program will collect 
actual performance data on deterioration, corrosion, or other types of 
degradation; structural impacts from overloads; and the effectiveness 
of various maintenance and improvement strategies typically used to 
repair or rehabilitate bridges. The resulting LTBPP database will 
provide high quality, quantitative performance data for highway bridges 
that will support improved designs, improved predictive models, and 
better bridge management systems. The program has been underway for 
approximately 1 year.

    Question 5. Madam Secretary, an effective mix of transit and road 
improvements are needed to help relieve congestion, but Federal Highway 
Administration and Federal Transit Administration programs are managed 
independently of each other. Are there ways of improving the 
coordination of these two agencies? Is it your intention that the Urban 
Partnership Program play such a coordination role?
    Answer. The current highway and transit programs are structured and 
funded to give States considerable flexibility in developing the 
appropriate mix of investments to meet their surface transportation 
needs. The Urban Partnership initiative is intended to demonstrate how, 
with proper leadership and a flexible approach, we can improve the 
efficiency and effectiveness of investments to reduce congestion. It 
shows that FHWA and FTA, as well as RITA, can strategically work 
together, coordinate efforts, and advance national policies to reduce 
traffic congestion. The UPA initiative yielded two benefits for the 
Department--funding and programs:

  <bullet> From the funding side, the Department strategically focused 
        its scarce discretionary dollars toward the national priority 
        of congestion reduction. The UPA initiative drew from 13 
        different FHWA, FTA, and RITA discretionary programs to deliver 
        one major national program to reduce congestion. Historically, 
        these funds would be delivered in a less focused manner to 
        support many projects to achieve many different goals and 
        objectives.

  <bullet> From the program side, it moved away from the Federal 
        transportation program's historical modal silos and toward a 
        more coordinated and multi-modal transportation policy. The UPA 
        initiative brought together the planning, environment, 
        operations, capital, research, and policy staffs from FHWA, 
        FTA, and RITA to enable the selection and award of the 
        demonstration projects.

    This coordinated effort to advance these projects to the 
implementation stage continues through a Department-wide Urban 
Partnership Management Team. The decisions made by the team members to 
manage the program and advance the five projects are developed in a 
coordinated setting and delivered to the Urban Partners through 
specific points of contact. In other words, we are delivering the Urban 
Partnership initiative with one Departmental voice.

    Question 6. The Administration has stated the Nation's 
transportation improvement projects can be funded through Public 
Private Partnerships, aggressive tolling, innovative financing and 
redirecting earmarks, and that no increase in the Federal gas tax 
increase is necessary. The Federal Highway Administration's most recent 
Conditions and Performance Report to Congress concludes that Federal 
revenues fall short of providing necessary maintenance of the existing 
transportation network, and fall short of making necessary improvements 
to the network.
    Most, if not all, rural transportation projects, and many urban 
mega projects, don't pencil out for the private sector, and can't be 
tolled at a rate high enough to build the projects. As you know, my 
state has received some funding for one mega project, the Alaskan Way 
Viaduct, and has two additional potential mega projects including the 
Columbia River Crossing and the five-twenty replacement bridge.
    I understand that current and projected Federal transportation 
revenue, even if redirected as you suggest, is insufficient to build 
all the Nation's needed safety and congestion relief projects, 
especially given the increasing costs of construction materials. States 
and local agencies can't fund these projects on their own either, and 
have only so much bonding capacity.
    Can you give us today an estimated percentage of those Department-
identified shortfalls that would be met through public-private 
partnerships, devolution, tolling and redirected current revenues?
    Answer. Congestion pricing provides a powerful mechanism to reduce 
capital investment needs and raise revenues. The 2006 Conditions and 
Performance Report confirmed that congestion pricing, by improving the 
performance of our current highway system, could significantly reduce 
the level of future highway investment that would be required to 
maintain or improve the condition of our highways. The 2006 C&P Report 
found that applying congestion pricing to all of the congested roads in 
the system could reduce the cost to maintain the system by $21.6 
billion per year, or 27.5 percent, leaving it at $57.2 billion, which 
is well below the current level of capital spending. In addition, 
pricing of all congested highway would raise significant revenues, on 
the order of $34 billion per year over the analysis period 2005 to 
2024.
    Public-private partnerships are also a powerful financing 
mechanism, allowing States to generate revenues beyond their existing 
funding and borrowing capacity, thus freeing up money for use on 
projects that require subsidies.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Hon. Mary E. Peters
    Question 1. I understand that only the Administration can enforce 
the Federal law which gives Amtrak trains ``preference'' in dispatching 
over freight trains which share the same right-of-way. I also 
understand that most delays of Amtrak trains are due to delays by host 
railroads. What is your Department doing to pursue enforcement of this 
``Amtrak preference'' statute?
    Answer. I would like to clarify that it is the Department of 
Justice rather than the Department of Transportation that brings about 
an enforcement action in this area. Section 24103 of Title 49, United 
States Code (``Transportation'') provides that ``. . . only the 
Attorney General may bring civil action for equitable relief in a 
district court when Amtrak or a rail carrier engages in or adheres to 
an action, policy or practice inconsistent with this part . . .''.
    The Department is not aware of a time within the last 10 years when 
Amtrak has sought the assistance of the Attorney General in enforcing 
its right of preference in dispatching. This is probably because 
Amtrak's issues with on-time performance go far beyond whether or not 
its trains receive preference in dispatching. Among the other areas of 
concern include the reduction since 1980 in the amount and redundancy 
of rail main lines on routes served by Amtrak, the record volumes of 
freight moving over this smaller system, differences in speeds operated 
by Amtrak and freight trains and the limited places where ``meets'' and 
``overtakes'' can occur on single track rail lines, the lack of 
redundancy in Amtrak, so that delays affecting one train are compounded 
on others dependent upon the timely arrival of trains, and some might 
argue, the unrealistic schedules for passenger trains using highly 
congested rail facilities. I am not sure that litigation on this issue 
would lead to a sustainable improvement in on-time performance.
    FRA meets regularly with all the major freight railroads, and part 
of these meetings is a review of Amtrak's on-time performance and ways 
it can be improved. At least as important is the need to encourage 
capital investment to address rail bottlenecks. The Administration 
proposed a Federal/State program of capital investment benefiting 
intercity passenger rail as part of the FY 2008 budget request. One of 
the purposes for this program that the Administration highlighted was 
making investments to address the bottlenecks that lead to poor on-time 
performance.

    Question 2. Do you believe that passenger rail service can provide 
an adequate alternative to air travel for trips of less than 400 miles?
    Answer. The primary factors influencing intercity travel choice 
between air and rail are trip time, service frequency and the quality 
of service. There are intercity corridors--Washington, D.C. to New York 
City as an example--where rail has consistently demonstrated that it is 
an effective alternative to air for center city to center city trips. 
On the other hand, there are many intercity corridors of 400 miles or 
less in length that do not possess the travel demand to justify the 
capital investment necessary to provide air-competitive rail service.

    Question 3. Do you support S. 294 as passed by the Senate? Will you 
recommend the President veto the bill if it is presented to him in the 
current form?
    Answer. The Administration and department do not support enactment 
of S. 294 in its present form. It fails to make the necessary reforms 
to Amtrak and how this Nation provides intercity passenger rail service 
that the Department believes are necessary for this form of travel to 
achieve its potential to become an important part of our transportation 
system. The Department would like to work with the Congress to address 
these concerns as the legislative process moves forward.

    Question 4. Do you believe that any agency or office within the 
USDOT possesses any authority to regulate the environmental health and 
safety of solid waste processing operations located on railroad 
properties? If so, do you believe that the Federal Government should be 
enforcing such authority? And if so, what activities are performed by 
Department offices and instrumentalities under such authority, and how 
much in Federal funding was used in Fiscal Year 2007 specifically for 
enforcing this authority?
    Answer. The Department of Transportation does not have any specific 
authority to regulate the ``environmental health and safety of solid 
waste processing operations located on railroad properties.'' The 
Federal Railroad Administration (``FRA'') does enforce the Nation's 
rail safety laws where applicable, which may include rail operations 
related to solid waste processing. FRA's enforcement authority is 
primarily directed to the promotion of safe rail operations for the 
benefit of railroad workers and the general public, and does not 
include authority to enforce environmental laws, except for the Noise 
Control Act of 1972 (see 49 C.F.R. Part 210).

    Question 5. Will you recommend imposing caps on the number of 
flights at JFK Airport without recommending caps at Newark Liberty 
International Airport as well?
    Answer. We are still undergoing the scheduling reduction meetings 
process for John F. Kennedy International Airport. No decision has been 
made to hold scheduling reduction meetings for Newark Liberty 
International Airport; however, we are still considering whether to do 
so. The characteristics of Newark and JFK are quite different; 
congestion management policies that work for one airport may not be 
appropriate at another. While we recognize Newark Airport experiences 
delays and actions to reduce those delays are necessary, we are still 
analyzing whether caps at Newark are an appropriate measure at this 
time.
    The New York Aviation Rulemaking Committee (ARC) has taken a 
regional approach in examining the problem and is considering the 
impact of a particular approach at one airport on the remaining 
airports.

    Question 6. Do you believe that implementing congestion pricing 
schemes at New York-area airports will have an impact on the level, 
timing, and amount of air noise experienced by residents in the New 
York-New Jersey area?
    Answer. The goal of congestion pricing is to encourage efficient 
use of scarce resources at an airport by shifting a portion of the 
demand to periods when capacity is readily available. Additionally, by 
smoothing out operations throughout the day, congestion pricing would 
reduce delay. This would reduce the time that aircraft spend in nearby 
holding patterns waiting to land at JFK.

    Question 7. The FAA has always claimed that understaffing of air 
traffic controllers is not a safety issue, because air traffic is 
simply slowed down to safe levels. How do you intend to make sure that 
our air traffic control system is adequately staffed to prevent further 
delays?
    Answer. The FAA has been extremely successful at hiring and 
training controllers nationwide over the past 3 years, following the 
strategy outlined in its annual Controller Workforce Plan. This 
systematic, continuing effort is central to FAA's ability to assure the 
air traffic control system is adequately staffed.
    Staffing at the vast majority of FAA Air Traffic facilities falls 
within the authorized staffing range included in the Controller 
Workforce Plan. In Fiscal Year 2007, the FAA hired 1,815 new air 
traffic controllers and expects to hire a similar number of new 
controllers this year. At the end of September 2007, the FAA had a 
controller workforce of 14,874, well above the planned target of 
14,807. The FAA monitors controller staffing on a daily basis at all of 
its facilities, adjusting hiring as needed to account for all losses, 
including retirements.
    Total operations per controller are roughly the same as in 1999 and 
2000 when the FAA was operating under a staffing agreement with the 
National Air Traffic Controllers Association. The flexibility of the 
2006 contract with NATCA gives the FAA more control over scheduling, 
which helps to guarantee it has the right number of people to manage 
expected traffic.

    Question 8. What criteria did you use in selecting members of the 
Aviation Rulemaking Committee? Why didn't you use the Federal Advisory 
Committee Act procedures and standards in forming this committee? Why 
did you decide not allow this committee to meet in an open forum, 
available to the public and members of the media? What particular 
background and experience of consumer advocates represented on the 
Aviation Rulemaking Committee led you to choose them for participation?
    Answer. The FAA has the authority to establish Aviation Rulemaking 
Committees (ARC) that are exempt from the Federal Advisory Committee 
Act (49 U.S.C. 106(p)(5)). In selecting members for the New York ARC, 
we wanted a broad representation of the major interests in the New York 
area. Airlines, airline associations, consumer groups, the Port 
Authority, and the NY and NJ State DOTs, and other interested parties 
were invited to attend. We wanted a broad, representative group, but we 
also wanted to keep the list manageable. We included people that have 
knowledge of the operational and technical use of the airspace. We also 
wanted experts who could articulate what the impact of any changes to 
the use of the airspace would be on the economy and airlines. Many of 
the options that the NY ARC is considering likely will require an order 
or rulemaking, both of which require notice and comment. Therefore, 
there may be opportunity for public comment in the future.

    Question 9. The National Aeronautics and Space Administration has 
collected survey data on aviation safety as part of a program called 
National Aviation Operations Monitoring Service. Were you aware that 
NASA was conducting this activity? Do you believe it can benefit the 
Department's aviation safety improvement efforts? Have you or anyone 
within the Department asked NASA for this survey data? Have you or 
anyone within the Department been asked by NASA to provide analysis of 
the data? Do you support further investigation by Senate Committee on 
Commerce, Science, and Transportation into the handling of this data by 
NASA and its contractor who collected it?
    Answer. Staff from the National Aeronautics and Space 
Administration (NASA) briefed the FAA Commercial Aviation Safety Team 
(CAST), which is comprised of both representatives from industry and 
government, on their efforts. Consequently, there were some FAA 
officials present during the CAST briefing. The briefing was on some 
preliminary results of the NAOMS survey in 2003. Because the NAOMS 
survey relied on the subjective recollections of pilots over a period 
of 2 to 3 months, the CAST representatives raised questions about the 
methodology of the survey and asked how the results could be compared 
to other sources of data that are routinely collected by aviation 
safety experts. This was particularly important to understand, given 
that it appeared the NAOMS data may differ from the information 
collected from other sources.
    Since that time, FAA and the industry have developed more robust 
pilot reporting mechanisms, including the Aviation Safety Action 
Program (ASAP), which encourages pilots to report events without fear 
of retribution. ASAP requires the report to be submitted within 24 
hours of the event and each report is reviewed by a committee comprised 
of representatives from the airline, labor and the FAA. Because the 
events are immediately reported and reviewed by experts to assure that 
the information is complete, the credibility of these reports is quite 
high.
    When NASA releases the NAOMS data, FAA will incorporate it into the 
Aviation Safety Information and Analysis System (ASIAS). Because of the 
subjective nature of how the information was collected, however, and 
FAA's inability to independently confirm its validity, it is unclear 
how useful it will be, especially given the high reliability of the 
other information input into ASIAS. Through ASIAS, the FAA integrates 
over 20 data sources to help identify areas of emerging risk.
    I believe it would be inappropriate to take a position on whether 
or not the Committee should continue to investigate how the NAOMS data 
was handled by NASA and its contractors.

    Question 10. Do you believe that the Federal Government should be 
spending Federal funds on projects--even those such as `truck-only 
lanes'--which would support infrastructure to allow trucks to operate 
with greater than 80,000-pound loads?
    Answer. I would first like to clarify that the Department does not 
support raising the Federal weight limit on trucks on the Interstate 
System to greater than 80,000 pounds. At the same time, we are 
supporting research on the potential of truck-only lanes as a means to 
increase the overall productivity of our highway system. However, many 
questions remain concerning the operating characteristics of such 
facilities and of the economics and safety implications of permitting 
trucks with weights greater than 80,000 pounds to operate on them.

    Question 11. What are the Department's plans with respect to 
requiring electronic on-board recorders on all new commercial trucks 
and the vehicles of all new entrants?
    Answer. On January 18, 2007, FMCSA published a notice of proposed 
rulemaking (NPRM) to amend its safety regulations to establish new 
performance standards for EOBRs. Also under the proposal, motor 
carriers that have demonstrated a history of serious noncompliance with 
the hours-of-service (HOS) rules would be subject to mandatory 
installation of these electronic on-board recorders (EOBRs).
    The proposal provides that if FMCSA determined, based on HOS 
records reviewed during each of two compliance reviews conducted within 
a 2-year period, that a motor carrier had a 10 percent or greater 
violation rate (``pattern violation'') for certain regulations, the 
Agency would issue the carrier an EOBR remedial directive. The motor 
carrier would be required to install EOBRs in all of its CMVs 
regardless of their date of manufacture and to use the devices for HOS 
recordkeeping for a period of 2 years.
    Finally, under the proposed rule, FMCSA would encourage industry-
wide use of EOBRs by providing the following incentives for motor 
carriers to voluntarily use EOBRs in their CMVs: (1) revising the 
Agency's compliance review procedures to permit examination of a random 
sample of drivers' records of duty status; and (2) providing partial 
relief from HOS supporting documents requirements, if certain 
conditions are satisfied.
    We are currently analyzing the approximately 750 comments received 
in response to the NPRM, and completing additional research and data 
analysis as a result of those comments to determine the content of a 
final rule. Although there are many complex technical issues involved, 
we plan to publish a final rule addressing EOBR use in 2008.

    Question 12. Do you believe universal helmet laws are vital to 
prevent further fatal motorcycle crashes? Do you believe the USDOT or 
any Federal safety agency of the U.S. Government should be prevented 
from providing data to state legislatures regarding the effectiveness 
of universal helmet laws in reducing fatal motorcycle crashes? Do you 
believe that you should be required by law to wear a USDOT-approved 
helmet when operating a motorcycle?
    Answer. The Congress has determined, and the Department believes 
properly, that implementation of a universal helmet law is an issue to 
be left to the States for determination.
    The Department has conducted evaluations in various States of the 
effects of repeal of a universal helmet law and also, with the States, 
collects crash data regarding motorcycles and helmet use. The 
Department believes the evaluations and motorcycle crash and helmet use 
data can be helpful to State legislative deliberations regarding 
motorcycle helmet use and effectiveness. Consequently, the Department 
would favor obtaining authority to share this information with State 
legislatures as they prepare for or participate in consideration of 
motorcycle helmet use and effectiveness issues.
    The Department believes that all motorcyclists should wear a DOT-
certified helmet and other protective gear on every ride. As stated 
earlier, universal helmet use requirements are within the purview of 
the States and best left to the States to decide.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                          Hon. Mary E. Peters
    Question 1. Recently, a 15-year-old Alaskan girl from Juneau 
boarded a plane and flew to Seattle without her parents' permission in 
an effort to meet someone she met over the Internet. The incident 
exposed a potential loophole concerning air travel and children between 
the ages of 13 and 17. What steps does the department believe could be 
taken by the industry, as a whole, to address unsupervised teenage air 
travel and ticket purchase and would the department be willing to 
review individual airline policies on allowing teenagers between the 
ages of 13 and 17 to travel and purchase tickets without parental 
consent?
    Answer. The Department has the authority to communicate with air 
carriers with respect to any air transportation issues. Individual air 
carriers have the authority to establish contract of carriage rules 
precluding the sale of tickets to, or the transport of, unaccompanied 
minors of whatever age they should choose. Starting at age 12 on most 
carriers (age 15 on some carriers), a child can travel alone and the 
airline does not require unaccompanied-minor procedures. An 
unaccompanied-minor procedure is a process that typically requires a 
parent to fill out a form, the airlines to have employees chaperone the 
minor, and an adult, identified on the form that the parent filled out, 
to show identification when picking up the minor.

    Question 2. In the Department's ongoing work to review congestion 
and delays have you considered including delays and cancellations 
related to airline crew problems including, but not limited to, duty 
time requirements and policies?
    Answer. Yes. In our review, we will be considering all factors 
contributing to congestion and delays, whatever the cause.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Trent Lott to 
                          Hon. Mary E. Peters
    Question 1. In your testimony you state that we can respond to 
aviation congestion in the New York region in one of three ways----

        (1) continue with current policies and accept the fact that the 
        region will be congested;

        (2) re-regulate air traffic in this region and have the Federal 
        Government decide who can fly in this airspace and when; or

        (3) use some form of pricing to optimize the use of existing 
        capacity.

    It seems to me that there is a fourth option which is to modernize 
the air traffic control system and add capacity. For example, in 
September the Department issued a Record of Decision for a thorough 
redesign of the New York airspace that the Department estimates will 
increase capacity by twenty percent.

        a. How soon will this redesign be fully implemented?

        b. Is there anything that can be done to accelerate the 
        process?

        c. What are you doing to make the FAA's operations more 
        efficient and to modernize air traffic technology?

        d. As you consider options for New York, what are you doing to 
        ensure that consumer choices aren't limited and that ticket 
        prices don't increase?

    Answer. (a) The NY/NJ/PHL Metropolitan Area Airspace Redesign 
project is very large and complex. The FAA has started implementation 
planning and expects to see the earliest elements operational by late 
2007 or early 2008. There are presently ten lawsuits filed and one 
motion for a stay, which the FAA has denied. Implementation planning is 
proceeding as the lawsuits are being addressed.
    As described in the Record of Decision, implementation for airspace 
redesign will proceed in four stages, with each stage lasting 
approximately 12 to 18 months:

        Stage 1: the first stage involves elements that do not require 
        large-scale changes to other parts of the system. These items 
        may be implemented without changes to the current airspace 
        structures or operations of neighboring facilities. Stage 1 
        includes dispersal headings at Newark, Philadelphia and JFK. 
        Presently procedures are being developed and training 
        requirements established. The additional elements of Stage 1 
        concentrate on initial relief to westbound departures.

        Stage 2: the second stage of implementation entails the 
        integration of the terminal and en route airspace, but does not 
        change the current airspace structures or operations of 
        neighboring facilities.

        Stage 3: the third stage requires changes at other facilities, 
        such as re-sectorization or shifting boundaries, but no changes 
        to the current operational structure.

        Stage 4: the final stage of implementation requires changes at 
        FAA air traffic control facilities. This may include transfer 
        of sectors as well as operational changes for the New York area 
        facilities. These changes will be priority-based on the ability 
        to provide immediate relief to the congested airspace in the 
        northeast.

    (b) Since the FAA is currently facing legal challenges regarding 
the NY/NJ/PHL Metropolitan Area Airspace Redesign, we are moving 
forward to implement the NY/NJ/PHL Metropolitan Area Airspace Redesign 
as described in our Record of Decision. This process will move forward 
as expeditiously as possible while still considering the need to safely 
implement the procedures and the need to comply with all legal and 
environmental considerations.
    (c) FAA is undertaking a number of operational activities to 
increase efficiency and modernize air traffic technology. These 
activities include the following:

        NY Aviation Rulemaking Committee: The Administration is 
        focusing several near-term efforts to address congestion 
        problems, including the development of a New York Aviation 
        Rulemaking Committee (NY ARC). The ARC has five working groups 
        to focus on the details of various congestion mitigation 
        approaches. Air Transport Association member airlines are 
        participating on this particular ARC Working Group.

        Utilization of multiple runways at JFK and Newark: The FAA uses 
        multiple runway configurations whenever weather permits, when 
        there is sufficient demand, and when operationally feasible. 
        Because of the closeness of the three major airports, the 
        airport operations at the three airports must be carefully 
        coordinated. In the fall of 2006, a new runway configuration 
        was implemented at JFK Airport to increase capacity for 
        departures. JFK's three-runway configuration is to arrive on 
        two runways and depart one runway during arrival demand periods 
        and land on one runway and depart on two runways for the 
        departure configuration. Newark Liberty International Airport 
        runway planning uses both parallel runways as well as the 11/29 
        arrival or departure configuration. These actions and planning 
        have been ongoing since the early 1990s to address growing 
        traffic demands and are adjusted seasonally as well as daily in 
        response to weather and traffic demands.

        Improved surface management: The FAA is expediting the 
        deployment of the Airport Surface Detection Equipment--Model X 
        (ASDE-X) system at the John F. Kennedy International Airport. 
        The target for initial operational capability of the JFK ASDE-X 
        system is August 31, 2008, nearly 1 year ahead of the program 
        baseline schedule. ASDE-X will provide safety and efficiency 
        benefits. While ASDE-X does not increase an airport's capacity, 
        it improves efficiency of the existing capacity. The FAA has 
        also committed to providing the airlines and the PANYNJ with 
        preliminary ASDE-X data (via the Data Distribution subsystem), 
        including implementation of additional remote units for 
        coverage of the ramp and gate areas by June 30, 2008.

        Expand use of RNAV procedures: FAA has already implemented 13 
        performance-based navigation (PBN) procedures in the New York 
        area through Fiscal Year (FY) 2007. PBN is comprised of area 
        navigation (RNAV) and required navigation performance (RNP) 
        procedures. An additional 17 PBN procedures are in various 
        stages of development.

        Create new routes where practical: Routing changes are the 
        central component to the NY/NJ/PHL Airspace Redesign. This 
        includes several new arrival and departure routes, as well as 
        changes to existing routes. Overflight routes and airways are 
        also made much more efficient. New routes are designed assuming 
        wide-spread application of RNAV and are not restricted to the 
        current location of ground-based navigational aids. FAA is also 
        pursuing a series of near-term initiatives to address 
        congestion in the northeast that were identified by the New 
        York Short Term Initiatives workgroup that was convened in 
        March 2007. These efforts were defined to be consistent with 
        the NY/NJ/PHL Metropolitan Area Airspace Redesign project and 
        also include routing changes in high altitude airspace.

    Although these activities will help to address air congestion, 
operational improvements alone will not fix the problem of flight 
delays.
    (d) As the President said on September 27, it is absolutely 
essential that we address excessive congestion and delay at the New 
York airports. Our intent is to ensure that passengers are able to make 
their connecting flights and arrive at their final destinations on 
time. By better matching demand with available capacity, we hope to 
accomplish this goal.
    As you note, we can respond to aviation congestion in the New York 
area in three ways--do nothing, impose operational caps, or implement 
some form or congestion pricing. Air fares will rise under either 
operational caps or pricing. However, passengers currently are paying 
for flight delays. A recent survey by Orbitz indicated that 32 percent 
of those surveyed say they now book the earliest flight of the day or 
travel the night before a meeting or appointment, to minimize risk of 
delays and ensure arrival at their destination ahead of time. Doing so 
involves paying for a hotel room and meals--expenses that would not 
have been incurred otherwise.
    Under operational caps or congestion pricing, air carriers have 
several ways to ensure that passenger choice is preserved. First, with 
respect to international flights, air carriers can, to some extent, 
retime their flights into the New York region or use alternative 
connection points within the United States. For example, Chicago, 
Atlanta, and Detroit are just a few gateway airports that are available 
to international flights. Another approach would be for air carriers to 
up-gauge their aircraft size during period of peak congestion. The use 
of larger aircraft enables more passengers direct access to the New 
York region on the same (or fewer) number of operations that exist 
today. I am confident that as air carriers put their passenger 
interests first, within a capacity constrained environment, they will 
be better able to accommodate their needs.

    Question 2. Finally, I am concerned about how limiting flights 
through either caps or congestion pricing will impact smaller 
communities. For better or worse, small communities are dependent on 
the hub or spoke system. If we start constraining capacity at hubs 
rather than increasing capacity, the first flights that will be dropped 
will be the lower volume flights from small communities. The 747 full 
of business travelers from London is going to be able to pay a pretty 
hefty congestion fee--a regional jet coming from a smaller community 
will not be able to pay much. I am under little illusion that my State 
is going to have much in direct flights to airports in the New York 
area. But Mississippi does rely on other hubs, such as Atlanta, for 
connections. As you go through this exercise in New York, what will you 
be doing to ensure smaller communities aren't disproportionately 
affected?
    Answer. Maintaining service to small communities is important to 
the FAA. The High Density Rules for both Chicago O'Hare Airport and 
LaGuardia Airport contained provisions for service to small 
communities. Most recently, in the proposed congestion management rule 
that FAA published in August 2006 for LaGuardia Airport, the agency 
designed three alternative ``carve-outs'' for small communities and 
sought comment on those proposals.
    As we continue to work toward a solution for congestion in the New 
York area, we will consider the importance of connecting small 
communities to the National Airspace System. If congestion pricing or a 
market-based allocation mechanism were to be adopted in New York, FAA 
would certainly consider the impact on small communities. However, we 
are hesitant to develop a national system which politically allocates 
scarce capacity.

    Question 3. If the current aviation taxes are allowed to lapse, how 
will this affect the FAA's programs and the Aviation Trust Fund? What 
effect will this have on the modernization of our national aviation 
system?
    Answer. If the current aviation taxes are allowed to lapse, the 
effects on both FAA's programs and the Airport and Airway Trust Fund 
would be substantial. We estimate that the Airport and Airway Trust 
Fund's uncommitted balance at the end of Fiscal Year 2007 was 
approximately $1.5 billion. This level provides a cushion of less than 
2 months for the FAA's Trust Fund-based activities.
    After the uncommitted balance runs out, FAA would have to rely 
exclusively on General Fund appropriations for operating costs, 
including payroll. It is likely that FAA would start to defer capital 
projects even before the uncommitted balance runs out, in order to 
preserve funding for day-to-day operations. Under no circumstances, of 
course, would safety activities be curtailed in any respect.
    Also, with a couple of minor exceptions, FAA cannot make new 
Airport Improvement Program (AIP) grants without a programmatic 
authorization. This also applies to Letters of Intent. FAA cannot honor 
these commitments until the AIP program is reauthorized.

    Question 4. In the FAA's Airport Capacity Benchmark Report for 
2004, planned improvements at JFK airport included a Precision Runway 
Monitor (PRM) radar system. The PRM allows simultaneous independent 
approaches on closely spaced parallel runways less than 4,300 feet 
apart, returning a portion of lost capacity during adverse conditions 
and thereby reducing delay. I understand that there is currently not a 
PRM at JFK. When will a PRM be installed at JFK?
    Answer. The FAA originally planned to install a Precision Runway 
Monitor (PRM) at John F. Kennedy International Airport (JFK) but 
changed those plans when an airspace study concluded that such an 
operation would adversely impact operations at LaGuardia (LGA) Airport. 
PRM safety procedures require that certain airspace be dedicated as a 
safety zone for PRM breakout maneuvers. Unfortunately, because of the 
close proximity of JFK and LGA, the required Kennedy PRM safety zone 
would reduce LaGuardia's airspace. In summary, while a PRM at JFK could 
increase operations at that airport slightly, operations at LaGuardia 
would need to be reduced by a greater amount.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                       Hon. Calvin L. Scovel III
    Question 1. What recommendations do you have for the Committee on 
resolving the impending revenue shortfall of the Highway Trust Fund? 
Specifically, do you have any ideas on how the auto and truck safety 
programs should be funded as we look at changes to the financing 
structure of the Highway Trust Fund in the future?
    Answer. A comprehensive highway funding framework is needed quickly 
as the Highway Trust Fund (HTF) faces a near-term funding crisis. HTF 
revenues for 2009 are now expected to fall far short of the levels 
previously anticipated. Unless addressed, this shortfall could lead to 
reductions in obligation limitations for Federal highway programs below 
the levels anticipated in the current authorization to prevent HTF 
insolvency. For instance, the American Association of State Highway and 
Transportation Officials (AASHTO) has projected a $4.3 billion Highway 
Account revenue shortfall in 2009 that could require an obligation 
reduction in the highway program of about $16 billion.
    While we don't, at this time, have any specific recommendations, 
the Department must help develop a consensus among the States, the 
highway community, and Congress as to if, and how, this shortfall in 
HTF revenues will be made up. Viable solutions will likely require a 
combination of the following alternatives:

  <bullet> Paying for certain fuel tax exemptions, such as for school 
        buses and state and local government vehicles from the General 
        Fund rather than the HTF.

  <bullet> Raising the per gallon fuel tax, indexing it to inflation, 
        or converting it into a sales tax (which would generate greater 
        revenue as gas prices increased.)

  <bullet> Imposing other user charges and dedicate their revenues to 
        surface transportation, such as the per container cargo fee.

  <bullet> Increasing the use of bonding, tolling, and innovative 
        financing techniques.

  <bullet> Implementing a mileage based fee as has been field tested 
        recently in Oregon.

    Currently, most auto and truck safety programs are funded from the 
HTF. Finding both a near term and long term solution to the HTF revenue 
shortfall problem would address any potential problems for these 
programs as well. Funding these programs from the General Fund, rather 
than the HTF, would eliminate any potential impact a future HTF revenue 
shortfall may have. However, it would force these programs to compete 
with all other domestic programs for funding. Funding them through a 
separate, dedicated user fee or excise tax would make them no longer 
subject to shortfalls in the motor fuel excise taxes. However, the 
stability of these program's funding would be dependent upon the 
stability of the new, and presumably much narrower, fee or tax.

    Question 2. In your testimony, you discussed the tragic collapse of 
the Interstate 35W Bridge in Minnesota this August and call for a 
better system of oversight and funding for bridge repair. Have you 
looked at the impact that large and heavy trucks are having on our 
nation's bridges and whether the current protections in place are 
enough to ensure that our nation's bridges are not being overloaded or 
prematurely damaged due to high axle loads?
    Answer. While we have not specifically looked at the impact of 
large and heavy trucks, our previous work has evaluated the load 
ratings and postings of the Nation's bridges. In March 2006, we issued 
a report on FHWA's oversight of the load ratings and postings of 
structurally deficient bridges on the National Highway System. We found 
that FHWA could improve its oversight of states to ensure that maximum 
weight limit calculations and postings are accurate. The need for 
improved oversight was evidenced by our findings that based on 
statistical projections, load rating procedures were not properly 
followed for 10.5 percent of the structurally deficient bridges on the 
National Highway System and about 7.8 percent of the bridges were 
required to be posted for weight limits but were not posted. Failing to 
follow proper rating procedures or appropriately post maximum weight 
limit signs creates safety concerns that may allow vehicles, including 
trucks, exceeding those limits to use these bridges and accelerate 
their deterioration.
    Shortly after the August 1, 2007 collapse of the Interstate 35W 
Bridge, the Secretary of Transportation asked us to undertake an 
independent review of the National Bridge Inspection Program. As we 
evaluate the program, we will look at current protections beyond those 
reviewed in the March 2006 report, such as enforcement of legal truck 
weights, and determine whether more can be done to ensure that our 
Nation's bridges are not being overloaded or prematurely damaged by 
heavy vehicles. We will take the results into consideration when 
formulating any recommendations for improvements to FHWA's oversight of 
the Nation's bridges.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                       Hon. Calvin L. Scovel III
    Question 1. With respect to the DOT campaign in May-June 2007, in 
which Secretary Peters and other DOT staff communicated with and sought 
to contact state Governors and Members of Congress seeking to have them 
oppose California's request for a waiver under the Clean Air Act for 
its regulations covering vehicle emissions of greenhouse gases, please 
explain in detail all steps taken by the DOT (including but not limited 
to the DOT Inspector General's office) to investigate or evaluate the 
facts relating to those matters.

    Question 2. Please provide copies of all documents reviewed or 
collected in the course of the evaluations(s) and investigation(s) 
described in response to the question immediately above, as well as 
copies of all draft and final memoranda, reports, findings, 
conclusions, recommendations, and all other written work product 
reflecting those investigations.
    Answer 1-2. We are aware that the Department of Transportation 
(DOT) made contact with states and Members of Congress or their staffs 
regarding California's waiver request. We are also aware of a request 
made by Representative Henry A. Waxman, Chairman, House Committee on 
Oversight and Government Reform, for documents related to DOT's 
communications on this topic. In response, as indicated in the June 29, 
2007 letter from the DOT General Counsel to Chairman Waxman (on behalf 
of Secretary Peters), DOT concluded that its efforts to inform the 
public and elected representatives about this issue were consistent 
with its support of a single, national regulatory scheme for motor 
vehicle fuel and economy. Our office has not conducted any reviews or 
collected any documents regarding these communications.
    Chairman Waxman has posted a copy of the DOT letter on his website: 
http://oversight.house.gov/story.asp?ID=1393.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                       Hon. Calvin L. Scovel III
    Question 1. How will your office ensure that the FAA is hiring 
enough controllers to replace those who leave, whether it is because of 
retirements, or because they were unhappy with new working conditions 
FAA unilaterally imposed upon them?
    Answer. We have conducted several reviews and plan to continue 
further assessments of FAA's progress in addressing the expected surge 
in attrition within the controller workforce. In May 2005, we issued 
our first assessment of FAA's progress in implementing key factors of 
its controller workforce plan. We recommended that FAA develop hiring 
plans by facility that identify specifically where and when new air 
traffic controllers will be placed. We also recommended that FAA 
provide information to facility managers so they can begin planning how 
to handle the logistics of a significantly increased percentage of 
trainees at their locations.
    We further recommended that FAA initiate a planned assessment of 
its current facility staffing standards, taking into consideration 
factors such as airspace complexities and runway configurations when 
determining appropriate staffing standards for each facility. FAA 
published its estimates of attrition by location in the last update to 
its controller workforce plan and is in the process of completing 
validation efforts of its facility staffing standards.
    In February 2007, we issued our second assessment of FAA's progress 
in addressing controller attrition. Overall, we found that FAA 
continues to make progress in implementing a comprehensive staffing 
plan to address the surge in retirements. For example, we found that 
FAA has significantly improved its hiring process and has reduced the 
time and costs to train new controllers. However, further progress is 
still needed in the following key areas:

  <bullet> Completing validation of accurate facility-level staffing 
        standards. This is a critical component because FAA has over 
        300 air traffic facilities with significant differences in air 
        traffic levels and complexity.

  <bullet> Establishing baseline metrics to measure the effectiveness 
        of controller productivity initiatives. FAA must ensure that 
        reductions in staffing are a result of increased productivity 
        and not simply fewer controllers controlling more traffic.

  <bullet> Continuing efforts to reduce the time and costs associated 
        with on-the-job training. This is the longest and most 
        expensive portion of new controllers' training.

    We will continue to monitor FAA's progress and report on its 
actions to address this significant challenge. We are currently 
reviewing FAA's management of the controller on-the-job training 
process and plan to issue a report early next year.

    Question 2. Department employees have indicated to me many problems 
with the new headquarters building--that it does not have enough space 
for the entire Department, especially closed-door offices for adhering 
to Federal privacy requirements; and telephone, Internet, and voice-
mail services are too unreliable to effectively conduct daily job 
activities. Has your office investigated whether the new facilities are 
adequate to allow Department employees to perform their duties 
effectively, in light of the $275 million investment which Congress 
made in this brand-new state-of-the-art building?
    Answer. Our office has not conducted any reviews of the adequacy of 
space or of the telephone, Internet, and voice-mail services at the new 
DOT Headquarters building.

                                  <all>

</pre></body></html>
